<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, MARCH 29, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senator Stevens, Domenici, Shelby, Burns, Inouye, 
Dorgan, and Feinstein.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENTS OF:
        HON. MICHAEL W. WYNNE, SECRETARY
        GENERAL T. MICHAEL MOSELEY, CHIEF OF STAFF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Well, thank you, Mr. Secretary and 
General, for bringing along some of the young men and women who 
have returned from service in the war zone. We appreciate the 
opportunity to have photographs taken so we can put them on the 
committee's web site. We're delighted to have an opportunity to 
listen to the Secretary of the Air Force and the Air Force 
Chief of Staff. I believe this is the first time you've 
appeared before our subcommittee.
    Senator Inouye, our co-chair, is at another markup on the 
Indian Affairs Committee, so he will be late today.
    The Air Force continues to support our Nation's forces in 
Iraq and Afghanistan and throughout the world, as well as 
remain vigilant to protect the United States in the airspace 
and cyberspace. The Air Force currently has more than 200,000 
airmen deployed worldwide in support of the combatant 
commanders. In Afghanistan and Iraq, the Air Force is flying 
more than 200 sorties a day, providing close air support, 
theater airlift, intelligence support, refueling, and 
aeromedical evacuation of our wounded people. At the same time, 
you're confronted with the difficult tasks of modernization and 
recapitalizing the Air Force.
    We note in your posture statement that the Air Force is 
maintaining the oldest aircraft in its history. The average age 
now of an aircraft in the Air Force is 23 years. The 
subcommittee has begun its review of the fiscal year 2007 
defense budget. In your posture statement, you state that your 
priorities for the Air Force are to win the global war on 
terror, to develop and care for our airmen, and to modernize 
and recapitalize the aircraft and equipment.
    The budget before us requests a total now of $105.9 
billion. This is $4.8 billion, or 4.7 percent, greater than the 
amount that was enacted for the current year. That's a lot of 
money. It's a large increase in fiscal year 2007, in this 
period of high deficits. However we recognize your challenges 
are not small, and the country is fortunate to be able to call 
upon your leadership for our Air Force.
    Secretary Wynne, General Moseley, we're looking forward to 
hearing about your budget priorities and how you are 
positioning the Air Force for tomorrow. I want to thank you, 
personally, for your visit to us, telling us of some of your 
problems and some of your goals and how we should work together 
to achieve them.
    We'll leave room in our record, at this point, for the 
statement of our co-chairman, when he arrives.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I join you in welcoming our Air Force 
leaders. General Mosley, Secretary Wynne we thank you for being 
here today.
    In your budget submission last year, the recommendations to 
truncate plans for the F-22 and C-130 were controversial 
matters that eventually were overturned.
    This year you are proposing to terminate the C-17 and the 
second source engine for the Joint Strike Fighter. Again, 
gentlemen, your request is not without controversy.
    We will need to understand the rationale for these 
proposals and your candid views on how we in the Congress 
should respond. We would expect that today's hearing would 
provide a forum to address these issues.
    Mr. Secretary, I want to take this opportunity to remind 
everyone of the great support the Air Force is providing for 
Operation Noble Eagle here at home, and Operations Enduring 
Freedom and Iraqi Freedom overseas. As is to be expected, the 
media and my colleagues focus on the role played by the Army 
and marines on the ground, but without your support they would 
be a lot worse off.
    Gentlemen, we appreciate all the men and women in the Air 
Force are doing for our Nation. We cannot be more grateful for 
the sacrifices that you make every day.
    Mr. Chairman, I thank you for calling this hearing and I 
await the testimony of our witnesses.

    Senator Stevens. And I'll turn to Senator Burns for any 
statement he may wish to make.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you, Mr. Chairman. And thanks for the 
hearing. And welcome, Secretary Wynne and General Moseley. It's 
good to see you this morning.
    Mr. Secretary, I applaud your efforts to redirect the Air 
Force to address some of the challenges that we face today. 
We're facing different challenges, as you well know. And, 
unfortunately, I believe that you've got more than a tough job 
ahead of you. I've looked at it every now and again, and I've 
said, ``I certainly don't--wouldn't have your job right now,'' 
because you're trying to do a lot of things.
    Many of us in Congress have seen the Air Force struggling, 
in these past 4 or 5 years, to find a core mission and 
direction. Your mission statement talks of ``sovereign 
options.'' I will tell you how that term hit me. My eyes glazed 
over, and then I went home and shampooed, trying to make some 
sense of it. Now, I don't know what a ``sovereign option'' is 
right now.
    We're presently engaged in a global war. And it's a long 
war. It isn't a war of air dominance. And, frankly, we've never 
had a war of air dominance. Wars are won on the ground, as you 
well know. And this one has taken on a completely different 
character than anything we've ever faced before. Our success in 
Iraq and Afghanistan will be solely based on the success of 
those boots-on-the-ground kind of operation.
    In practice, I see that--our airmen in today's Air Force 
are leaning forward to accomplish that mission. In contrast, 
the senior leadership of the Air Force seems to be detached 
from the reality of what this operation is all about.
    The measure of every branch of the Armed Forces in this war 
is its ability to support the efforts on the ground. This is 
where I, and many others, part ways from the direction the Air 
Force seems to be going. The future of the Air Force is in the 
service to the mission on the ground. It is in support of our 
young corporals and sergeants engaged in the real fight. 
Unfortunately, it seems many of the senior leaders are 
reluctant to recognize that waves of Russian fighters will not 
be coming over the horizon anytime soon. The future of the Air 
Force is not the main effort of the fight, but it is that of a 
supporting arm.
    Transporting much-needed supplies to the troops, providing 
air support for convoys on the ground, and getting ground 
commanders the imagery they need in realtime are all critical 
missions. And I'm concerned that the future years' budgets of 
the Air Force continue to shortchange those missions, which 
is--by their very nature, are support missions for the more 
glamorous missions of air dominance.
    The Quadrennial Defense Review (QDR), talks of irregular, 
catastrophic, and disruptive threats. These are the threats we 
face today. These are the threats we need the focus of our 
Nation's treasure on addressing the future. And probably, from 
that statement, you said I'm concerned about several elements 
in the direction of which we are going.
    Mr. Chairman, thank you very much. And I have a couple of 
very pointed questions, and then I'll put my saber back in the 
scabbard and move on.
    Thank you.
    Senator Stevens. Thank you very much, Senator.
    Mr. Secretary and General, we appreciate your statements. 
They'll print in the record in full, as though read, but 
we'll--take as much time as you wish.
    I want to congratulate you on this posture statement. I've 
gone over that, and it's really a very good one. We appreciate 
the work you've put into that statement. I hope the Senate and 
the House will pay attention to it.
    Thank you very much.
    Mr. Wynne. Thank you, Mr. Chairman, Senator Inouye.
    Mr. Chairman, Senator Inouye, and members of the 
subcommittee, especially Senator Burns, thank you for having 
General Moseley and me here today to testify on behalf of 
America's Air Force. We are grateful for this subcommittee's 
steadfast support our Nation's airmen and their families.
    I've seen our innovative and adaptable airmen--Active, 
Guard, and Reserve--firsthand, and I am inspired by their 
commitment and their patriotism. Nevertheless, as I told you 
back in October, our Air Force is challenged with trying to get 
6 pounds into a 5-pound sack.
    I have broken these challenges down into three critical 
components. First, personnel costs of an All Volunteer Force 
are accelerating because of the expanding benefits and the 
rising healthcare costs. Next, operations and maintenance costs 
continue to rise. We are experiencing unyielding second-order 
effects that continue to drain our top line. Simply stated, we 
are exhausting all of our assets at a much higher rate than we 
had forecast, and absorbing costs to organize, train, and equip 
for evolving new missions. Last, our investment accounts of 
acquisition and research and development face severe pressure 
as a result of the foregoing must-pay bills. Nevertheless, we 
continue to mobilize fast and creative responses to achieve the 
technology and interdependence required to dominate in the 
global war on terrorism and threats beyond.
    So, where does our solution lie? With your assistance, we 
will responsibly attack all three challenges. To rein in 
personnel costs, we're using total force integration. Started 
in the mid-1990s, it has exposed redundancies to capitalize on 
what we continue to operationalize the Guard and the Reserve. 
``Mission first'' continues to be our beacon while partnering 
with them. In fact, we have recently delivered the post-base 
realignment and closure (BRAC) phase II mission laydown, which 
has been cosigned by the Active, the National Guard Bureau, and 
the Reserve commanders.
    In addition to using our people more efficiently through 
total force integration, we instituted Air Force Smart 
Operations 21, smarter and leaner operations. No process or 
organizational construct is immune from this Air Force-wide 
critical review. Efficiencies from Air Force Smart Operations 
21, total force integration, and lessons learned from 15 years 
under fire permit an end-strength reduction of 40,000 full-time 
equivalents across the future years defense plan (FYDP). Using 
our manpower smarter is the key to retention and the key to 
force management.
    Air Force Smart Operations 21 will also help us with our 
second challenge, operations and maintenance price increases. 
But smarter operations cannot overcome the elephant in the 
room. Fuel and upkeep for aircraft with decreasing military 
utility, aircraft with 1950s-era engines and design expose us 
to soaring fuel-cost prices, increased maintenance, and 
obsolete spares suppliers. Many planes are simply not 
deployable due to declining military utility.
    We can harvest savings from cutting requirements, 
redundancies, and excess capacity in our aircraft and missile 
fleets. This lets me keep the force robust, while shifting 
resources to new missions, like Predator, Global Hawk, and Long 
Range Strike. I need this type of flexibility. And this is 
where I ask for your help. I need your help in lifting the 
legislative restrictions on retirements that prevent me from 
being the air-fleet manager that you expect me to be.
    I think we have some illustrations here on the charts to 
our side.
    Right now, these restrictions apply to nearly 15 percent of 
our air fleet. Continued restrictive language will not only 
impede the shift to new missions now, but will lead to 
exhausting resources on aircraft with declining military 
utility, and ultimately impact our technological edge for the 
future.
    The final part of this 6-pound problem is within our 
investment accounts, acquisition and research and development. 
I reiterate my commitment to restore the Air Force to its 
premier status in acquisition and governance. And we continue 
to concentrate in this area.
    The F-22A program illustrates the pressure our acquisition 
budget faces in the best way. Having been convinced of the 
goodness of maintaining a fifth-generation fighter production 
line until the F-35 is a proven commodity, the result called 
for a 2-year extension, but only four additional aircraft in 
the 3-year multiyear, to recover the cost of the lower volume 
and with the funding laid out as you see it. We recognize that 
this is an excursion from established procedure, and ask your 
support in working through this issue.
    Similarly, we can't ignore our research and investment--the 
research and development investment stream, even while at war. 
Along with air dominance, space, and cyberspace, research and 
development investment is key to the future independent--
interdependent warfight. Investment today provides the gateway 
to tomorrow's dominance.
    In summary, personnel, operations and maintenance, and our 
investment accounts of acquisition and research and development 
are our targets. Despite 15 years of continuous combat since 
Operation Desert Storm, we have transformed our force like no 
other. With total force integration, Air Force Smart Operations 
21, and your help, we will keep the title of the world's most 
agile and lethal air force. Our commitment is to increase the 
aggregate military utility across the total spectrum of 
operations for the joint force commander. This means 
modernizing, recapitalizing, and recognizing efficiencies as we 
manage this total force.

                           PREPARED STATEMENT

    Thank you for your strong commitment to our Air Force and 
to the common defense. I look forward to your questions.
    Senator Stevens. Thank you, Mr. Secretary.
    [The statement follows:]

                 Prepared Statement of Michael W. Wynne

    Mr. Chairman and distinguished members of the Committee, the Air 
Force has a rich heritage and a boundless future. The Service continues 
its transformation to meet the emerging challenges of a dynamic world, 
and to ensure the nation's security by dominating the global commons of 
air, space and cyberspace. The fiscal year 2007 budget takes a 
significant step toward that future.
    We are America's Airmen. Our mission is to deliver sovereign 
options for the defense of the United States of America and its global 
interests--we fly and we fight--in air, space and cyberspace. For the 
past 15 years, our Air Force team has proven its mettle and skill every 
day. Since the days of DESERT STORM, we have been globally and 
continuously engaged in combat. We will continue to show the same 
ingenuity, courage and resolve and achieve success in our three most 
important challenges: winning the Global War on Terror (GWOT); 
developing and caring for our Airmen; and maintaining, modernizing and 
recapitalizing our aircraft and equipment.
    In the GWOT we face vile enemies--enemies devoid of any positive 
vision of the future, who seek only to destroy the United States and 
the ideals and freedoms upon which America is built. We will win this 
fight. We will maintain our focus on winning this fight. While 
maintaining focus on winning the GWOT we will also maintain vigilance--
vigilance in defense of our homeland and vigilance against emerging 
threats in an uncertain world.
    Our expeditionary fighting forces and culture, centered on the Air 
and Space Expeditionary Force, provide the foundation for our 
operations. We will more closely align our Regular Air Force, Air 
National Guard and Air Force Reserve units with Total Force initiatives 
to enhance our overall capability. We will continue transforming to 
meet the challenges of a dynamic world.
    We will remain focused on caring for and developing our Airmen--our 
most valuable resource. We will continue to look for ways to maintain 
and improve their training, their personal and professional development 
and their quality of life, so they may continue to meet the commitments 
of today while preparing for the challenges of tomorrow.
    We are operating the oldest inventory of aircraft in our history, 
while maintaining the intense Operations Tempo required by the GWOT, 
humanitarian crises, and routine requirements. Meanwhile, competitor 
states are developing air and air defense systems that could threaten 
our ability to maintain air and space dominance. These factors drive 
the urgent need to modernize and recapitalize our aircraft. We must act 
now to preserve our Nation's freedom of action in the future. The 
Secretary of Defense described future threats in terms of four 
quadrants--traditional, irregular, catastrophic and disruptive. We must 
develop, acquire and maintain systems that can counter threats in any 
of these quadrants. We will do so by incorporating lean principles that 
eliminate waste while providing transparency in our processes.
    Our 2006 Posture Statement outlines our plan to accomplish these 
goals regarding GWOT, our Airmen, and our aircraft and equipment. It 
reflects our commitment to good stewardship of the resources entrusted 
to us, and our dedication to protecting our Nation in air, space and 
cyberspace.

                   INTRODUCTION--HERITAGE TO HORIZON

    Over a century ago, America crossed the threshold of powered flight 
and gave wings to the world. Soon military leaders realized the 
implications of this development, and warfare was changed forever. 
America was fortunate to have ``Great Captains'' with the vision to 
imagine the possibilities of air and space power--Airmen like Billy 
Mitchell, Frank Andrews, Hap Arnold, Ira Eaker, Jimmy Doolittle and 
Bennie Schriever. They have given us a proud heritage of courage, 
excellence and innovation. In so doing, they also give us a sense of 
perspective and a way to understand the Air Force's future.
    They have shown us an unlimited horizon. Each of them lived in 
dangerous times and faced many demanding challenges. Today, we also 
find ourselves as a Nation and an Air Force facing similarly dangerous 
and demanding challenges. Some are global or national in scope; others 
are specific to the Air Force.
    During the last decade the United States Air Force transformed to a 
modular expeditionary force of ten Air and Space Expeditionary Force 
(AEF) packages providing agile air and space power. Our Airmen have 
proven tremendously successful across the spectrum of operations from 
humanitarian efforts to Homeland Defense operations and the Global War 
on Terrorism. We will continue transforming to meet the challenges of a 
dynamic world by rebalancing the force and realigning our structure 
into a Total Force that meets increased demands for persistent 
intelligence, rapid mobility and precision strike capabilities. The AEF 
construct provides the ideal toolbox from which we can provide 
tailored, efficient and lethal air and space forces to deal with future 
challenges.
    The Air Force faces the broadest set of mission requirements across 
the entire spectrum of warfare. We will bolster our Nation's ability to 
respond swiftly, flexibly and decisively to asymmetric, irregular and 
emerging threats. We have embarked on a bold, new initiative known as 
Air Force Smart Operations for the 21st Century (AFSO21) as a means to 
best allocate our resources to meet this increasing set of challenges. 
All of these challenges will require the very best efforts of our 
Airmen throughout the Total Force.
Winning the Global War on Terror (GWOT)
    Our first priority is to maintain focus on winning the GWOT. We 
will continue to operate as part of a true Joint and Coalition team, 
multiplying the effectiveness of our partners to win this war. We fly 
and we fight--whether we're flying A-10s over Afghanistan; flying F-16s 
over Iraq; operating and maneuvering communications satellites in 
geosynchronous orbit; remotely piloting Unmanned Aerial Vehicles (UAVs) 
patrolling over Baghdad; or maintaining vigilance over our Nation's 
homeland in an E-3 Airborne Warning and Control System (AWACS) 
aircraft. All Airmen, no matter what their specialty, contribute to 
this mission.
    We must keep in mind that the GWOT is not defined by today's 
headlines or locations. It will be a long war, with shifting venues and 
constantly evolving threats. The character and capabilities of 
potential U.S. adversaries are increasingly uncertain, veiled, growing 
and changing, as both state and non-state actors acquire advanced 
technology and the means to either acquire or develop weapons of mass 
destruction (WMDs).
    We can foresee serious threats posed by increasing numbers and 
sophistication of ballistic and cruise missiles; chemical, biological, 
radiological and nuclear weapons; advanced surface-to-air missiles 
(SAMs); and sophisticated combat aircraft. We also anticipate the real 
threat of potentially crippling attacks on our Nation's critical 
infrastructure, including space networks. Not only must we be prepared 
to confront known threats, but we also must be ready for unexpected, 
disruptive breakthroughs in technology that may undercut traditional 
U.S. advantages.
    Maintaining a strong defense able to overcome and defeat these 
threats remains an imperative for our Nation. Currently, the Air Force 
can command the global commons of air and space and significantly 
influence the global commons of the sea and cyberspace; however, we 
cannot indefinitely maintain this advantage using the current 
technology of the air and space systems and equipment comprising our 
existing force structure.
Developing and Caring for Our Airmen
    Our Regular Air Force Airmen, Air National Guardsmen, Air Force 
Reservists and civilians, who together form our Total Force, are 
building on their inheritance of courage, excellence and innovation. 
They are highly educated and resourceful, and have created the most 
lethal Air Force that has ever existed. We must continue to look for 
ways to maintain and improve their training, their personal and 
professional development and their quality of life, so that they may 
continue to meet the commitments of today while preparing for the 
challenges of tomorrow.
    Airmen today are contributing to combat operations in ways never 
before envisioned--as convoy drivers and escorts, detainee guards and 
translators to give a few examples. Other Airmen routinely serve 
``outside the wire'' as Special Tactics operators, Joint Terminal 
Attack Controllers and Special Operations Weather personnel. All of 
these Airmen must receive the proper training to survive, fight and 
win. We are working within the Air Force, as well as with our Joint 
warfighting partners, to ensure that all Airmen are fully prepared when 
they arrive in the combat zone.
    Developing Airmen involves more than combat skills. It is a career-
long process that maximizes the potential of each member of the Total 
Force team. We will look at every Airman as an individual and provide 
them with specialized training, relevant educational opportunities and 
appropriate assignments in order to capitalize on the talent these 
brave Airmen offer for this country's defense.
    Every Airman is a vital national resource and must be cared for as 
such. In addition to providing professional opportunities for our 
Airmen and fostering an environment of mutual respect, the Air Force is 
committed to investing in health and fitness programs and facilities, 
world class medical access and care, and housing and morale programs 
for our Airmen. Our Airmen have proven themselves to be the best 
America has to offer--they deserve the best support available.
    By ensuring that our Airmen are prepared for combat, effectively 
developed and properly supported, we will continue to provide our 
Nation with the best Air Force in the world.
Maintenance, Modernization and Recapitalization
    One of our most daunting challenges is maintaining the military 
utility of our aircraft as reflected in mission readiness, maintenance 
costs and other factors. We have been actively engaged in combat for 
the past 15 years. We currently maintain an Air Bridge to Southwest 
Asia. Our state of alert for GWOT requires us to operate at an elevated 
and sustained operations tempo (OPSTEMPO). Increased investment and 
increased maintenance tempo can keep our older aircraft flying and slow 
their decaying military utility, but equipment age and use are 
unrelenting factors.
    Presently, we have the oldest aircraft inventory in our history. 
Our aircraft are an average of over 23 years old--older in many cases 
than those who fly and maintain them. In particular, our inventory of 
tanker aircraft averages over 41 years old, and our C-130 tactical 
airlifters average over 25 years old. As our equipment ages, it 
requires more frequent maintenance and replacement of parts; meanwhile, 
increased OPSTEMPO accelerates wear and tear on our equipment and 
operational infrastructure, exposes our equipment to extreme conditions 
and, in some cases, delays routine maintenance.
    We must recapitalize our aircraft and operational infrastructure, 
as well as modernize our processes for services, support and 
information delivery in order to maintain the grueling pace required 
into the foreseeable future. We must do so in a fiscally prudent 
manner. This means retiring and replacing our oldest, least capable and 
most expensive aircraft and equipment, as well as accepting a 
manageable level of risk in order to selectively maintain some older 
systems until newer systems are on the ramp.
    These newer systems will cost far less to operate and maintain and 
are designed to defeat emerging threats. The United States no longer 
enjoys a monopoly on advanced technology, and we are already witnessing 
the emergence of highly sophisticated systems that threaten our 
capability to achieve Joint Air and Space Dominance. Along with ongoing 
robust science and technology (S&T) programs, transformational systems 
such as the F-22A Raptor, F-35 Joint Strike Fighter (JSF), Space Radar 
(SR) and Transformational Communications Satellite (TSAT) will ensure 
that we maintain the ability to provide overwhelming air and space 
power for our Combatant Commanders.
    Concurrently, the Air Force is also focusing on reforming, 
modernizing, and improving processes for acquisition of new systems and 
equipment. We will achieve greater efficiencies and higher productivity 
by reforming our business practices. By incorporating lean processes 
and transparent accounting, and reinforcing a culture of continuous 
improvement, the Air Force will maintain the high standards of our 
heritage. We will continue our tradition of transformation, realize 
both lethality and efficiency in our capabilities in this new century, 
and stand ready for the challenges of the future.
    The future is what you bring with you when tomorrow comes. Our 2006 
Air Force Posture Statement outlines our flight plan into the future. 
By focusing on winning the GWOT, maintaining the excellence and 
maximizing the potential of the America's Airmen, and maintaining, 
modernizing and recapitalizing our aircraft and equipment, we will 
provide Air and Space Dominance for U.S. forces well into the future.

          AIR AND SPACE POWER TODAY--BUILDING ON OUR HERITAGE

Current Security Environment
    The current security environment is marked by seemingly constant 
change and uncertainty. Our security environment is also marked by the 
threats posed by terrorist organizations and rogue states around the 
world bearing ill will toward our Nation. In times of uncertainty and 
heightened threat, our citizens turn to the military to defend this 
great Nation at home and abroad. Our Airmen stand alongside Soldiers, 
Sailors, Marines and Coast Guardsmen--a Joint team poised and ready to 
defend the Nation.
    Throughout the history of American air and space power, Airmen have 
often faced complex challenges during times of change and uncertainty--
times when our Nation's survival was at stake. In early 1945, General 
``Hap'' Arnold reported to the Secretary of War, ``our Air Force must 
be flexible in its basic structure and capable of successfully adapting 
itself to the vast changes which are bound to come in the future. 
Whatever its numerical size may be, it must be second to none in range 
and striking power.'' In retrospect, Hap Arnold's words were amazingly 
prescient.
    Today our force is still second to none in range and striking 
power. Potential adversaries, well aware of the strength of our Air 
Force, seek to limit our range and striking power through development 
of new and emerging threat systems. These systems, coupled with the 
proliferation of weapons of mass destruction, form a formidable threat 
to the Joint Force and to our Nation.
    In order to achieve victory in the GWOT and meet the challenges of 
emerging threats, the Air Force looks to build on the great heritage 
established by decades of Airmen--Airmen who have confronted daunting 
challenges and succeeded as vital members of the Joint warfighting 
team.
            Global War on Terror (GWOT)
    Several key elements--ideologies of hatred, vast resources, mutual 
support structures, as well as veiled state and private sponsorship--
provide linkages across the array of enemies confronting us in the 
GWOT. The general terrorist threat also spans several regions of the 
world, often acting on a global scale. While the strategy to prosecute 
and win the GWOT is an enterprise necessarily involving many agencies 
and actions in addition to military forces, the Air Force, in 
particular, serves a vital role in our Nation's battle against 
terrorist networks.
    America's Airmen have become seasoned veterans of Post-Cold War 
conflicts and are postured to answer any contingency or challenge on a 
moments' notice. The Air Force has been taking the war to America's 
enemies for 15 consecutive years. Our constant presence in Southwest 
Asia since Operation DESERT SHIELD and DESERT STORM kept regional 
instability in check. Airpower effectively controlled two-thirds of 
Iraq for over a decade, setting the conditions for Iraq's stunning 
military collapse in Operation IRAQI FREEDOM.
    Recognizing the new reality of rapidly emerging global threats in 
the Post-Cold War environment, the Air Force has significantly reduced 
its force structure and transitioned from a Cold War legacy paradigm to 
a vastly more agile, responsive and scalable force structure built 
around the AEF concept. The AEF construct provides the Combatant 
Commanders and the Joint Force with the agility and lethality required 
to engage U.S. adversaries anywhere in the world with correctly 
tailored forces--all in a matter of hours to single-digit days. The AEF 
construct presents air and space forces in a continuous rotation 
cycle--currently a 20-month cycle with nominal 4-month deployments--and 
provides the Combatant Commands with greater capability and stability 
of forces in theater while providing more predictability for our 
Airmen.
    As defined by our national leadership, the GWOT strategy seeks to 
reduce both the scope and capability of terrorist networks globally, 
regionally and locally. This strategy requires global perspective and 
regional focus. It also demands an ability to simultaneously conduct 
long-range strikes and humanitarian relief on opposite sides of the 
world. In order to execute effectively, the strategy requires 
unparalleled command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C4ISR). These are all activities our 
Air Force conducts for the Joint Force on a daily basis--activities 
critical to successfully prosecuting the GWOT.
    As an essential part of the Joint team, the Air Force contributed 
to defeating the Taliban and eliminating Afghanistan as a safe haven 
for al Qaeda. While the Air Force remains actively engaged in 
operations in Afghanistan, our national strategy is simultaneously 
focused on Iraq as the central front for the war on terror. While the 
United States and its partners have defeated Saddam Hussein's regime of 
terror, the enemies of freedom--both members of the old regime and 
foreign terrorists who have come to Iraq--are making a desperate 
attempt in the name of tyranny and fascism to terrorize, destabilize 
and reclaim this newly-liberated nation and aspiring democracy.
    The Air Force continues to lead the fight in defending the home 
front as well. The Air Force recently conducted an Air Force-Navy 
strategy conference addressing the GWOT and counterinsurgencies. The 
conference report forms the basis for an ongoing Air Force study to 
further improve the Air Force's posture for Homeland Defense. The Air 
Force has also taken a leadership role in developing a Concept of 
Operations for Joint Maritime Interdiction to defend our shores and 
those of our allies. In addition, Air Force aircraft maintain a 24/7 
alert status in defense of the United States and its approaches, 
against both airborne and maritime threats.
    From a global perspective, we are continually bolstering Airman-to-
Airman relationships with our allies and partners to build 
interoperable and complementary capabilities as well as to ensure 
access to foreign airspace and support infrastructure. We are using 
training, exercises, personnel exchanges, cooperative armaments 
development and foreign military sales to expand and cement these vital 
coalitions that are essential to prosecuting the GWOT and to our future 
Joint air operations.
    In addition, from local, regional and global perspectives, foreign 
internal defense is an indispensable component of successful 
counterinsurgency strategies. The Air Force is partnering with Special 
Operations Command to rapidly expand Air Force Foreign Internal Defense 
forces to bolster partner nations on the front lines of the GWOT.
    From direct support of Special Forces, to maritime interdiction, to 
Global Strike, the Air Force remains prepared to engage those who would 
threaten our friends, our interests, or our way of life.
            Emerging Threats
    The threats Airmen will encounter in the coming years are changing 
dramatically. Adversaries are developing and fielding new ground-based 
air defenses, improved sensor capabilities and advanced fighter 
aircraft. These capabilities will increasingly challenge our legacy 
aircraft, sensors and weapons systems.
    Advances in integrated air defense systems, to include advanced 
sensors, data processing and SAMs continue trends noted in the 1990s. 
SAM systems are incorporating faster, more accurate missiles, with 
multi-target capability, greater mobility and increased immunity to 
electronic jamming. Currently possessing ranges of over 100 nautical 
miles (NM), these anti-access weapons will likely achieve ranges of 
over 200 NM by the end of the decade. These advanced SAMs can and will 
compel non-stealthy platforms to standoff beyond useful sensor and 
weapons ranges. Proliferation of these long-range SAMs is on the rise, 
with projections for 2004-2007 indicating a twofold increase over the 
number of advanced SAM system exports during the mid to late 1990s.
    Another trend is the development and proliferation of upgrades to 
older, 1960/70's-era SAMs. At a fraction of the cost of a new advanced, 
long-range SAM, many African, Asian and Mid-East nations are looking to 
upgrade older SAMs to revitalize their aging air defense forces. By 
bringing in modern technologies, improved missile propellants and 
increased mobility, older SAM systems are becoming more reliable and 
more credible threats.
    Finally, the threat from Man Portable Air Defense Systems (MANPADS) 
continues to grow. Large, poorly secured stockpiles of these weapons 
increase the chances of highly capable MANPADS ending up in the hands 
of an insurgent or terrorist group.
    The threats from advanced fighter aircraft also continue to grow. 
Currently there exist 31 nations already fielding 2,500 or more 
airframes. Increased use of state-of-the-art radar jammers, avionics, 
weapons and reduced signature airframes/engines are becoming the norm 
in fighter design. Additionally, countries like India and China are now 
able to produce their own advanced fighters, thereby increasing the 
quantity and quality of adversary aircraft the Air Force may face in 
the future. By 2012, China will more than double its advanced fighter 
inventory to over 500 airframes, most with advanced precision-guided 
munitions and air-to-air weapons. Similarly, self-protection jamming 
suites are growing in complexity and proliferation, potentially eroding 
our ability to target adversary aircraft.
    The threat from the development, fielding and proliferation of 
standoff weapons such as long-range cruise missiles will also provide 
potential adversaries with offensive capabilities of ever-increasing 
accuracy and range which, when combined with their relatively small 
size, presents an increasing challenge to detection and tracking.
    Many nations are enhancing the utility of advanced fighters by 
pursuing, procuring and integrating support aircraft as force 
multipliers. They acquire aerial refueling tankers to extend the range 
of strike operations and increase on-station time for fighters. 
Furthermore, airborne early warning aircraft are extending the reach of 
many nations through datalink capabilities that provide control of 
fighter operations well beyond the reach of land-based radars. Several 
nations are also purchasing standoff jamming assets in both manned and 
unmanned platforms to attempt to deny our traditional sensor 
advantages. Unmanned Aerial Vehicles (UAVs) of all varieties are in 
high demand and are becoming increasingly available on today's market, 
providing low-cost, but highly effective reconnaissance capabilities. 
This situation represents a new and increasingly prolific and complex 
challenge on the battlefield.
    Additionally, the combination of improved C4ISR with improved 
ballistic and cruise missile capabilities will increasingly threaten 
regional and expeditionary Air Force basing. China, in particular, has 
a growing over-the-horizon intelligence, surveillance and 
reconnaissance (ISR) capability from a combination of ground, air and 
space-based systems. Coupled with its large and growing inventory of 
conventionally armed theater ballistic missiles, China's increasing 
capabilities and reach collectively present a serious potential to 
adversely impact allied and Joint air and space operations across the 
Asian theater.
    Worldwide advancements in the development, deployment and 
employment of foreign space and counterspace systems are challenges to 
U.S. Space Superiority. Adversaries, including terrorists, are more and 
more easily obtaining a number of increasingly sophisticated space 
services. Furthermore, they are developing the means to degrade U.S. 
space capabilities, freedom of action and access. The intent of U.S. 
adversaries combined with the capabilities of foreign space and 
counterspace systems will increasingly threaten U.S. military forces 
and interests worldwide.
            Threat of WMD Proliferation
    The threat of proliferation of WMD to countries with advanced 
military capabilities has changed dramatically since the end of the 
Cold War. India and Pakistan became overt nuclear powers in 1998, 
adding to their formidable conventional capabilities. North Korea 
claims and is assessed to have built nuclear weapons, while Iran is 
suspected of pursuing them; both countries face intense international 
pressure to halt their efforts.
    Less catastrophic, but of equal concern, are chemical and 
biological weapons (CBW). Chem-bio WMDs can range in sophistication 
from World War I-vintage gases or traditional agents like anthrax, to 
highly advanced ``fourth-generation'' chemical agents or genetically 
modified bacterial or viral weapons that challenge state-of-the-art 
defenses and countermeasures. It is much less expensive and more 
technologically feasible to produce CBW than it is to obtain nuclear 
weapons or fissile materials. Furthermore, CBW can be concealed very 
effectively and inexpensively, veiled under a veneer of legitimate 
civilian industry or ``dual-use'' activities.
    Future adversaries, deterred from challenging the United States 
openly, may seek to offset U.S. warfighting advantages by developing, 
using or threatening to use these weapons. As such, the acquisition of 
WMD capabilities by terrorists/non-state actors is a grave concern. 
Many groups have declared their desire to pursue such a goal, and 
evidence is growing they are attempting to obtain the necessary 
financial means, weapons knowledge and necessary materials.
Air Force Contributions to OIF, OEF and ONE
            Air and Space Operations in OIF and OEF
    Over 26,000 Airmen are currently forward deployed in support of 
Combatant Commanders throughout the world. These Airmen continue to 
deliver key Air Force capabilities of precision engagement, rapid 
global mobility and information superiority to OEF and OIF missions.
    Pulling from 89,000 tailored deployment teams built around specific 
capabilities, the Air Force has flown the preponderance of Coalition 
sorties in support of OIF and OEF. In Iraq, the Air Force has flown 
over 188,000 sorties, while in Afghanistan, Airmen have flown over 
130,000. Overall, the Air Force has flown a total of over 318,000 
sorties, or approximately 78 percent of the total Coalition air effort. 
Counted among these sorties are missions ranging from airlift and 
aeromedical evacuation, to close air support (CAS) missions to protect 
ground troops as well as provide them with precise fire support and 
sensor capabilities.
    In 2005, Air Force fighters and bombers supporting OIF and OEF 
expended over 294 munitions (bombs), 90 percent of which were 
precision-guided, including the Joint Direct Attack Munition (JDAM). 
These trends represent a 10 percent increase over 2004 totals in the 
use of precision-guided munitions (PGMs). Our Airmen have also provided 
nearly all of the in-flight refueling for Joint and Coalition forces.
    Leading the way in reconnaissance and imagery, the Air Force is 
currently flying Predator UAV missions 24 hours a day, 7 days a week. 
This capability will grow from 8 to 12 total orbits in 2006 to meet 
increased demand. Predator aircraft are able to transmit live video 
pictures to ground-based targeting teams equipped with the Remote 
Operations Video Enhanced Receiver (ROVER) system. Linking precision 
engagement and persistent C4ISR capabilities to forces on the ground, 
ROVER has been used repeatedly to detect, target and destroy improvised 
explosive devices (IEDs) and disrupt insurgent activities across the 
region. Bolstering these capabilities are Tactical Airborne 
Reconnaissance System (TARS) equipped F-16s flown by Air National Guard 
units. In recent testing, TARS has demonstrated the ability to aid in 
the location and destruction of IEDs.
    Air Force operations in Iraq and Afghanistan also highlight the 
importance of space-based C4ISR capabilities to U.S. and Coalition 
forces. These capabilities have become integral to effective 
warfighting operations and include secure communications, global 
weather, persistent worldwide missile warning and intelligence 
gathering. Commanders continue to rely extensively on the all-weather 
precise position, navigation and timing capability provided by the Air 
Force's Global Positioning System (GPS) constellation, satellite 
communications (SATCOM) and timely observations of weather and enemy 
activity to conduct operations in Iraq and Afghanistan. In strikes 
against time-sensitive targets, nearly 40 percent of all munitions used 
in OIF were GPS-guided, which made them unaffected by sand storms and 
inclement weather. Additionally, at the senior leadership level of 
warfighting, the Joint Force Air and Space Component Commander's duties 
as the Space Coordination Authority have become critical to successful 
Joint planning and execution of space capabilities for Joint Forces. 
Holding the ultimate high ground, Air Force space professionals keep a 
constant vigil over a global battle space--planning, acquiring, 
maintaining and operating the systems that sustain our Nation's 
advantages in space.
    Sister-services and U.S. government agencies continue to heavily 
rely on Air Force capabilities. Running the spectrum from logistics 
expertise to medical care, the Air Force is fully partnered with the 
Army and Marine Corps units running convoys throughout Iraq with more 
than 1,000 transportation, security forces and medical Airmen trained 
to support convoy missions.
    Moreover, Air Force capabilities are saving Soldiers' lives and 
simultaneously reducing our required footprint in Southwest Asia. 
Increased use of Air Force airlift capabilities--notably the 
unconventional yet highly effective use of workhorse C-17s as well as 
C-5 aircraft to increase our intra-theater airlift capabilities in 
Iraq--has dramatically reduced the need, number and frequency of ground 
convoys along the most dangerous roads and routes in Iraq. These 
capabilities and optimized theater airlift mission planning methods 
have also contributed to a planned reduction of the number C-130s 
required for OIF support.
    Additionally, Air Force support personnel are taking a more active 
role in the direct protection of personnel and resources. In early 
2005, Air Force Security Forces at Balad Air Base, Iraq, in conjunction 
with the Army, were assigned a sector outside the base to patrol and 
clear of insurgent operations. This aspect of the air base defense 
mission has not been seen since the Vietnam War, yet Task Force 1041 
was successful in reducing attacks on Balad Air Base by 95 percent.
    Airmen also worked to strengthen relationships, develop 
capabilities and enhance the self-reliance of Afghanistan, Iraq, and 
other regional GWOT partners. For example, Air Force Air Traffic 
Controllers helped return safety and commercial viability to Afghan 
airspace. At Ali Airbase, Iraq, a cadre of Air Force instructors taught 
Iraqi airmen how to fly and maintain their newly acquired C-130 
aircraft. In Kyrgyzstan, Air Force C-130s air-dropped U.S. Army and 
Kyrgyz National Guard troops over a drop zone in the capital of Bishkek 
during a joint training exercise. Additionally, United Arab Emirates 
(UAE) recently acquired American-made F-16 Block-60 aircraft. This 
acquisition provides them with cutting edge aviation technology and a 
capability complementary to the UAE's new Gulf Air Warfare Center, 
which has become a tremendously successful training venue for our 
regional and global Coalition partners.
    Finally, Air Force innovations in C2 technologies have allowed 
Airmen to seamlessly automate and integrate efforts of critical air 
assets. The systems baseline in use in the Falconer Air and Space 
Operations Center (AOC) at Al Udeid has improved automated support for 
the daily air tasking orders, while the capabilities of the Battle 
Control System-Mobile communications module reduces the number of 
Airmen needed at forward locations in Iraq, resulting in fewer Airmen 
exposed to hostile fire.
            Air and Space Operations in ONE
    While engaged in OEF and OIF, the Air Force simultaneously 
contributes to Operation NOBLE EAGLE--the defense of the homeland. 
Through a variety of efforts, the Air Force continues to guard the 
skies of our Nation from coast to coast. The Air Force's principal 
Homeland Defense mission is Air Defense and preserving the air 
sovereignty of the United States and its territories.
    Since 9/11, over 41,000 fighter, aerial refueling and airborne 
early warning sorties have been flown in defense of the United States, 
while over 2,000 air patrols have responded to actual incidents and 
suspicious flight operations. This is a true Total Force mission, 
leveraging the combined capabilities of the Air Force Reserve, Air 
National Guard and Regular Air Force components to provide seamlessly 
orchestrated C2 and refueling support for fighter aircraft operating 
from alert sites throughout the United States.
    The range, flexibility, persistence and precision inherent in U.S. 
air and space power provide Joint warfighters with a unique tool set 
for creating war-winning results with a relatively small footprint. Air 
and Space operations stand ready to continue providing these important 
resources to OIF, OEF and ONE, as well as exploring new ways to lead 
the way in the GWOT.
            Air and Space Power--An Essential Element of the Joint 
                    Fight
    Innovation is a central theme in Air Force heritage. It is a 
strength the Air Force lends to the overall effort to transform Joint 
operations into a more seamless, integrated and interdependent team 
effort. U.S. military performance during ongoing operations in Iraq and 
Afghanistan demonstrates unprecedented Joint interdependence. We've 
gone from struggling with C2 and coordination of air and ground forces 
on the battlefields of Operation DESERT STORM to demonstrating a high 
degree of integration among Joint and Coalition forces engaged in OIF.
    Overall success of future interdependent Joint Force efforts will 
place greater demands on Air Force capabilities. As ground forces seek 
to increase their agility and speed, they will rely increasingly on air 
and space power to move them throughout the battlespace; provide the 
information needed to outmaneuver numerically superior or elusive 
adversaries; and deliver precise, rapid strikes across multiple, 
distributed operations areas. The future Joint Force concept of 
Seabasing, as yet another means to project power and support ground 
forces, further underscores the requirements for land-based air and 
space power. Clearly, the need for rapid mobility, persistent C4ISR and 
precision engagement will only increase in the future.
    Concurrently, as we reduce prepared, garrisoned overseas bases in 
the out-years, the Air Force will increasingly operate from 
expeditionary air bases. The Air Force, having transformed over the 
past fifteen years to an AEF construct and culture, continues to 
innovate and evolve with new expeditionary concepts. AEF contingency 
response groups (CRGs) are organized, trained and equipped to provide 
an initial ``Open the Base'' capability to Combatant Commanders. The 
theater CRG provides a rapid response team to assess operating location 
suitability and defines combat support capabilities needed to AEF 
operating locations. In addition, Basic Expeditionary Airfield 
Resources (BEAR) will provide the scalable capability necessary to open 
and operate any austere airbase across the spectrum of AEF contingency 
or humanitarian operations. BEAR will provide vital equipment, 
facilities and supplies necessary to beddown, support and operate AEF 
assets at expeditionary airbases with limited infrastructure and 
support facilities.
            Battlefield Airmen
    Airmen are increasingly engaged beyond the airbase and ``outside 
the wire,'' bringing ingenuity and technology to Joint warfighting on 
the ground by using advanced systems to designate targets, control 
aircraft, rescue personnel and gather vital meteorological data. The 
Air Force is optimizing this family of specialties, known as 
Battlefield Airmen. So far, we have identified program management, 
acquisition and sustainment synergies across the Combat Rescue, Combat 
Control, Terminal Attack Control and Special Operations Weather 
functional areas. Air Force personnel are an integral part of the 
battlespace, and we are continuously identifying and updating common 
training requirements for these Airmen.
    We are organizing Battlefield Airmen for maximum effectiveness in 
the modern battlespace. In addition, we will train Battlefield Airmen 
in the skills required to maximize airpower and standardize that 
training across those Battlefield Airmen. Finally, we must equip our 
Battlefield Airmen with improved, standardized equipment for missions 
in the forward and deep battlespace. This will expand the commander's 
ability to employ battlefield airpower professionals able to integrate 
unequaled accuracy, responsiveness, flexibility and persistence into 
air operations supporting Joint ground forces.
    From forward positions, Joint Terminal Attack Controllers (JTACs), 
a subset of Battlefield Airmen, direct the action of combat aircraft 
engaged in CAS and other offensive air operations. Recently JTACs have 
become recognized across the Department of Defense (DOD) as fully 
qualified and authorized to perform terminal attack control in 
accordance with a Joint standard.
    In addition to night vision equipment, JTACs carry a hardened 
laptop computer and multi-channel radio. We've significantly reduced 
the weight these Battlefield Airmen must carry while simultaneously 
providing them with greater ability to perform critical tasks such as 
designate targets ranging up to several kilometers away. We are 
striving to further decrease the weight of their gear while increasing 
the capabilities and interoperability of their equipment with other 
air, space and ground assets. This combination of technology 
facilitates the direct transfer of information to combat aircraft, 
minimizing errors in data transfer. This equipment will increase 
situational awareness, assist in combat identification, maximize first-
attack success, shorten the kill-chain and provide better support to 
ground forces.
            Innovative Uses of Technology
    Innovation--our Air Force heritage and strength--is critical to 
success in defeating enemies on the battlefield as well as in defending 
our homeland. Each day, Airmen across the world produce military 
effects for the Joint team through ingenuity or with advancements in 
technology.
    To meet U.S. Central Command's (CENTCOM's) urgent operational 
needs, the Air Force is accelerating the modification of our Sniper and 
LITENING Advanced Targeting Pods (ATPs) with video datalink 
transmitters to share information more rapidly. The high resolution 
images from our targeting pod TV and infrared video is generations 
better than the Low Altitude Navigation and Targeting Infrared for 
Night (LANTIRN) pods used during previous conflicts, and they provide 
tactical information in greater volume and relevance than ever before.
    The Air Force is quickly adapting new tactics, techniques and 
procedures for integrating the ROVER III and ATPs into Non-Traditional 
Intelligence Surveillance and Reconnaissance (NTISR) missions. These 
include convoy escort, raid support and infrastructure protection 
missions in addition to traditional CAS missions. Equipped with air-
ground weapons, our ATP-equipped aircraft have the flexibility to 
provide responsive firepower and unprecedented tactical reconnaissance, 
making our fighters and bombers more effective and versatile than ever.
    Furthermore, some ROVER IIIs were diverted to support Disaster 
Relief and Humanitarian Assistance in the aftermath of Hurricanes 
Katrina and Rita. Instead of flying ATPs on fighter or bomber aircraft, 
we located video transmitters on rooftops or attached them to 
helicopters to provide overhead video streams to the recovery teams 
equipped with ROVER III.
    Predator UAV systems continue to demonstrate the Air Force penchant 
for innovative application of technology for fighting the GWOT. Current 
operations allow Airmen in Nevada to pilot and control Predators 
operating in the Iraq and Afghanistan theaters of operations. 
Increasing experience in these novel approaches to flight and mission 
control operations have led to revolutionary advances in the execution 
of military capability.
    Equipped with an electro-optical, infrared, and laser designator 
sensor, and armed with Hellfire missiles, Predator has not only 
shortened the sensor-to-shooter timeline--it has allowed the sensor to 
become the shooter. Since 1995 Predator has amassed over 120,000 total 
flying hours. From January through September of 2005, Predators logged 
more than 30,000 flight hours, over 80 percent of which were in direct 
support of combat operations. In August 2005, the Predator program flew 
4 aircraft controlled by a single pilot and ground control station, 
successfully demonstrating the Multiple Aircraft Control concept.
    Complementing the Predator's capabilities, the Global Hawk is a 
high altitude, long endurance, Remotely Piloted Aircraft (RPA). Through 
the innovative use of synthetic aperture radar as well as electro-
optical and infrared sensors, Global Hawk provides the Joint warfighter 
persistent observation of targets through night, day and adverse 
weather. Global Hawk collects against spot targets and surveys large 
geographic areas with pinpoint accuracy, providing Combatant Commanders 
with the most current information about enemy location, resources and 
personnel. The Global Hawk program is delivering production systems to 
the warfighter now and is in constant demand by Combatant Commanders.
    Since its first flight in 1998, Global Hawk has flown over 8,000 
hours--including over 4,900 combat hours and over 230 combat missions 
with prototype systems deployed in support of GWOT. In OIF and OEF the 
prototype systems have produced over 57,000 images.
    The long-established ISR stalwart, the RC-135 RIVET JOINT continues 
to demonstrate its adaptability to a changing and evolving threat 
environment with the application of progressive technologies and 
upgrade programs.
    The RC-135 RIVET JOINT continues to field improvements in tactical 
SIGINT capabilities and platform performance, including re-engining and 
avionics modernization, to support the full spectrum of combat 
operations and national information needs. Additionally, RIVET JOINT 
has become the cornerstone for airborne net-centric development. RIVET 
JOINT plays a key role in the Network-Centric Collaborative Targeting 
Advanced Concept Technology Demonstration and serves as the platform of 
choice for implementation of new reachback technologies to enhance 
national and tactical integration. Adding yet another chapter to RIVET 
JOINT's continuous record of support to CENTCOM since 1990, the 
platform flew over 550 airborne reconnaissance missions in support of 
OEF and OIF.
            Aeromedical Evacuations
    As early as 1918, the military has used aircraft to move the 
wounded. The Air Force continued this proud tradition with the 
aeromedical evacuation of over 11,000 wounded personnel from 
Afghanistan and Iraq. The aeromedical evacuation system has transformed 
to ensure the Air Force can conduct rapid and precise operations in an 
expeditionary environment. The placement of aeromedical crews in 
forward locations continues the chain of survival that starts on the 
battlefield with self-aid and buddy care. The chain continues through 
Expeditionary Medical Support hospitals, to aeromedical in-flight care 
and finally to stateside medical centers within as little as 72 hours. 
Expeditionary aeromedical operations reduce the necessity and large 
footprint of theater medical assets and conserve valuable health care 
resources.
    The force mix of aeromedical evacuation crewmembers consists of 12 
percent Regular Air Force and 88 percent Air Reserve Component. This 
use of the Total Force was best demonstrated in the fall of 2005 during 
the swift aeromedical evacuation of over 3,800 sick and elderly people 
threatened by Hurricanes Katrina and Rita.
    As modern medicine evolves, the aeromedical system continues to 
adapt to meet future challenges. The Air Force continues to lean 
forward by looking at future threats such as biological warfare. We are 
leading the way in the development of a litter transportable patient 
isolation unit for the movement of contaminated patients. The 
aeromedical evacuation system demonstrates the Air Force's commitment 
to providing the best capabilities to the Joint team and our Coalition 
partners.
            Adaptive Airmen: Airmen Filling Non-traditional Roles
    Presently, Airmen are meeting the challenges of filling CENTCOM 
shortfalls in several critical roles which are non-traditional for 
Airmen, including Convoy Support, Detainee Operations, Protective 
Service details, Law and Order Detachments, Military Transition Teams 
and Provincial Reconstitution Teams.
    Detainee Operations and Convoy Support are our most heavily 
supported missions. Airmen attend training at Fort Lewis, WA or Fort 
Dix, NJ where they learn the fundamentals of detainee security, 
handling and interaction. At the conclusion of this training, Airmen 
move forward to a detainee facility in theater and receive additional 
on site training. Airmen provide Convoy Support in the form of heavy 
weapons teams supporting long haul convoy operations. These Airmen 
attend heavy weapons training followed by a convoy-training course. 
From that training platform, Airmen deploy forward to support theater 
operations.
    Air Force intelligence personnel are also fulfilling non-standard, 
unconventional roles as members of the Joint team. Air Force 
intelligence analysts attend the Enhanced Analyst and Interrogation 
Training Course at Fort Huachuca, AZ, where they learn to provide 
analytical support for interrogations. At the conclusion of this 
training, intelligence personnel deploy forward as part of the 
interrogator teams to Joint Interrogation Detention Centers in 
Southwest Asia.
    Law and Order Detachments provide vital Joint support missions 
throughout the Area of Operations. In this capacity, Air Force security 
forces personnel provide garrison law enforcement and security. Never 
routine, these missions occasionally support operations outside the 
confines of an installation.
    Military Transition Teams are comprised of specially trained 
personnel who work within the organizations of indigenous forces. They 
are responsible for training these forces to support and sustain 
themselves without the assistance of advisors. Provincial 
Reconstruction Teams are organizations that move into a different 
region within the Area of Operations and provide additional support, 
training and sustainment.
    With the exception of the Law and Order Detachments, none of these 
missions fall within the traditional skill mix of Air Force Security 
Forces. Additional training varies from one to five months, and 
deployments are normally longer than the standard 120-day deployment. 
We are understandably proud of the outstanding adaptability and 
professionalism with which our Airmen have filled the shortfalls in 
required skillsets on the Joint roster and accomplished these non-
traditional yet critical missions on behalf of the Joint team.
Other Operations
    In addition to our major contingencies and defense of the homeland, 
the Air Force remains engaged in numerous other operations around the 
world ranging from humanitarian relief and disaster response to 
maintaining our strategic nuclear forces and space assets. The presence 
of forward deployed forces is just the leading edge of a greater effort 
representing the totality of Air Force daily support to the Combatant 
Commanders.
            Humanitarian and Disaster Relief Operations
    In December 2004, nearly sixty years after the great Berlin Airlift 
of 1948-1949, the Air Force, while fully engaged in operations in 
Afghanistan and Iraq, once again answered the call for help in the wake 
of the tsunami that devastated Indonesia and South Asia--one of the 
worst natural disasters in history. Our Airmen responded immediately, 
and in the course of the first 47 days following the disaster led an 
allied effort that airlifted over 24 million pounds of relief supplies 
and over 8,000 people. The entire world witnessed the absolute best of 
America at work--agility, strength, resolve and compassion--just as it 
had witnessed nearly 60 years before.
    At home, the Air Force leveraged the agility, scalability and 
responsiveness inherent in our AEF structure and culture to speed 
support to civil authorities for Hurricanes Katrina and Rita. Hurricane 
Katrina devastated an entire region of the southern United States. 
While destruction of infrastructure stifled ground transportation, 
Airmen continued to reach flooded areas and bring relief. The Air Force 
flew over 5,000 sorties, airlifting more than 30,000 passengers and 
16,000 tons of cargo and accomplishing 5,500 search and rescue saves. 
Additionally, Air Force operations were a Total Force effort, 
incorporating Guard and Reserve capabilities into airlift and rescue 
operations as well as into the establishment of state-of-the-art 
medical facilities that treated over 17,000 patients.
    Air Force support during Hurricane Katrina and Rita recovery 
operations illustrated how persistent C4ISR can integrate with other 
agencies and proved critical to supporting U.S. Northern Command 
(NORTHCOM) and the Department of Homeland Security during civil support 
operations. Our airborne reconnaissance platforms, ranging from C-130s 
to U-2s, combined with military satellite communications (MILSATCOM) 
capabilities like the Global Broadcast Service (GBS), provided detailed 
imagery critical for decision makers and aided in directing relief 
efforts to the worst hit areas.
    Additionally, our civilian auxiliary, the Civil Air Patrol (CAP) 
provided capability to NORTHCOM, federal agencies and state and local 
governments during all phases of the hurricane rescue and relief 
efforts. The CAP provided nearly 2,000 hours of air and ground search 
and rescue, airborne reconnaissance and air transport of key personnel. 
The CAP leveraged the skills and vigilance of 60,000 non-paid 
volunteers in over 1,700 units to bolster the Nation's defense during 
these national crises.
    Future natural disasters and relief operations will likely be 
similar to those faced by the United States over the past year. Major 
populations requiring immense support are often isolated from the 
infrastructure that is their lifeline. Airpower provides the capability 
to overcome terrestrial obstacles and deliver aid directly to those in 
need. Always seeking new ways to innovate and improve, the Air Force 
will continue its ongoing transition to a force with unprecedented 
capability for civil support and Homeland Defense.
            Maintaining Our Nuclear Deterrent
    The DOD's new strategy of employing a capability-based approach vs. 
threat-based approach to planning led to the ongoing transformation of 
the existing triad of U.S. strategic nuclear forces, consisting of 
intercontinental and sea-launched ballistic missiles and bomber 
aircraft armed with cruise missiles and gravity weapons, into a New 
Triad composed of a diverse portfolio of systems. Elements of the New 
Triad will include nuclear and non-nuclear strike capabilities, active 
and passive defenses, and robust research and development programs and 
industrial infrastructure for developing, building, and maintaining 
offensive and defensive weapon systems. Maintaining our traditional 
nuclear strategic forces is a key capability in an effective New Triad.
    National Security Presidential Directives outline the future force 
structure and requirements for U.S. nuclear forces. To meet National 
Military Strategy, Nuclear Posture Review and the Moscow Treaty 
requirements, near-term capability and sustainment improvements must be 
made to the legacy forces while development and procurement of follow-
on systems proceed. These efforts will enable Air Force nuclear forces 
to continue to provide critical capabilities to policy makers. The 
nuclear forces will dissuade current and potential adversaries from 
pursuing policies or military initiatives that are unfavorable to our 
interests or those of our allies.
    Our Intercontinental Ballistic Missiles (ICBMs) and cruise missiles 
are poised to decisively defeat an adversary if deterrence fails. The 
cruise missile inventory, both Air Launched Cruise Missile and Advanced 
Cruise Missile, is being upgraded through a Service Life Extension 
Program (SLEP) to maintain a viable and flexible bomber-delivered 
weapon. Additionally, the Department of Energy is conducting a SLEP on 
the cruise missile warhead.
    The Air Force is committed to the New Triad and the associated 
nuclear C2 systems. To provide survivable strategic communications, the 
Air Force fielded and currently operates the Milstar SATCOM system. We 
are preparing to field the next generation Advanced EHF SATCOM system 
to replace it, as well as a single terminal to provide reliable, 
redundant and secure radio and satellite communication links with 
Minuteman ICBM forces. The Air Force recognizes the importance of the 
Nation's nuclear C2 resources and will continue to pursue the New Triad 
strategy for our strategic systems to ensure they are always ready to 
respond to the direction of our national leaders.
            Space Support for Operations
    The United States depends upon the Air Force to supply critical 
space capabilities to meet the needs of Joint operations worldwide, and 
also the needs of national missions across the instruments of 
diplomatic, informational, military and economic power. The National 
Security Strategy commits us to assuring allies, dissuading military 
competition, deterring threats and decisively defeating adversaries. 
The robust space capabilities our Airmen provide and maintain will 
continue to ensure our Nation's goals are met.
    As the DOD Executive Agent for Space, the Under Secretary of the 
Air Force released a coordinated National Protection Framework in 2005. 
This framework will aid senior decision makers by stating how space 
systems will be expected to operate during and following an intentional 
attack. The framework supports senior leaders in creating a Total Force 
solution across the national security space community. Air Force 
satellite communications will ensure our Nation's leaders can 
communicate globally through times of crisis while providing 
warfighters instant access to information. As evidenced by the 
hurricanes in the Gulf of Mexico, space environmental monitoring has 
become essential in saving lives and property as well as ensuring 
ground, sea and air forces prepare effectively for weather impacts.
    In support of worldwide military operations, the Air Force launched 
eight DOD and National satellite systems in 2005 from Air Force-managed 
and maintained launch ranges at Cape Canaveral Air Force Station, 
Florida and Vandenberg Air Force Base, California. That number is 
expected to increase to 13 in 2006 as the Evolved Expendable Launch 
Vehicle (EELV) program takes over as the foundation for U.S. assured 
access to space.
    We have seen the first challenges to U.S. advantages gained from 
space assets. During OIF, the Iraqis employed GPS jammers in an attempt 
to reduce the precision of U.S. and allied strikes. We defeated this 
threat through a variety of methods including space system design, 
munitions design and tactics development to operate in a GPS-hostile 
environment. As technology develops and becomes available to more 
countries, organizations and individuals, new types of threats to space 
capabilities will emerge. Preparation now using non-materiel and 
materiel solutions to address the variety of potential realistic 
threats will lead to continued success in the battlespace.
    Comprehensive space situation awareness (SSA) and defensive and 
offensive counterspace capabilities are the foundational elements of 
our Space Superiority efforts. Enhanced ground-based and new space-
based SSA assets will provide the necessary information to gain and 
maintain space superiority. With respect to defensive counterspace, we 
maintain a diversified ground-based C2 network, and we are developing 
increased protection for our satellites and space-based services to 
ensure the vital capabilities they provide are available when needed. 
We also recently fielded the Counter-Communications System to deny 
these same services to our adversaries. A well-balanced, multi-tiered 
architecture enables execution of a robust, effective space superiority 
strategy.
    Even as the first challenges to our Space Superiority have arisen, 
the Air Force is already working toward responses to the next set of 
potential challenges. First, the United States would like to deter 
potential adversaries from attacking or exploiting our space 
capabilities. To accomplish this objective, worldwide space operations 
must be monitored, assessed and understood. SSA involves those 
capabilities that allow the interagency and Joint communities to find, 
fix, track, characterize and assess space operations on orbit and 
inside the various Combatant Commanders' areas of responsibility. SSA 
capabilities will allow the Air Force or other members of the Joint 
community to target, if necessary, our adversaries' space capabilities. 
As part of the C2 process, we will evaluate options ranging from 
diplomatic to economic to military actions to determine the best 
flexible option to achieve the desired outcome. By understanding how 
friendly and hostile actors are leveraging these space capabilities in 
their operations, senior decision makers can deter potential 
adversaries while preventing unnecessary escalation and allowing for a 
range of response options to meet national objectives.
    The Air Force will protect space capabilities vital to the success 
of the Joint Force and the defense and prosperity of our great Nation. 
Some defensive measures will be integrated into new satellite designs. 
Other space systems, such as the Rapid Attack Identification Detection 
and Reporting System (RAIDRS) will be specifically designed to conduct 
defensive operations. We are also leaning forward on the development of 
new tactics, techniques and procedures to mitigate potential threats to 
Air Force space systems. Furthermore, experimentation has aided us 
immensely by facilitating risk reduction and providing interim 
defensive capabilities today--RAIDRS is an excellent example. The Air 
Force developed a prototype RAIDRS and demonstrated the capabilities of 
the system during Joint Expeditionary Force Experiment 2004 (JEFX 04). 
The inclusion of this prototype laid the groundwork for both tactics 
development and for design improvements for future development 
programs. As a result of JEFX 04, CENTCOM requested this prototype to 
support real-time Joint operations in theater. The results and lessons 
of this operational employment will certainly shape future capabilities 
by improving our understanding and providing further opportunities for 
innovation.

   AIR AND SPACE POWER FOR TOMORROW--AIMING FOR THE UNLIMITED HORIZON

Priorities
            Developing and Caring for Our Airmen
    Force Shaping.--For the past 18 months, the Air Force has reduced 
our active duty end strength to Congressionally authorized levels 
taking action to relieve some of our most stressed career fields. The 
2004-2005 Force Shaping Program allowed officers and enlisted personnel 
to separate from active duty service earlier than they would otherwise 
have been eligible. In addition to voluntary force shaping measures, 
the Air Force significantly reduced enlisted accessions in 2005 to help 
meet our Congressional mandate.
    While the Air Force met our 2005 end strength requirement, we began 
2006 with a force imbalance: a shortage of enlisted personnel and an 
excess of officer personnel, principally among those officers 
commissioned from 2000 to 2004. This imbalance created several 
unacceptable operational and budgetary impacts. Consequently, the Air 
Force took several actions to ensure our force is correctly sized and 
shaped to meet future challenges and to reduce unprogrammed military 
pay costs. First, we increased our enlisted accession target for 2006 
to address the enlisted imbalance. Second, we continued to encourage 
qualified officers, especially those commissioned in 2000 and later, to 
consider voluntary options to accept service in the Air National Guard, 
Air Force Reserve, civil service, or as an inter-service transfer to 
the Army.
    Additionally, we are institutionalizing the force shaping authority 
granted in the 2005 National Defense Authorization Act to restructure 
our junior officer force. Only after exhausting all efforts to reduce 
officer end strength by voluntary means, the Air Force will convene a 
Force Shaping Board in 2006 to consider the performance and potential 
of all eligible officers commissioned in 2002 and 2003. This board will 
be held annually thereafter, as required, to properly shape and manage 
the officer corps to meet the emerging needs of the Air Force. 
Essentially, the Force Shaping Board will select officers for continued 
service in our Air Force. Current projections indicate that we need 
about 7,800 of these eligible officers (2002 and 2003 year groups) to 
continue on active duty. Approximately 1,900 officers will be subject 
to the force reduction. Exercising this authority is difficult, but our 
guiding principle is simple--we must manage our force to ensure the Air 
Force is properly sized, shaped and organized to meet the global 
challenges of today and tomorrow.
    Balancing the Total Force.--In addition to maintaining and shaping 
the active duty force, we must continue to focus on the balance of 
forces and specialties between Regular, Air National Guard and Reserve 
components--the Total Force. We are diligently examining the 
capabilities we need to provide to the warfighter and to operate and 
train at home. We continue to realign manpower to our most stressed 
areas and are watchful for any new areas that show signs of strain.
    As we look to the future in implementing Base Realignment and 
Closure (BRAC) and Quadrennial Defense Review (QDR) decisions, we must 
ensure a seamless transition to new structures and missions while 
preserving the unique capabilities resident in our Regular Air Force, 
Air National Guard and Reserve communities. Examining functions for 
Competitive Sourcing opportunities or conversion to civilian 
performance will continue to be one of our many tools for striking the 
correct balance of missions across the Total Force.
    Force Development.--The Air Force's Force Development construct is 
a Total Force initiative that develops officers, enlisted and civilians 
from the Regular Air Force, the Air National Guard and the Air Force 
Reserve. The fundamental purpose of force development is to produce 
leaders at all levels with the right capabilities to meet the Air 
Force's operational needs by leveraging deliberate training, education 
and experience opportunities.
    The Air Force Personnel Center created a division dedicated to 
supporting corporate and career field development team needs. 
Development teams have now been incorporated into the officer 
assignment process and they now guide assignment of all officer career 
fields. Additionally, development teams recommend officers for special 
selection boards and developmental education opportunities.
    The Air Force is also deliberately developing our enlisted Airmen 
through a combined series of educational and training opportunities. We 
are exploring new and exciting avenues to expand our process beyond the 
current system in place today. Each tier of the enlisted force will see 
changes to enlisted development. Airmen (E-1 to E-4) will be introduced 
to the enlisted development plan, increasing their knowledge and 
solidifying future tactical leadership roles. The noncommissioned 
officer (NCO) tier will be encouraged and identified to explore career-
broadening experiences and continuing with developmental education. Our 
Senior NCO tier will see the most dramatic changes as we explore the 
use of development teams in conjunction with assignment teams to give 
career vectoring and strategic level assignments. Institutionalizing 
the practice of development as a part of enlisted Air Force culture is 
paramount for supervisors, commanders and senior leaders.
    On the civilian side, the Air Force is making significant progress 
in civilian force development as we align policy, processes and systems 
to deliberately develop and manage our civilian workforce. We have 
identified and mapped over 97 percent of all Air Force civilian 
positions to career fields and have 15 Career Field Management Teams in 
place with three additional management teams forming this year. 
Additionally, we manage various civilian developmental opportunities 
and programs, with our career-broadening program providing several 
centrally funded positions, specifically tailored to provide career-
broadening opportunities and professionally enriching experiences.
    Recruiting/Retention.--After intentionally reducing total 
accessions in 2005, the Air Force is working to get the right mix of 
officer and enlisted Airmen as we move to a leaner, more lethal and 
more agile force. We will align the respective ranks to get the right 
person, in the right job, at the right time to meet the Air Force 
mission requirements in support of the GWOT, the Joint Force and the 
Air Force's expeditionary posture.
    A key element for success is our ability to continue to offer 
bonuses and incentives where we have traditionally experienced 
shortfalls. Congressional support for these programs, along with 
increases in pay and benefits and quality-of-life initiatives, has 
greatly helped us retain the skilled Airmen we need to defend our 
Nation.
    Personnel Services Delivery.--To achieve the Secretary of Defense's 
objective to shift resources ``from bureaucracy to battlefield,'' we 
are overhauling Air Force personnel services. Our Personnel Services 
Delivery initiative dramatically modernizes the processes, 
organizations and technologies through which the Air Force supports our 
Airmen and their commanders.
    Our goal is to deliver higher-quality personnel services with 
greater access, speed, accuracy, reliability and efficiency. The Air 
Force has been able to program the resulting manpower savings to other 
compelling needs over the next six years. This initiative enhances our 
ability to acquire, train, educate, deliver, employ and empower Airmen 
with the needed skills, knowledge and experience to accomplish Air 
Force missions.
    National Security Personnel System (NSPS).--Our civilian workforce 
will undergo a significant transformation with implementation of the 
DOD NSPS. NSPS is a simplified and more flexible civilian personnel 
management system that will improve the way we hire, assign, compensate 
and reward our civilian employees. This modern and agile management 
system will be responsive to the national security environment, 
preserve employee protections and benefits, and maintain the core 
values of the civil service.
    NSPS design and development has been a broad-based, participative 
process to include employees, supervisors and managers, unions, 
employee advocacy groups and various public interest groups. We plan to 
implement these human resource and performance management provisions in 
three phases called ``spirals.'' The first spiral will include 
approximately 89,000 General Schedule and Acquisition Demonstration 
Project civilian employees in the Air Force. NSPS is the most 
comprehensive new federal personnel management system in more than 50 
years, and it's a key component in the DOD's achievement of a 
performance-based, results-oriented Total Force.
    Caring for Airmen.--Combat capability begins and ends with healthy, 
motivated, trained and equipped Airmen. We must remain committed to 
providing our entire Air Force team with world class programs, 
facilities and morale-enhancing activities. Our ``Fit to Fight'' 
program ensures Airmen remain ready to execute our expeditionary 
mission at a moment's notice, and our food service operations further 
complement an Air Force healthy lifestyle.
    Through various investment strategies in both dormitories and 
military family housing, we are providing superior living spaces for 
our single Airmen and quality, affordable homes for our Airmen who 
support families. Our focus on providing quality childcare facilities 
and programs, on and off installations, enables our people to stay 
focused on the mission, confident that their children are receiving 
affordable, quality care. The Air Force is a family, and our clubs and 
recreation programs foster and strengthen those community bonds, 
promoting high morale and an esprit de corps vital to all our 
endeavors.
    Additionally, we are equally committed to ensuring that all Airmen 
in every mission area operate with infrastructure that is modern, safe 
and efficient, no matter what the mission entails--from Depot 
Recapitalization to the bed down of new weapon systems. Moreover, we 
must ensure Airmen worldwide have the world class training, tools and 
developmental opportunities that best posture them to perform with 
excellence. We also continually strive to provide opportunities and 
support services that further enable them to serve their Nation in a 
way that leaves them personally fulfilled, contributes to family 
health, and provides America with a more stable, retained and capable 
fighting force.
    Housing and Military Construction [MILCON].--One of the highlights 
in our emphasis on developing Airmen is our focus on housing 
investment. Through military construction and housing privatization, we 
are providing quality homes faster than ever before. Over the next two 
years, the Air Force will renovate or replace more than 49,000 homes 
through privatization. At the same time, we will renovate or replace an 
additional 10,000 homes through military construction.
    Investment in dormitories continues to accelerate in order to 
provide superior housing to our unaccompanied members--evidenced by 
nearly 8,600 dormitory rooms programmed for funding over the next six 
years. Approximately 75 percent of these initiatives will rectify 
currently inadequate dormitory conditions for permanent party members. 
Our new ``Dorms-4-Airmen'' standard is a concept designed to increase 
camaraderie, social interaction and accountability by providing four 
single occupancy bedroom/bathrooms with a common kitchen and living 
area in each module. Finally, the remaining dormitory program initiates 
modernization of inadequate ``pipeline'' dormitories--those dormitories 
that house young enlisted students during their initial technical 
training.
    The Air Force has taken risk in facility and MILCON funding in 
order to support modernization and transformation. However, we continue 
to fund our most critical requirements to include new mission projects, 
depot transformation, dormitories, fitness centers and child care 
centers. The Air Force is committed to improving its infrastructure 
investment by meeting the DOD's recapitalization goal through the 
Future Year's Defense Plan [FYDP].
    Sustain, Restore, And Modernize Our Infrastructure.--In order to 
maintain readiness, your Air Force remains committed to sustaining, 
restoring, and modernizing our infrastructure. Central to that 
commitment is our focus on both preserving our existing investment in 
facilities and infrastructure as well as optimizing our limited 
Restoration and Modernization (R&M) funding to fix critical facility 
deficiencies that impact our readiness. With the increased OPTEMPO of 
GWOT, these efforts are more important than ever.
    Our sustainment program maximizes the life of our infrastructure 
and preserves our existing investment. With proper sustainment, we will 
prevent our infrastructure from wearing out under the strain of 
increased operations and activities. In addition, Commanders in the 
field use O&M accounts to address facility requirements that directly 
impact mission capabilities.
    When facilities require restoration or modernization, we use a 
balanced program of O&M and MILCON funding to make them ``mission 
ready.'' Unfortunately, restoration and modernization requirements in 
past years have exceeded available O&M funding, forcing us to defer 
much-needed work. It is critical for us to steadily increase our R&M 
investment in order to halt the growth of this backlog. Simultaneously, 
it is important that we fully fund our sustainment efforts in order to 
maximize the life of our good infrastructure. The Air Force Total Force 
sustainment funding for fiscal year 2007 carefully balances 
infrastructure sustainment, R&M and MILCON programs to make the most 
effective use of available funding in support of the Air Force mission.
    We must avoid separating the Sustainment, Restoration and 
Modernization (SRM) account from the Operations and Maintenance (O&M) 
appropriation. In past years, all O&M was funded from the Defense 
Appropriation. Commanders are afforded the necessary flexibility to 
effectively manage budget shortfalls and unexpected requirements such 
as utility rate increases, natural disasters, infrastructure failures, 
or mission-driven requirements. Without legislation that would permit 
the movement of funds between all O&M accounts, Commanders would face 
serious challenges addressing these emergent requirements.
    Basic Allowance For Housing [BAH].--We must also avoid migration of 
BAH out of the Defense Appropriation Bill. Should emergent requirements 
create shortfalls during the year of execution, commanders will be 
unable to address them. Our hands will be tied. The Services will no 
longer have the ability to flexibly use the Military Personnel account. 
Furthermore, the Committee will have to create a new mechanism to 
ensure our Airmen are paid the housing allowance to which they are 
entitled.
    Common Airman Culture.--An Airman Culture manifests the totality of 
our commonly transmitted behaviors, patterns and beliefs. Our Air Force 
clearly recognizes the relationship between mission capabilities and 
our Air Force Core Values. Integrity, Excellence and Service, remain 
critical guideposts to every Airman's personal and professional flight 
path. Principles of dignity, self-worth, respect and diversity are 
firmly embedded elements of these values. Together, our Core Values are 
reflected in every Airman's pride, dedication to mission, subordination 
of their own needs for those of their wingman, and devotion to duty and 
this great Nation. In this past year, we have made significant strides 
in our efforts to promote, reinforce and inculcate our Core Values 
across the Air Force and throughout the Total Force team--including our 
Regular, Guard, Reserve, Civilian and Contractor teammates. We expect 
and accept no less from everyone on the Air Force team.
    Certain behaviors are absolutely incongruous with the Common Airman 
Culture and our Core Values. Among these is sexual assault. The Air 
Force has created the Sexual Assault Prevention and Response Program to 
ensure every Airman is provided the respect and dignity they deserve as 
their Nation's Air and Space warfighters. We have trained and fielded 
Sexual Assault Response Coordinators and Victim Advocates to ensure 
every Airman has access to immediate assistance, should it be required. 
We are rewriting our education and training curricula at every level to 
ensure Airmen understand how these crimes occur, how they are often 
unwittingly facilitated by bystanders and third-party witnesses and how 
we can better take care of our people by preventing sexual assault 
crimes from occurring to them, their wingmen, friends and family 
members.
    Reflecting our belief that diversity adds strength to our 
organization, the Air Force has accepted the challenge to ``create a 
diverse and an inclusive Total Force which reflects and leverages the 
talents of the American people to maximize the Air Force's combat 
capabilities.'' We created The Office of Air Force Strategic Diversity 
Integration in the summer of 2005 to lead the Air Force's Diversity 
efforts. This office provides leadership guidance and strategic support 
for the understanding, furtherance and advantage of diversity within 
the ranks of the Air Force.
    Inherent in our Common Airman Culture is a belief in professional 
and personal dignity and a deep respect for individual religious 
beliefs. The protection of every Airman's freedom of religion, while 
also defending the Constitutional prohibition on official establishment 
of religion, is an area of significant emphasis. As Airmen, we take an 
oath to support and defend the Constitution. In that endeavor, we are 
striving to assist Air Force personnel, in the course of their official 
duties, to meet and balance their multiple Constitutional obligations 
and personal freedoms, regarding the free exercise of religion, 
avoidance of government establishment of religion, and defense of the 
Nation. This is an area of national debate. The balancing of these 
foundational American principles demands common sense, good judgment 
and respect for each Airman's right to hold to their own individual 
personal beliefs.
    We also recognize our Airmen must have the ability to interact with 
coalition partners and local communities at home and abroad, and the 
Air Force is transforming how it engages friends and partners in the 
expeditionary environment. Operations in this dynamic setting 
necessitate extensive international insight to work effectively with 
existing and emerging coalition partners in a wide variety of 
activities. Through the AF International Affairs Specialist program, we 
are developing leaders who are regional experts with foreign language 
proficiency. Our focus is on building a cadre of officers with the 
skills needed to foster effective relationships with global partners in 
support of the Combatant Commanders and U.S. global interests.
    Over the next year, the Air Force will continue to vigorously 
reinforce our Common Airmen Culture, our belief in professional and 
personal dignity and most importantly our enduring Core Values of 
Integrity First, Service Before Self and Excellence in All We Do.
    Training at Keesler AFB Following Hurricane Katrina.--In August 
2005, Hurricane Katrina struck the Gulf Coast of the United States. 
Keesler Air Force Base (AFB), Mississippi lay in its direct path. The 
Air Force is attempting to rapidly reestablish Keesler's critical 
training missions. Of 56 enlisted initial skills training 
``pipelines,'' 90 percent have already resumed operation. Additional 
pipelines have been temporarily reestablished at other locations. 
Significant challenges remain ahead, but training and developing our 
expeditionary Airmen remains one of our highest priorities. We take 
exceptional pride in the work our Airmen have done, and continue to do, 
in restoring Keesler AFB's training capability.
            Maintenance, Modernization and Recapitalization
    Our Airmen are the best in the world. However, they can only be as 
effective as the tools we give them. Within today's fiscal constraints, 
we must fight the GWOT and protect the homeland while transforming the 
force and maintaining an appropriate level of risk. The Air Force is 
committed to the modernization and recapitalization necessary to 
maintain the health of the force and bridge our current capabilities to 
systems and capabilities required in the future.
    Aircraft.--Our primary fighter modernization and recapitalization 
program is the F-22A Raptor. The F-22A is a 5th generation fighter 
aircraft that delivers Joint Air Dominance to counter persistent and 
emerging national security challenges. Given its vast improvements in 
every aspect--air-to-air, air-to-ground, all-aspect stealth, and an 
open, adaptable architecture--the F-22A is an insurance policy against 
future threats to Joint Air Dominance and represents the absolute best 
value for the American taxpayer. The F-22A is the only fighter 
currently produced that will defeat conceivable threats to Joint Air 
Dominance in anti-access environments over the next 20-30 years.
    The F-22A is flying today and is in full rate production. Its 
performance continues to meet or exceed key performance parameters and 
spiral modernization will enhance its air-to-air and air-to-ground 
target engagement capability.
    The F-35 Joint Strike Fighter (JSF), also a 5th generation fighter, 
will complement the tremendous capabilities of the F-22A. The JSF will 
recapitalize combat capabilities currently provided by the F-16 and A-
10. Optimized for all-weather performance, JSF will specifically 
provide affordable precision engagement and global attack capabilities. 
In 2005, the JSF program continued to address design challenges to 
develop three aircraft variants and coordinate the requirements of the 
Air Force, Navy and Marines, along with our international partners.
    The C-17 continues to be a success story for the Joint warfighter, 
deploying troops and cargo to Iraq and Afghanistan, as well as numerous 
locations around the world. The Air Force is on schedule for delivery 
of the next 40 aircraft through 2008--for a total of 180. During the 
past year, C-17s flew over 63,000 sorties, bringing the total number of 
OEF and OIF missions to over 109,000. Additionally, the C-17 flew over 
100 humanitarian and disaster relief missions following Hurricanes 
Katrina and Rita, as well as the October 2005 earthquake in Pakistan. 
The C-17, in concert with C-5 modernization programs, is critical to 
meeting our U.S. inter-theater airlift requirements.
    To meet continuing intra-theater airlift demands, we have a two-
pronged approach to modernize our C-130s. First, but most problematic, 
we are striving to replace our oldest aircraft with new C-130Js. 
Second, the remaining C-130s are being standardized and modernized via 
the C-130 Avionics Modernization Program and center-wing box 
replacement programs. C-130s have been the workhorse for intra-theater 
airlift during numerous contingencies. C-130Js have supported GWOT and 
humanitarian operations since December 2004 and have proven to be a 
force enhancer as they deliver more cargo in a shorter time than older 
C-130s. C-130 modernization, coupled with the wing-box modification, 
reduces operation and sustainment costs and improves combat capability.
    The Air Force is developing the next generation combat search and 
rescue (CSAR) recovery vehicle, called CSAR-X. We are planning to 
replace the current and aging CSAR inventory of ``low-density, high-
demand'' (LD/HD) HH-60G Pave Hawk helicopters with 141 CSAR-X aircraft. 
The CSAR-X will address deficiencies of the current HH-60G by providing 
increased capabilities in speed, range, survivability, cabin size and 
high altitude hover operations. The CSAR-X will provide personnel 
recovery forces with a medium-lift vertical take-off and landing 
aircraft that is quickly deployable and capable of main base and 
austere location operations for worldwide recovery missions. The CSAR-X 
will be capable of operating day or night, during adverse weather 
conditions, and in all environments including Nuclear, Biological and 
Chemical conditions. On-board defensive capabilities will permit the 
CSAR-X to operate in an increased threat environment, and in-flight 
refueling capability will provide an airborne alert capability and 
extend its combat mission range.
    UAVs.--UAVs are demonstrating their combat value in the GWOT. The 
Air Force rapidly delivered operational UAV capabilities to the Joint 
warfighter and is continuing to mature and enhance those capabilities.
    Predator is transforming the way we fight, providing a persistent 
ISR, target acquisition and strike capability against critical time 
sensitive targets (TSTs) in direct response to warfighters' needs. 
Today, by controlling combat operations remotely from the United 
States, Predator provides a truly revolutionary leap in how we provide 
persistent military capability to the warfighter.
    The Air Force will continue to enhance Predator's ability to 
support the Joint warfighter. We are developing the ability to operate 
multiple aircraft by a single pilot, which will increase our overall 
combat effectiveness. We demonstrated this capability in August 2005. 
We are also developing and deploying the Predator B, a larger, more 
capable, more lethal variant. In its role as a ``hunter-killer,'' 
Predator B will be capable of automatically finding, fixing, tracking 
and rapidly prosecuting critical emerging TSTs.
    Global Hawk is a high-altitude, long endurance RPA providing robust 
surveillance and reconnaissance capabilities. Despite being a 
developmental prototype system, Global Hawk has flown over 4,900 combat 
hours. This year the Air Force moved beyond the proven capability of 
the Global Hawk prototypes by deploying two production aircraft to 
support GWOT operations.
    Airborne ISR.--E-8C Joint Surveillance Target Attack Radar System 
(J-STARS) continues to be a high-demand asset. J-STARS aircraft provide 
wide theater surveillance of ground moving targets. Crews from the 
116th Air Control Wing at Robins AFB, Georgia, the first-ever ``blended 
wing'' of Regular Air Force, Air National Guard and Army, operate these 
aircraft. Modernizing these aircraft while maintaining the current high 
OPSTEMPO in combat theaters will be ongoing challenges. The recent 
installation of the Force XXI Battle Command Brigade and Below module, 
the reduced vertical separation minima module, and the Airborne 
Battlefield Command and Control Center are some of the latest 
capability upgrades. The most urgent modernization needs for J-STARS 
include re-engining, radar upgrades, installation of the Traffic Alert 
Collision Avoidance System and integration of a self-protection suite.
    The E-10A program will highlight the advanced capabilities of the 
Multi-Platform Radar Technology Insertion Program (MP-RTIP) sensor by 
demonstrating advanced cruise missile defense, interleaved ground 
tracking, and ground imaging capabilities in 2010 and 2011. A smaller 
variant of the MP-RTIP sensor, developed within the E-10A program, will 
be integrated into the Global Hawk in 2008 to begin developmental and 
operational testing. These demonstrations will advance critical sensor 
technology and provide vital warfighting capabilities.
    Space and Nuclear Forces.--Air Force modernization and 
recapitalization efforts also continue for space systems. The Air Force 
is modernizing critical capabilities across the spectrum of global 
strike, navigation, weather, communication, missile warning, launch, 
surveillance, counterspace and ground-based space systems.
    The Minuteman Intercontinental Ballistic Missile (ICBM) was 
originally designed in the late 1950s and deployed operationally in 
October 1962. Modernization programs have been crucial to this system 
originally designed to last just ten years. Service life extension 
programs are underway to ensure the Minuteman III remains mission 
capable through 2020. These programs, nine in all, will replace 
obsolete, failing and environmentally unsound materials while 
maintaining missile reliability, survivability, security and 
sustainability. These efforts are critical in sustaining the ICBM force 
until a follow-on system can be fielded.
    The Air Force is also addressing the need for a follow-on ICBM 
system. This system will address future warfighter needs, reduce 
ownership costs and continue to provide policy makers the critical 
capabilities provided by the ICBM. The effort to modernize the ICBM 
force is vital to the United States for the foreseeable future.
    Continued, unhindered access to space is vital to U.S. interests. 
As the Air Force continues programs to upgrade and modernize America's 
launch ranges, the EELV program will continue to provide the United 
States with assured access to space for both DOD and National space 
assets. The EELV program includes two launch vehicle designs--Delta-IV 
and Atlas-V--with each design comprising a family of scalable, 
tailorable launch vehicle variants.
    The TSAT program will employ Internet Protocol networks, on-board 
routing and high-bandwidth laser communications relays in space to 
dramatically increase warfighter communications connectivity. TSAT 
capability enables the realization and success of all DOD and Joint 
visions of future network-centric operations, such as the Army's 
Communications-on-the-Move (COTM) and Future Combat System (FCS) 
concepts and the Navy's Sea Power 21 vision and Fleet FORCEnet/
FORCEview concepts.
    Global Positioning System (GPS) modernization and development of 
the next-generation GPS-III will enhance navigation capability and 
improve resistance to jamming.
    In partnership with NASA and the Department of Commerce, the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) will accurately calculate surface winds over the oceans and 
gather meteorological data for our forces deployed overseas.
    The Space Based Infrared System (SBIRS) will provide a 
transformational leap in capability over our aging Defense Support 
Program satellites. Complementing the space-based system are ground-
based missile warning radars, being upgraded to support the missile 
defense mission.
    Another future transformational space-based ISR program is the 
Space Radar (SR) system. SR's day-night and all-weather capabilities 
will include Synthetic Aperture Radar (SAR) imagery, High-Resolution 
Terrain Information (HRTI), Surface Moving Target Indication (SMTI), 
Geospatial Intelligence (GEOINT) and Open Ocean Surveillance (OOS), and 
rapid revisit. It will support a broad range of missions for the Joint 
warfighter, the Intelligence Community, and domestic users. SR will be 
integrated with other surface, air and space ISR capabilities to 
improve overall collection persistence and architecture effectiveness.
    Modernization of our ground-based space systems will provide new 
capabilities to keep pace with the satellites they support and will 
continue to provide assured C2 for our satellites and space-based 
capabilities. This effort includes the modernization of ground-based 
radars, some of which are over 25 years old. Through programs like the 
Family of Advanced Beyond Line of Sight Terminals (FAB-T) and the 
Ground Multi-band Terminal, the Air Force is modernizing its ground-
based space capabilities with satellite communications terminals that 
consolidate logistics support, provide increased satellite throughput 
and laser communications and ensure seamless command and control. 
Additionally, enhanced ground-based and new space-based SSA assets will 
provide the necessary information to gain and maintain Space 
Superiority.
    As part of the broader Space Control mission, the ground-based, 
theater-deployable Counter Communications System (CCS) has achieved 
Initial Operational Capability (IOC) and provides the Combatant 
Commander with a non-destructive, reversible capability to deny space-
based communication services to our adversaries. Incremental upgrades 
to the CCS will continue to enhance our Offensive Counterspace 
capabilities. Overall counterspace enhancements also include ongoing 
RAIDRS development, which is a Defensive Counterspace system designed 
to assist in the protection of our space assets. RAIDRS will provide a 
capability to detect and geolocate satellite communications 
interference via fixed and deployable ground systems. Future 
developments will automate data access analysis and data fusion and 
provide decision support tools.
    Operational Infrastructure and Support Modernization (OSM).--
Finally, the Air force is pursuing to modernize its operational 
infrastructure and the tools we use to manage operational support to 
our Airmen and Joint warfighters. The Air Force's ongoing Operational 
Support Modernization (OSM) program will improve operational support 
processes, consolidate personnel and financial service centers, and 
eliminate inefficiencies in the delivery of services, support and 
information to our Airmen and the Combatant Commanders. Realizing these 
economies, OSM will improve Air Force-wide enterprise efficiency and 
provide a resources shift from business and combat support systems, 
thereby returning resources to Air Force operations, equipment 
modernization and long-term investments.
    Air Force efforts also continue in the development of an effective, 
holistic asset management strategy for the restoration and 
modernization of operational infrastructure--facilities, utilities and 
natural resource assets--throughout their useful life cycles. 
Operational infrastructure is critical to the development and testing 
of new weapon systems, the training and development of our Airmen, and 
the conduct of Joint military exercises.
            Acquisition Reform
    The Air Force will meet the challenges of the 21st century, 
including asymmetric threats, through continued exploitation of our 
technological leadership and with our ability to respond quickly to the 
demands of a rapidly changing world. Effective leadership in research 
and development, procurement and sustainment of current and future 
weapons systems depends upon the integrated actions of professionals in 
the acquisition, as well as the requirements generation, resource and 
oversight processes. Everything we do in Air Force acquisition drives 
toward the goal of getting an operationally safe, suitable and 
effective product of best value to the warfighter in the least amount 
of time.
    Program cost and schedule growth have drawn widespread criticism 
and undermined confidence in the defense acquisition process. A recent 
Government Accounting Office (GAO) study of 26 DOD weapon systems 
reports average unit costs have grown by 50 percent and schedules have 
stretched an average of 20 percent, to nearly 15 years, despite 
numerous attempts at reform.
    In an effort to address these concerns, the Air Force formed the 
Acquisition Transformation Action Council in December 2004. This group 
is comprised of general officer and senior executive service 
representatives from the Air Force product centers, labs, air logistics 
centers and headquarters. The group continues to lead the 
transformation of Air Force acquisition from its present state into 
that of an Agile Acquisition Enterprise. The goals of Agile Acquisition 
include shortened acquisition process time and improved credibility 
with both internal and external stakeholders. Achieving these goals 
will be critical to making the delivery of war-winning capabilities 
faster, more efficient and more responsive.
    The Acquisition Transformation Action Council's short-term focus is 
on incremental improvements and eliminating non-value-added processes 
in areas such as conducting Acquisition Strategy Panels, meeting 
immediate warfighter needs and effectively incentivizing contractors. A 
more comprehensive strategic plan for acquisition transformation, due 
later this year, will detail not only where the near-term changes fit 
into the big picture of acquisition reform, but also the longer-term 
actions needed to achieve the goals of Agile Acquisition.
    The Air Force is also pursuing initiatives aimed at improving the 
Air Force's cost analysis capability. Among these initiatives are 
efforts to strengthen the Air Force Cost Analyst career field, improve 
the quality, quantity and utilization of program cost and technical 
data and estimating methods, and establish new policy requiring robust 
independent cost estimates for programs--earlier and more often. These 
improvements will promote realistic program cost and technical 
baselines as well as strengthen the Air Force's capacity to produce 
accurate, unbiased cost information for Air Force, DOD and 
Congressional decision-makers.
    The Air Force is on a bold, ambitious, yet necessary journey to 
provide our Commanders and decisions-makers with accurate, reliable 
real-time business and financial management information that is 
validated by a ``clean audit'' opinion. Basic building blocks for this 
effort include a revitalized emphasis on transparency in our business 
processes and an enterprise-wide financial management capability that 
is modern, comprehensive and responsive to the warfighter. Sound 
financial management and improved accountability are at the core of our 
financial management transformation.
    Initiatives in Air Force contracting include development and 
implementation of the Enterprise Architecture for Procurement, 
consolidation of Major Command (MAJCOM) Federal Acquisition Regulation 
Supplements, standardization of the strategic sourcing process and 
assessment of current contracting organizational alignments.
    The Air Force will continue to promote small business participation 
in our acquisitions. Partnering with small businesses--including 
Historically Underutilized Business Zones; Women Owned Small 
Businesses; Service Disabled Veteran Owned Small Businesses; Small 
Disadvantaged Businesses; and Historically Black Colleges, Universities 
and Minority Institutions--helps ensure we maintain a strong defense 
industrial base and have the widest range of products and services 
available to support the Joint warfighter.
    The Air Force is also working with OSD to understand the demand on 
our acquisition personnel and to appropriately size our workforce. Our 
objective is to have the right mix of military and civil service 
acquisition professionals with the appropriate education, experience 
and training.
Focus Areas
            Total Force Integration
    The Chairman of the Joint Chiefs of Staff, General Pace stated, 
``We must transform if we are to meet future challenges.'' One of the 
Air Force's more significant commitments to long-term transformation is 
the creation of the Total Force Integration Directorate. This new 
directorate is responsible for future force structure, emerging-mission 
beddown and development of Total Force organizational constructs. 
Working with our partners in the Air National Guard and Air Force 
Reserve, the Air Force is maximizing our overall Joint combat 
capability. Our efforts will enable the Air Force to meet the 
challenges of a shrinking budget, an aging aircraft inventory and new 
and emerging missions.
    The Air Force plans to shift investment from ``traditional'' combat 
forces, with single-mission capabilities, to multi-role forces by 
aggressively divesting itself of older systems. The result will be a 
force structure with expanded capability to combat conventional threats 
while continuing to wage the GWOT. Simply stated, the Air Force will 
become a smaller, yet more capable force through modernization and 
recapitalization of selected weapon systems with a commitment to 
networked and integrated Joint systems.
    Our Total Force initiatives will maximize efficiencies and enhance 
combat capability through innovative organizational constructs. We have 
developed an organizational construct based on the success of an 
associate model in use by the Regular Air Force and Air Force Reserve 
since 1968. Associate units are comprised of two or more components 
operationally integrated, but whose chains of command remain separate. 
This model capitalizes on inherent strengths of the Air Force's three 
components, ensuring partnership in virtually every facet of Air Force 
operations, while preserving each component's unique heraldry and 
history. Increased integration allows Regular Air Force personnel to 
capitalize on experience levels inherent in the Guard and Reserve, 
while building vital relationships necessary to sustain successful 
combat operations.
    Air National Guard and Air Force Reserve members will continue to 
support the Air Force's global commitments and conduct vital Homeland 
Defense and Security missions. Total Force initiatives will integrate 
Air Force components into missions critical to future warfighting: ISR, 
UAV operations and space operations. These missions are ideally suited 
for the Guard and Reserve since many provide direct support to the 
Joint warfighter from U.S. locations. Using this approach will improve 
our operational effectiveness, reduce our overseas footprint, reduce 
reliance on involuntary mobilization and provide more stability for our 
Airmen and their civilian employers.
    Ongoing Total Force transformation benefits from a robust, dynamic, 
cross-functional coordination process, involving the headquarters, all 
regular component MAJCOMs, the National Guard Bureau and Air Force 
Reserve Command.
    The Air Force continues to make significant progress on Total Force 
initiatives such as the Richmond-Langley F-22A integration in Virginia; 
community basing in Vermont; F-16 Integration at Hill AFB, Utah; new 
Predator missions in Texas, Arizona, New York, North Dakota, California 
and at the Air Force Warfare Center in Nevada; and C-17 associate units 
in Alaska and Hawaii. We are also working additional initiatives such 
as C-130 Active Associate units in Colorado and Wyoming; a C-5 Flight 
Training Unit in Texas; C-40 Integration in Illinois; and Centralized 
Intermediate Repair Facilities in Illinois, Connecticut, Louisiana, 
Utah, South Carolina, Georgia, North Carolina and Florida.
    The Air Force, through its Total Force Integration Directorate, is 
continuing a broad effort to ensure that new Total Force concepts are 
embedded in our doctrine, policy directives, instructions and training. 
We are creating procedures to ensure resource and other decisions 
related to Total Force initiatives become routine parts of the planning 
and programming processes. The goal is clear, albeit ambitious: take 
greater advantage of Total Force elements and capabilities in the way 
the Air Force does business.
    The Air Force is transforming from a Cold War force posture to a 
structure that supports expeditionary warfare and leverages Total Force 
capabilities. More efficient use of our Regular Air Force, Air National 
Guard and Air Force Reserve assets increases our flexibility and 
capacity to be a more agile and lethal combat force and a more vigilant 
homeland defender.
            Science and Technology (S&T)
    The Air Force develops and exploits new technologies to meet a wide 
range of conventional and asymmetric threats. To achieve required 
future capabilities, we continue to support S&T investments for the 
major tasks the Air Force must accomplish to support the Combatant 
Commanders.
    Air Force S&T is focused on high payoff technologies that could 
provide current and future warfighting capabilities to address not only 
conventional threats, but also those threats encountered in the GWOT. 
The Air Force has embraced a new technology vision to guide our S&T 
Program--``Anticipate, Find, Fix, Track, Target, Engage, Assess . . . 
Anytime, Anywhere.'' We are integrating this vision into our annual 
planning activities to ensure we develop and transition relevant 
technology to the Joint warfighter.
    Air Force technological advantages and superior warfighting 
capabilities are the direct result of decades of Air Force investment 
in S&T. Similarly, today's investment in S&T will produce future 
warfighting capabilities as we adapt to continually changing threats. 
The Air Force continues to seek ways to create a significantly greater 
advantage over these threats. Investment in technologies such as 
nanotechnology could provide stronger and lighter air vehicle 
structures, while investment in hypersonic research could provide on-
demand access to space and reduced time-to-target for conventional 
weapons. New information assurance technologies should allow real-time 
automatic detection and reaction to network attacks, enabling us to 
automatically isolate the attack and collect forensic evidence, all 
while continuing uninterrupted network operations. Research in sensor 
and information technologies should provide increased battlefield 
situational awareness, which will provide unprecedented insight and 
understanding of events in the battlespace. These are but a few 
examples of developing technologies that could lead to operational 
systems that are smaller, lighter, smarter, faster, stronger and more 
effective, affordable and maintainable than they are today.
    The Air Force Directed Energy (DE) Master Plan is on track and some 
DE applications are already being fielded, especially for defensive 
purposes. For example, the Large Aircraft Infrared Counter Measures has 
now been used extensively and successfully in OIF and OEF on C-17s. 
Also, the Airborne Laser program continues to move DE technology 
forward. The capabilities possible through DE hold the potential to 
profoundly transform how we fly, fight and defend ourselves.
    Impressive as our technological advances have been, maintaining an 
advantage relies, in part, on our commitment to future S&T investments. 
These investments also clearly highlight that air and space power is an 
asymmetric advantage for the Joint warfighter and the Nation.
            Air Force Smart Operations for the 21st Century [AFSO21]
    To meet the challenges of the road ahead, we have embarked on an 
Air Force-wide journey embracing Continuous Process Improvement, Lean 
Thinking and Six Sigma Quality. This major initiative is called AFSO21. 
Achieving excellence in all that we do requires us to institutionalize 
the precepts of AFSO21 throughout all of our operations, across the 
Total Force, and in our daily lives as Airmen. The Air Force is 
stepping up to the challenge and making the commitment necessary to 
achieve true process excellence. AFSO21 focuses on the identification 
and elimination of activities, actions and policies that do not 
contribute to the efficient and effective operation of the Air Force. 
We will seek out and discontinue any activity not ultimately 
contributing to creating military utility and mission capability. 
Continuous identification and systematic elimination of so-called 
``non-value added'' activities are the keys to improving service, 
reducing costs and enriching the lives of our Airmen.
    We are seeking three outcomes from this approach. First, we want 
Airmen who are fully aware of the importance of their work and how it 
contributes to the mission; Airmen must look to improve what they do 
every day. We want Airmen to see their role in a fundamentally 
different way: by focusing on increasing value and eliminating waste. 
Second, we want to make the most of our existing budgets and free 
resources for future modernization by systematically identifying and 
eliminating the waste in our day-to-day processes. Finally, we want to 
enhance our ability to accomplish our mission and provide greater 
agility in response to rapidly changing demands.
    Institutionalizing this new way of thinking and operating will 
allow the Air Force to meet the enormous challenges of the next decade 
and ultimately to sustain and modernize the world's best air and space 
force.
            Fuel Conservation and Efficiency
    The Air Force is the largest renewable energy power purchaser in 
the United States and is set to continue making large buys that will 
not only greatly reduce reliance on petroleum-based fuels but, over 
time, will reduce utility costs.
    The Air Force is pursuing an aggressive energy conservation 
strategy and is committed to meeting and surpassing the energy goals 
mandated by the Energy Policy Act of 2005 and other overarching 
policies and mandates. We have been successful at reducing our energy 
consumption in accordance with past legislation and will continue to 
use a variety of programs aimed at reducing our use of petroleum-based 
fuels.
    Our overall ground fuel conservation efforts in accordance with 
mandates and guidance have yielded some notable reductions. 
Specifically, Air Force motor vehicle gas and diesel consumption has 
fallen significantly alongside a corresponding increase in Air Force 
use of alternative fuels. Air Force progress in these areas will be 
driven largely by commercial research and funding, since we do not 
substantially drive alternative fuels technology and infrastructure 
changes. The Air Force is partnering with the Army to develop and use a 
hybrid electric-diesel engine for the High Mobility Multi-purpose 
Wheeled Vehicle (HMMWV) with a planned delivery starting in 2008. Other 
alternative fuel-technology is still in the development stage.
    Michigan's Selfridge Air National Guard Base (ANGB) will become the 
demonstration center for the latest fuel-efficient and environmentally 
compliant technologies for use in Air Force support equipment to 
include Basic Expeditionary Airfield Resources (BEAR) and ground 
vehicle inventories. Tests at Selfridge ANGB, Michigan will look at 
fuel cell powered vehicles, hydrogen fuel infrastructure requirements 
and will ultimately provide models for future Air Force/DOD 
procurement.
    Our use of energy from renewable sources and construction and 
infrastructure improvement programs are designed to create cost 
effective energy efficiencies in new and existing facilities. In 
addition, our aggressive pursuit of on-base renewable power generation 
is rapidly increasing. We have bases where power is being produced from 
wind, solar, geothermal and biomass, and we have projects planned, in 
design or under construction to greatly expand this capability. Some of 
our bases are already using 100 percent renewable power from purchases 
and on-site production. With our combined purchase/production strategy, 
the Air Force is poised to surpass the renewable goals set by the 
Energy Policy Act.
    We realize our reliance on petroleum-based fuels must be curtailed 
and it will take a concerted and coordinated effort to meet the energy 
reduction needs of the Air Force. We use the tools available to improve 
infrastructure while we continue to strive to instill an energy 
conservation mindset in our Airmen.
            C4ISR
    Future transformational C4ISR capabilities will provide all-
weather, persistent surveillance to the Joint warfighter and the 
Intelligence Community, and they will be tightly integrated with space, 
air and land assets to deliver even more precise and responsive 
situational awareness in support of national security objectives.
    The Air Force's biggest challenge with its world-class C4ISR 
systems remains the proper integration of these systems. The goal of 
our technology improvements is to integrate intelligence and operations 
capabilities. An integrated enterprise solution will enhance Joint, 
multi-agency and multi-national C4ISR collection and dissemination 
capabilities and will eliminate information seams among air, ground and 
space based assets. It will also expand information superiority and 
accelerate decision-making. This integration allows us to achieve 
decision dominance, leading to knowledge-enabled operations and 
supporting the development and execution of sovereign options using 
air, space and cyberspace capabilities.
    Knowledge-based operations are critical to closing the seams 
between Joint Forces. We anticipate a future in which each force 
element, no matter how small, is constantly collecting data and 
``publishing'' it to a Joint warfighter network. Information will flow 
from every corner and element of the Joint Force, from ISR collectors 
to the warfighters. A key aspect of future C4ISR capabilities will 
involve replacing time-consuming human interfaces with machine-to-
machine digital integration to ensure commanders have ready access to 
the information they need to execute their missions.
    The concepts of intelligence fusion and streamlined sensor-to-
shooter processes imply a high level of system interoperability at many 
levels. Information technology increases the ability to send ISR 
information to any point on the globe in near-real time. The Air Force 
is adapting doctrine, tactics, techniques and procedures to manage this 
ever-changing growth in C4ISR capabilities.
    To maximize our C4ISR capabilities, the Air Force is eliminating 
organizational restrictions that inhibit the flow of information 
between these systems. Advances in information technology are removing 
historical limitations inherent in legacy systems, such as line-of-
sight data links, incompatible C2 systems and manual collection-
management processes. Our goal is to increasingly ``share'' rather than 
``own'' information.
    Overcoming past shortfalls through improvements in the timeliness, 
accuracy and completeness of battlespace knowledge will also bring 
tactical-level information to command functions that previously had 
access to only the operational or strategic levels of war. The AOC is 
the focal point for operational C2 of air and space assets delivering 
combat effects to the warfighter. To make this capability more 
effective, we made it a weapon system--the Air Force provides manpower 
and training as it does for every other weapons system--standardized, 
certified and lethal. We injected the technology necessary to increase 
machine-to-machine connectivity. Through both technical and procedural 
improvements, we have increased the system's capacity for information 
fusion and accelerated the decision-to-shooter loop. All five of our 
full-function AOC weapon systems (Falconers) should be fully 
operational in 2006.
    In support of DOD and the Joint community's broader efforts to 
adopt and transition to network centric warfare, the Air Force is 
aggressively integrating existing C4ISR platforms across a distributed 
processing environment. The Network Centric Collaborative Targeting 
Program (NCCTP) will initially integrate capabilities that include 
airborne C2, ground surveillance, signals intelligence and operational 
C2 at the AOC. The Air Force will expand NCCTP into a broader Airborne 
Networking capability that will support the full and expanding range of 
future Joint air and space operations.
    The Air Force is actively pursuing the extension of Global 
Information Grid (GIG) networked capabilities out to the extreme edge 
of tactical air operations. Programs like Family of Advanced Beyond-
Line-of-Sight Terminals (FAB-T), the Joint Tactical Radio System 
(JTRS), Tactical Targeting Network Technology (TTNT), the Battlefield 
Airborne Communications Node (BACN), and, eventually, the TSAT 
constellation will provide rich connectivity and interoperability for 
Joint air operations as well as tactical users and warfighters.
    The Air Force is working closely with the other Services and 
Agencies to define new doctrine and organizational structures to 
optimize Joint warfighting operations. Consequently, we are developing 
the necessary technical capabilities, refined processes and trained 
personnel to achieve desired effects.
            Warfighting Headquarters (WFHQs)
    The Air Force is transforming our C2 structure by establishing new 
WFHQs. These will be positioned globally, replacing our old Cold War 
structures and providing the Joint Force Commander (JFC) with the most 
effective means to lead air and space forces in support of National 
Security objectives. These forces will be organized and resourced to 
plan and deliver air and space power in support of Combatant 
Commanders, enabling a seamless transition from peacetime to wartime 
operations. WFHQs will maximize usage of C4ISR technology and reachback 
to minimize required manpower. The WFHQs are also designed to act as 
the Combined/Joint Force Air Component Commander Headquarters, or Joint 
Task Force Headquarters.
            Joint Warfighting Space (JWS)
    The JWS concept is an outgrowth of Air Force efforts to develop 
Operationally Responsive Space (ORS) capabilities. JWS and ORS will 
enable rapid deployment and employment of communication, ISR and other 
vital space capabilities and services. JWS will emphasize agility, 
decisiveness and integration to provide dedicated, responsive space and 
near-space capabilities and effects to the JFC.
    In 2005, the Air Force successfully conducted the first JWS 
demonstration. By capitalizing on an existing commercial communications 
capability using free-floating platforms, the Air Force was able to 
extend line-of-sight communications for ground forces from 5-7 miles to 
over 300 miles. This demonstration was the initial step in exploiting 
existing off-the-shelf technologies in a long loiter environment.
    In 2006, the Air Force will team with our sister Services to 
conduct the first in a series of small (1,000 pounds or less) satellite 
experiments. These demonstrations are designed to enhance and 
incorporate space capabilities in Joint training and exercises, 
increase space integration and allow the Joint Force to take advantage 
of the many synergies multi-service space professionals provide. 
Lessons learned from these activities have the potential to further 
evolve and improve space doctrine and help the Joint community in 
developing innovative space-derived effects.
    JWS and ORS demonstrations will continue to explore ways of 
achieving new, more effective ways of providing space capabilities to 
the Joint warfighter. As technologies mature, JWS will bring the Joint 
Force more persistent, responsive and dedicated capabilities.
            Long Range Strike
    To further refine its rapid strike capabilities, the Air Force is 
transitioning its Long-Range Strike strategy to focus on effects 
instead of platforms. We view long-range strike as the capability to 
achieve desired effects rapidly and persistently on any target set in 
any operational environment.
    Our forces must be simultaneously responsive to multiple Combatant 
Commanders and be able to strike any point on the planet. Today, we 
provide deep strike capabilities through a variety of platforms and 
weapons. Future capabilities must continue to enhance the effectiveness 
of the system. Responsive capabilities will combine speed, stealth and 
payload to strike hardened, deeply buried, or mobile targets, deep in 
enemy territory, in adverse weather and with survivable persistence.
            Improving CAS
    Detailed integration of each air mission with the fire and movement 
of supported Joint Forces is the trademark of CAS. In the past, 
aircrews and ground forces shared information through lengthy voice 
descriptions. When providing CAS or time-critical-targeting, this 
dialogue often took several minutes and occasionally resulted in missed 
opportunities. To increase integration and lethality, the Air Force has 
developed new equipment and training to increase situational awareness 
in CAS operations. We also continue to sustain and modernize the A-10, 
the only Air Force aircraft dedicated to the CAS mission.
    With video downlinks, Battlefield Airmen can share time-sensitive 
information instantaneously and complete target coordination in mere 
seconds. Most JTACs are already equipped with ROVER III receivers to 
display video feeds from most UAVs and ATPs.
    In 2006, the Air Force will begin operational fielding of the 
Precision Engagement modification that integrates ATPs and data links 
and enhances employment of GPS-aided munitions. This modification will 
greatly enhance the pilot's situational awareness and improve both the 
responsiveness and accuracy of A-10 targeting. This will increase the 
A-10's lethality while reducing the probability of fratricide 
incidents. The Air Force will also improve the sustainability of its A-
10s by continuing a SLEP that doubles the flight hour life of the A-10, 
helping to ensure the A-10 can remain in service for as long as the 
warfighter requires.
    In 2006, the A-10 Propulsion Upgrade Program will enter the system 
design and demonstration phase. This program will upgrade the A-10's 
current TF34-100A engines to provide approximately 30 percent more 
thrust. This will help overcome some limitations that the A-10 faces 
when operating from expeditionary airfields at high field elevations 
and temperatures. It will also improve the A-10 performance at medium 
altitudes and increase its weapon load, thus improving survivability 
and more fully leveraging the capabilities of the Precision Engagement 
modification and ATPs.
            Special Operations Forces (SOF)
    Air Force Special Operations Command (AFSOC) offers Combatant 
Commanders specialized airpower and ground forces to conduct and 
support special operations and personnel recovery missions. These 
forces offer a unique combination of capabilities and personnel that 
the United States can call upon for the GWOT, Homeland Defense and 
disaster response missions.
    To meet operational requirements, we will add four AC-130U Gunships 
to the force structure in 2006, followed by ten MC-130H Combat Talon 
IIs by 2010. The first CV-22 Osprey combat unit anticipates IOC in 
2009. The Osprey will add a long-range, self-deployable, vertical lift 
mobility aircraft to sustain SOF in remote environments.
    We will support expanding our SOF Combat Aviation Advisory forces 
so they can assess, train, advise, assist and integrate more nations' 
Air Forces into the GWOT and other combined operations and 
contingencies. We have begun the CSAR-X program in an effort to provide 
a fast, long-range, all-weather aircraft to achieve IOC in 2010 and 
replace the HH-60 CSAR aircraft.
    The Air Force is also developing the Persistent Surface Attack 
System of Systems as the follow-on to the current AC-130 Gunship. This 
gunship follow-on will provide responsive, survivable, persistent and 
precise fire support in the low-threat to selected high-threat 
engagements in the 2015 timeframe.
            BRAC
    BRAC 2005 will transform the Air Force for the next 20 years to 
meet new challenges as a Total Force. The BRAC results improve Air 
Force warfighting effectiveness, realign Cold War era infrastructure to 
meet future defense strategy, maximize operational capability by 
eliminating excess physical infrastructure, and capitalize on 
opportunities for Joint teaming with our sister Services. We will 
continue the excellent record established in prior BRAC rounds by 
closing bases as quickly as possible so savings are realized and 
properties expeditiously turned over for viable reuse, in concert with 
community plans for development and economic revitalization.

                      SUMMARY--HERITAGE TO HORIZON

    We have received a proud heritage forged through the ingenuity, 
courage and strength of the Airmen who preceded us. Our duty today is 
to deliver their Air Force to the limitless horizon ahead of us. The 
mission of the Air Force remains to fly, fight and win whether we are 
delivering lethal effects against insurgents in Iraq, protecting the 
skies of the United States against terrorist attacks, providing a 
Global Positioning System that is essential to our modern military and 
the global economy, or providing relief to victims of natural disasters 
both at home and abroad.
    The Air Force of today and of the future will strengthen the entire 
Joint and Coalition team. Dominance of air, space and cyberspace paves 
the way to overall success. In keeping with the current emphasis on 
innovation and transformation, our future Air Force will be a more 
capable yet smaller force. As such, the future Air Force will increase 
the capability and flexibility of the Joint Force and, subsequently, 
will increase the depth and breadth of options available to the 
President and the Secretary of Defense. These military options will be 
crucial to the defense of the Nation as the United States continues to 
wage the GWOT while transforming and strengthening the Joint Force for 
any future contingency.
    The Air Force offers an unparalleled set of combat capabilities to 
directly influence any Joint, Coalition or interagency operation, as 
well as the enabling capabilities to improve Joint warfighting in 
conjunction with our partners on the ground, on or under the sea and 
through the air, space and cyberspace. Recognizing that no Service, or 
even DOD, can achieve success by itself, the Air Force has focused on 
increasing the integration and effectiveness of the Joint Force and 
interagency team.
    To achieve new levels of integration and effectiveness, the Air 
Force will take advantage of our Nation's long-held command of the 
global commons--air, space, sea and cyberspace. The Air Force will 
extend its current air and space power advantage. As part of the Joint 
Force, the Air Force is positioned to leverage its persistent C4ISR, 
global mobility and rapid strike capabilities to help win the GWOT, 
strengthen Joint warfighting capabilities and transform the Joint 
Force--while maintaining good stewardship of public resources.
    The Air Force faces the broadest set of mission requirements across 
the entire spectrum of warfare. We will bolster our Nation's ability to 
respond swiftly, flexibly and decisively to asymmetric, irregular and 
emerging threats. We have embarked on AFSO21 as a means to best 
allocate our resources to meet this increasing set of challenges.
    To accomplish this requires continued focused investment in our 
people, science and technology and the maintenance, sustainment, 
modernization and recapitalization, and, where it makes sense, 
retirement of our aging aircraft and weapon systems.
    We are America's Airmen. Our heritage is innovation. Our culture is 
Expeditionary. Our attitude is Joint. Our mission is clear. As threats 
change and America's interests evolve, we will continue to adapt, 
evolve and remain the world's premier air and space force. Together 
with our fellow Services, we stand resolute, committed to defending the 
United States and defeating our enemies.

    Senator Stevens. General Moseley, do you have a statement?
    General Moseley. Mr. Chairman, thank you, sir. If you would 
allow me to put my statement in the record, I would like to 
take my time and introduce four American heroes and great 
airmen to you, sir, and the distinguished members of the 
subcommittee.
    When I call their name, if they would please stand up.
    Let me start with Senior Airman Polly-Jan Bobseine. She's 
had three deployments to Iraq so far. She's due to rotate back 
in June. Senator Burns, this is one of these airmen that are on 
the ground in close combat alongside our joint partners, the 
Coast Guard, Navy, Marines, and Army. She's a fire team member 
with the 820th Security Forces Group. She's participated in 
numerous offensive operations and offensive ground operations 
in Iraq, to include 100 combat patrols and 45 offensive 
missions. She's participated in 30 ambushes and five direct 
action missions against Iraqi insurgents herself. She's earned 
U.S. Jump Wings and the Army's Big Red One has given her a 
combat patch for sustained combat operations alongside the 1st 
Infantry Division. Again, she's going back in June.
    Our second American hero is Technical Sergeant Brad Reilly. 
He goes back in July. He's had four deployments. He's wearing a 
Silver Star and a Purple Heart that he earned while assigned to 
forces in Afghanistan. This particular mission, he was part of 
a quick-reaction force that was moving to reinforce an ambushed 
Afghan security force. Upon their arrival, the helicopter 
received heavy fire. His detachment, upon landing, overran the 
enemy position and then began to receive hostile fire from 
three different directions. Technical Sergeant Reilly was 
wounded in this action, as was another member of his team, 
Master Sergeant Cooper, who was critically wounded in the upper 
thigh. Technical Sergeant Reilly provided life-saving skills to 
save Master Sergeant Cooper's life, controlled close air 
support fires, provided continual suppressive fire himself with 
close combat against Afghan hostiles for over 2 hours, while 
wounded. Sir, again, he goes back in July. This will be his 
fifth deployment when he goes back.
    Lieutenant Colonel Ann Konnath, she is an expert in Air 
Force space operations. She commands our Weapons School 
squadron at Nellis Air Force Base. She is the expert teaching 
experts about space operations. She is a distinguished Reserve 
Officer Training Corps (ROTC) graduate. She's a graduate of the 
Air Force Weapons School. She is an expert orbital analyst with 
operations in Cheyenne Mountain. She has, herself, operated 
several space control systems. She's been a space weapons 
officer both at 8th Air Force in the Operations Center and in 
U.S. Pacific Command, alongside our other joint partners. She 
is the expert in doing this business of space operations.
    Finally, Lieutenant Colonel Trey Turner. He's had three 
combat deployments. He commands the 17th Reconnaissance 
Squadron, which is our--one of our Unmanned Aerial Vehicle 
Squadrons. And, Mr. Chairman, I think you had a chance to visit 
with them last week out at Nellis Air Force Base. He was a 
naval officer in a previous life, Top Gun graduate of the Navy 
Weapons School in 1992, and an interservice transfer to the Air 
Force in 2003. He's a command pilot with over 4,000 hours in 
the Predator, the F-18, the F-14, the A-4, and has 376 carrier 
landings. He's been deployed to Iraq and Afghanistan three 
times. And he is involved in our reachback operations, flying 
combat missions now out of Indian Springs and out of Nellis, 
over Afghanistan and Iraq. He is the leading expert in unmanned 
aerial vehicle (UAV) combat operations in the U.S. Central 
Command Area of Operations. Last night, he delivered ordnance 
against hostiles in Afghanistan.
    Mr. Chairman, thank you for the time and for allowing me to 
be a proud chief and bring four great Americans and four great 
airmen before this subcommittee, and allowing me to introduce 
them to you.
    Senator Stevens. Well, thank you very much, General. I 
really did enjoy the visit to Nellis. I wish the whole 
subcommittee had been along, because this--the unfolding of the 
manpower and timing requirements of unmanned aircraft, and how 
they're being utilized in combat--in a 24 hour/7 day/365 days a 
year basis is--really, a very interesting scenario to learn 
about and to witness. So, I thank you very much for the visit 
there. And we're delighted to have these young heroes join us 
here today. There's no question about that.
    General Moseley. Thank you, sir. You can see why I'm a 
proud chief, with folks like this in America's Air Force.
    Senator Stevens. They are the coming greatest generation, 
no question about it.
    We have been considering--now if there's no objection, 
we'll go on a 7-minute basis for questions now. I assume there 
will be other members to join us here. We are in session, 
gentlemen, and the problem is, we expect votes within about 40 
minutes.
    We've been told there's an Air Force structure change 
that'll change command relationships. The net result would be 
to eliminate the three-star commands in the various areas now. 
Is this a definite plan now, Mr. Secretary? Is it underway?
    Mr. Wynne. What I would say, sir, is that we are intending 
to reduce our force by about 40,000 people--full-time 
equivalents--over the next 6 years, fiscal year 2006 to fiscal 
year 2011. As a part of that, General Moseley has determined 
that the Active Air Force should not only lead from, but should 
lead from the top, and has determined that he can excise 
approximately 30 general officer slots, of which some of those 
are, in fact, three star slots. We are actually organizing more 
around warfighting headquarters to support combatant commanders 
and relieving ourselves of some of the administrative 
headquarters that these slots would occupy.
    We think that this will actually streamline the Air Force 
from top to bottom. And I have congratulated him on this 
action, because it would make sure that we do not have, if you 
will, all of the 40,000 coming from the bottom of the pyramid, 
but from along the sides of the pyramid.
    Senator Stevens. Well, let me tell you a little history, 
and then--I'll probably take too much of my time right now, 
but--when I was a very young Senator, the Senator in charge of 
this subcommittee, Senator Stennis, and I had some 
conversations with the then-President, President Nixon. 
President Nixon decided to eliminate some of the command 
structures. And one of them was the Alaska Command. I was 
visited by a whole series of former--retired officers, former 
chiefs, who said, you know, ``You must remember World War II.'' 
When World War II happened, there was only a one-star general 
in the whole of Alaska, and people came up--had never served in 
Alaska, and there were a few snafus, because the people didn't 
understand the distance or the climate or the terrain, the 
whole problem. So, we negotiated an agreement with the 
President that the Alaska Command would be disestablished, but 
there would always be a three star in that area who would be in 
charge of the task force. There was presidential order 
somewhere that says immediately upon such an emergency, there 
is reestablished a task force for Alaska, and that person is in 
charge.
    Now, that three star has been there since that time. If I 
understand what you're doing, you're going to take it away, and 
take the one away from Hawaii, too. If that happens, you're 
going to have war up here.
    Mr. Wynne. I would only ask for General Moseley's sage 
words on that, because I've left the organization of the 
combatant commands to his wisdom.
    Senator Stevens. General Moseley.
    General Moseley. Senator, there is no intent in this to 
take down 11th Air Force of the lieutenant general in Alaska or 
the lieutenant general on the peninsula. And we've stood up a 
warfighting headquarters in Hawaii, with a lieutenant general 
there, to be the combined force air component commander for 
U.S. Pacific Command. So, we'll have three numbered Air Force 
equivalents and three lieutenant generals to fight those 
fights. And the Alaska commander, as you know, is also the 
North American Air Defense guy.
    Senator Stevens. Right.
    General Moseley. He is triple hatted as Alaska Command 
under U.S. Pacific Command, and in his North American Air 
Defense hat, under Admiral Tim Keating, at U.S. Northern 
Command. And he's the 11th Air Force commander. So, he is that 
task force commander that you are talking about.
    Senator Stevens. That will not be changed, will it?
    General Moseley. No, sir.
    Senator Stevens. Well, I thank you for that.
    It now appears that--and we discussed this, before--the F-
22 is to be incrementally funded. I think the subcommittee here 
should understand, that is financing in increments rather than 
on a total basis. Now, in general, the subcommittees have 
opposed incremental funding for long-term procurement programs 
such as fighters, bombers, ships. And it is--the changes, I 
think, require an explanation on the record. I've got to tell 
the subcommittee, I don't oppose the proposal, but I think it's 
going to be hard to sell. So I'd like you to explain it to the 
subcommittee, if you would.
    Mr. Wynne. Yes, sir. Thank you for that opportunity.
    We successfully, if you will, negotiated with the Office of 
the Secretary of Defense under the theme that we needed to make 
sure that we had a hot fighter line as an option for the 
President until we got--especially for a fifth generation 
fighter--until we got another fifth generation forward fighter. 
The F-22 is that fifth generation fighter. It was started in 
the 1980s and finalized as a quest of stealth, speed, and 
precision, all wrapped up in one airplane. The successor 
airplane, the next fifth generation fighter airplane is the F-
35, which is currently under development. We felt that the 2-
year extension to the program would, in fact, benefit America, 
giving us that option to make sure we had a hot fighter line.
    This came wrapped in a package that decreased the quantity 
that we had asked for, from 27 airplanes to 20, each year, but 
it did extend the program by 2 years. It did add four airplanes 
to it. But it came wrapped, also, in a package of funding that, 
in fact, bought piece parts in the first advanced procurement, 
and then subsystems in the second advanced procurement, which 
to, I think, budgeting purists, looks a lot like incremental 
funding. It can be wrapped in several packages, but it 
certainly is peculiar, relative to the program.
    The program is mature enough to do a multiyear. We 
absolutely need to have a multiyear in order to cope with the 
increased costs due to the lower volume. The question, to my 
basis, is whether or not we have hedged it full enough, if you 
will, to allow the F-35 to truly mature.
    This leads me to a dilemma, the dilemma that you, the 
subcommittee here, can help me resolve. One is, I either need a 
waiver for the program against this relatively peculiar 
approach to funding the aircraft, so that when I get--and I 
want to add, if you will, another year, if that is deemed 
prudent--I don't have, essentially, a double obligation in an 
out-year, in fiscal year 2010. Either that, or I humbly ask the 
subcommittee to work with us to fix, if you will, the fiscal 
year 2007 submittal, so we can offset what is now a shortfall 
in funding and represented by the zero that you see in fiscal 
year 2007, which essentially defers, on a one-time basis, the 
obligation flow.
    So, those are the two alternatives that I would ask you to 
help me with.
    Senator Stevens. Well, that will be a difficult thing to 
resolve. And I think we're going to have to have a subcommittee 
session on that so our members will understand it.
    I would prefer the latter result, but I'm not sure we can 
do it, budgetwise. If we can't, then I think we'll have to do 
it in the basic bill, in the law, set forth a waiver so it's 
not--that cannot be changed in the future without congressional 
approval. It can't be just a 1-year waiver, in other words; it 
has to be a long-term waiver to be effective, as I understand 
it. Is that correct?
    Mr. Wynne. Yes, sir, that is correct.
    Senator Stevens. Thank you.
    Senator Burns.
    Senator Burns. My questions this morning are more along the 
line of deterrence and strategic posture. And the QDR has 
changed the focus of our strategy toward these irregular 
threats that were mentioned in your report. These are the same 
threats that caused us to rethink our nuclear posture in 2002. 
The Nuclear Posture Review (NPR) was released in the wake of 9/
11, when our forces were engaged on the ground in Afghanistan. 
The irregular threats that we faced in the war on terror had 
become very real for the American people during the winter of 
2001 and 2002, and perhaps many have already forgotten how real 
those threats are.
    In face of the changing reality, the Nuclear Posture Review 
was a complete change in strategic doctrine. And, I might add, 
the NPR was a policy document that was mandated by Congress. We 
told you to do it. That policy document did two major things. 
It reduced the number of operationally deployed nuclear 
warheads from 6,000 to 2,000, it expanded the role of nuclear 
deterrent to consider it an effective countermeasure against 
possible use of weapons of mass destruction by a rogue state.
    Now, the NPR both expanded the role of nuclear deterrence 
and decreased the number of warheads, setting the 
intercontinental ballistic missile (ICBM) number at 500. I 
would ask--you might remark to this--what has changed since 
2000--since January 2002 to necessitate a further reduction in 
our ICBM force? And am I correct in concluding that this simply 
is a budget decision that is driving this strategy?
    Mr. Wynne. Thank you very much, Senator.
    This goes back to the ``sovereign options'' comment that 
you had made in the mission of the Air Force.
    Senator Burns. I'm still trying to figure that one out.
    Mr. Wynne. The aim is to hold hostage other governments' 
intentions and to allow for humanitarian relief and nonkinetic 
action, as well as kinetic action. It's to make sure that the 
President is made aware, fully, through our information and 
surveillance and reconnaissance activity, of his options, and 
then allowing the National Command Authority to use the Air 
Force to fly and fight, if that is, in fact, the determined 
option they want to examine.
    This is also an option that the President has, in the sense 
of responding in a nuclear fashion and talking about the 
Nuclear Posture Review that we're all discussing about here. 
The U.S. Strategic Command commander, which is based in 
Nebraska, has made a determination that he can have a lower 
reduced target set for hostile response. That is a requirement 
that he then lays upon the U.S. Air Force as to how to cope 
with this reduced response. We have done an analysis and 
determined that we can accommodate that with, if you will, 
fewer ballistic missiles, and, frankly, fewer B-52 aircraft. He 
is endorsing this approach.
    As to whether or not it changes the actual determination of 
the number of nuclear warheads, has not been adjudicated; as to 
where the reduction in missiles will be taken, has not been 
adjudicated. Those things are, in fact, all under study. So 
far, the only thing I know is that the requirements we have 
been issued have been reduced.
    Senator Burns. Well, let's further investigate the B-52 
situation. As you know, we're taking another reduction, from 94 
to 56. I think that's the correct number. And that's the only 
long-distance horse that we've got. And when I made mention, a 
while ago, of our support of the ground troops on the ground, 
it has always been our carrier to reduce some of the challenges 
that we face on the ground. It's always been a very--very 
effective, with the addition of the global positioning system 
(GPS). And, also, it's been, sort of, our Iowa-class 
battleship, so to speak, whenever we go into an area.
    Now, that being said, if there is no long-range strike 
capability on the drawing board until 2016, why would we cut 
the most versatile long-range bomber from our fleet now, 
without anything on the drawing board, now, or, it seems like, 
in the near future?
    Mr. Wynne. In fact, we are very, very pleased that the QDR 
has endorsed, if you will, the long-range strike option and 
allowed us to proceed. We intend to come forward, in the fiscal 
year 2008 President's budget, with a hard plan to essentially 
offer a fly-before-buy option, so that we can, in fact, lock in 
a 2018 initial operational capability and try to make sure that 
is accurate.
    While looking at those requirements that we need, I 
appreciate the fact that the B-52 has been a very versatile 
weapons system--in fact, when I was out to look at it, I looked 
into the airplane and asked the commander, ``Is this the way it 
goes into combat?'' He said, ``No sir.'' He said, ``We''--as 
you correctly said--``We add a GPS antennae, we add a ground 
communications antennae, we add two laptops and a central cable 
right down the middle of the airplane, and turn it into a 
fairly versatile war machine.'' Having examined that, we think 
that we have an adequate supply of B-52s, with the reduced 
number. I think we're talking about reducing 38 of these over 
the course of the next 6 years.
    This is also, by the way, adjuncted by the B-1 and 
adjuncted by the B-2, which are also more modern weapons 
systems that we have. We feel like that we can go through the 
B-52 fleet and essentially pick out the best of the rest and 
use those well into the future. There's no intention to 
essentially stop using them.
    General Moseley. Sir, if I could add on, the B-1 is also 
the Iowa-class battleship. They're imperceptive in our 
employment difference. We operate them out of Diego Garcia. 
We've operated them--each of them out of expeditionary 
airfields. The B-52 is a valuable airplane. Last night, we 
dropped eight satellite-guided weapons off of it against 
hostiles in Afghanistan. But it could have been a B-1, 
depending on the rotation of the bombers at Diego Garcia.
    We've got, over the future years defense plan (FYDP), we've 
got $6.37 billion in bomber modifications and bomber 
improvements. We have a phase I, which we put about $4.5 
billion into the B-1, the B-2, and the B-52 for upgrades and 
modernization. We have about $1.6 billion in for the new 
bomber, with a 2018 initial operating capability (IOC), as 
mandated by the QDR. And then, we have a phase III, with about 
$275,000, that's looking at technologies beyond 2025 or 2035.
    Senator Burns, we take long-range strike very serious. The 
soul of an air force is range and payload and ability to access 
targets on a global scale. That's what we do different than an 
army or a navy. And so, a bomber is a very important tool in a 
combatant commander or a President's quiver, relative to those 
sovereign options.
    We have to be able to penetrate airspace. We have to be 
able to survive the penetrated airspace and maintain 
persistence coverage. And so, our desire to field a new 
striking bomber by 2018 is to leverage on the existing 
technologies that we have out of the joint unmanned combat air 
systems (JUCAS) program, and out of the things that we've 
learned with the unmanned aerial vehicles and the things we've 
learned in 15 years of combat, to be able to look at this new 
bomber.

                          BOMBER MODERNIZATION

    But, sir, we've got $1.13 billion in the B-52 for upgrade, 
$1.3 billion in the B-1 for upgrade, and $2.05 billion in the 
B-2 for upgrade, just in the future years defense plan alone.
    Senator Burns. Well, I would--just looking at--just looking 
at our threats and what we have to--and the capability of 
meeting some of those challenges, I look at the B-52 with great 
marvel and curiosity. One could say, about your fleet, you look 
at that airplane and says, ``They just don't make them like 
that anymore,'' because it has been a workhorse, and it 
continues to be a workhorse, and probably has outlived 
anybody's estimate of its longevity. So, I'm just sort of 
concerned along those areas.
    I've got a couple of other questions, Mr. Chairman. We've 
added more people to the subcommittee, and I know they have 
important questions. I've got a couple more. But thank you very 
much.
    Senator Stevens. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary and General. And I want to thank 
you, General, for bringing your stellar people here, and 
introducing them. And I can't resist saying, I was delighted to 
see two women as part of four people acknowledged for very 
special service to our country, and surprised one is so very 
young. But----
    General Moseley. Senator, that very young one has had 
multiple combat tours.
    Senator Feinstein. That's what I understand. Is this her 
fifth deployment?
    General Moseley. It will be----
    Sergeant Bobseine. It will be my fourth.
    General Moseley It will be her fourth. She's had three.
    Senator Feinstein. Fourth----
    General Moseley. She goes back in June.
    Senator Feinstein. That's amazing. Would it embarrass you 
if I asked how old you are?
    Sergeant Bobseine. I just turned 21, ma'am.
    Senator Feinstein. You just turned?
    Sergeant Bobseine. Twenty-one.
    Senator Feinstein. Twenty-one, oh. Well, now that you've 
finally reached maturity, let me----
    Senator Stevens. Why don't you ask her how she can carry 
that pack? Have you seen that pack they take with them, when 
they go out in those combat activities?
    Senator Feinstein. No.
    Senator Stevens. Tell her. Tell her how heavy your pack is.
    Sergeant Bobseine. It's about 90 pounds, ma'am, when it's 
fully loaded.
    Senator Feinstein. How long can you carry it before you get 
tired?
    Sergeant Bobseine. It depends, ma'am. As long as I have to.
    Senator Feinstein. Yeah, I guess you do pretty well.
    As long as you have to. Okay. All right.
    I wanted to, if I can, ask my questions on the C-17, 
General. Obviously, the C-17 is a very important program for 
California. It employs 6,500 people in Long Beach. It's got 400 
suppliers. It's a $3.7 billion asset to the State. But you have 
termed it a ``Golden Plane.'' And it certainly has provided its 
service in many different ways.
    It's my understanding that the Air Force requests funding 
for both advanced procurement of additional C-17s, along with 
money for shutting down the line in 2008. However, recently, 
it's my understanding, the position has changed slightly, 
requesting funding for seven additional C-17s as part of your 
number one priority on the unfunded list. Now, this request has 
had an impact on the high rate of attribution, as it continues 
to fly, I gather, 70 percent of the missions in anticipated use 
in both Iraq and Afghanistan. Some Air Force officials have 
suggested publicly that there might be a need to procure up to 
20 additional C-17s.
    I'd like to receive your very candid assessment of the 
capabilities of the C-17, and the Secretary's, as well, along 
with an explanation of why you chose to make the procurement of 
seven additional C-17s your top priority on the unfunded list.
    General Moseley. Senator, thank you for the opportunity to 
talk about the C-17.
    It is worth its weight in gold. It's a great design, and 
it's proven itself useful as an intertheater airlifter, as well 
as an intratheater airlifter. We've been able to use this 
airplane in areas that we've never used a strategic airlifter 
before, because it is reliable, and it is very capable to get 
in and out of shorter airfields. In fact, we were able to fly 
it directly from Charleston Air Force Base, North Carolina and 
McChord Air Force Base, Washington, to places in the United 
States and Europe, or fly it straight into Baghdad or straight 
into Balad or straight into Bagram in Afghanistan, without 
having to stop somewhere and transfer the cargo or the people 
to a smaller airplane. So, its been worth its weight in gold. 
And we have been flying it in rates in excess of what we 
programmed.
    The good news about this airplane is, we have the airplane 
instrumented, so we understand where the stresses are on the 
wings, in the fuselage, and on the structure. And as we look at 
that analysis, we see that we are stressing the airplane with 
multiple takeoffs and landings, and multiple operations in 
these shorter fields.
    Now, we have, out of the mobility capability study, 112 C-
5s that is the bookend of the strategic airlifters. And, as the 
Secretary mentioned, we have congressional language that 
precludes retirement of the C-5A's. So, we have 112 C-5's. Out 
of the mobility capability study, the program of record of 180 
C-17s matched with 112 C-5s gives us sufficient airlift.
    But, ma'am, remember, in the mobility capability study, it 
also addresses even rail shipment, fast sealift, sealift pre-
positioning ships, wartime reserve material pre-positioning. 
So, it's a bigger picture than just airlift.
    So, 180 is the program of record. But now that we have the 
ability to look at the data, we see that we are burning the 
airplanes up at a higher rate. So, our analysis tells us that 
the seven that we asked for in the unfunded priority list, 
along with the combat losses in the C-130 and our center wing-
box issues with C-130s, will be sufficient.
    Now, we also have partnered with the Australians, and we 
understand that they have asked to buy four C-17s. The British 
are looking at an additional buy. General Jones--and his world 
is U.S. Supreme Allied Commander, Europe (SACEUR), and North 
Atlantic Treaty Organization (NATO)--have expressed in 
additional C-17s. The world, I think, understands how valuable 
this airplane really is.
    Mr. Wynne. I can add to that, Senator, that, on page 1 
yesterday in the USA Today, you saw another illustration of the 
utility of the C-17, which was essentially a flying intensive 
care unit (ICU), made up for the medical evacuation of our 
soldiers and airmen and marines out of Balad into Landstuhl, 
Germany. This is a scheduled run using the versatility of this 
airplane. And we recognize that it is essentially being used at 
a little higher rate than we had anticipated it would be used 
at all in this war effort to support, as Senator Burns said, 
the ground warfare.
    The miracle of Iraq is actually in medical evacuation, and 
the fact that we can get people from the front lines into Balad 
and into Landstuhl and then back to Walter Reed Army Medical 
Center in very short order. And that is saving lives in a 
dramatic way.
    The C-17 is the workhorse of this engagement, without a 
doubt. The C-130 also works very hard during this time. Our 
assets are essentially wearing out, and we would like to make 
sure we have enough in reserve, if you will, to recapitalize.
    I would tell you that the next tanker is actually more 
valuable than the next C-17, because while the soul of the Air 
Force is, in fact, delivering power at long range, long-range 
strike, our expeditionary and agility forces require tanker 
operations, without a doubt.
    That having been said, we see that right now, because of 
the wear that they're getting--to get an equivalent of 180 
units, we may have to buy up to an additional 7 units to 
essentially meet the capacity requirements laid down in the 
mobility capability study. You asked, why did it show up as our 
number one unfunded priority? And that was the reason it showed 
up as our number one unfunded priority. We just see that wear 
and tear on this fleet, meeting the capacity requirements of 
the Mobility Capability Study would actually require up to 
seven additional airplanes.
    The addition to the international sales, I think, is very 
fulfilling. It almost ratifies, if you will, our look at the C-
17 as an excellent airplane. Were NATO and the United Kingdom 
and Australia to buy this airplane, it would further relieve us 
of some of the missions we, in fact, are accomplishing today.
    General Moseley. Ma'am, two other----
    Senator Feinstein. Yes, General?
    General Moseley. Two other bits for you. When I was blessed 
to be the U.S. Central Command air component commander for 
Afghanistan and Iraq, we used the C-17 to make the largest 
humanitarian airdrop in the history of combat aviation. Those 
early drops were made to Afghanistan and flown out of Germany.
    We also used the C-17 for the largest airdrop of soldiers 
since the Korean War carrying the 173d to northern Iraq. So, 
the airplane is not only the finest flying hospital, it is also 
the finest deliverer of humanitarian assistance, as well as 
paratroopers. And you can fly it in and out of small airfields. 
So, that's how I've assessed this as being worth its weight in 
gold.
    Senator Feinstein. I thank you both for that.
    I'd like to just add one other thing. Some of us have 
really fought the reopening of the nuclear door, and the 
development of new nuclear weapons, for a number of reasons I 
won't go into here. So far, we have won. We won on the low-
yield nuclear weapons. We won on the robust nuclear earth 
penetrator. The fiscal year 2006 authorized $4 million to 
conduct sled tests and to better understand the physics of 
penetrating geologic media. The 2006 appropriations conference 
report provided $4 million for this. And I've been in 
communication with the Secretary of Energy. I want to just read 
his response to a letter I wrote. His--well, the response came 
from Linton Brooks----
    Senator Stevens. Senator, could we make it a little short, 
please----
    Senator Feinstein. Yeah, I'll make it as----
    Senator Stevens [continuing]. If you will?
    Senator Feinstein [continuing]. Short as I can, Mr. 
Chairman.
    Senator Stevens. Well, the time has expired.
    Senator Feinstein. Could I just----
    Senator Stevens. Yes.
    Senator Feinstein [continuing]. Finish?--saying that no 
sled test would be conducted at Sandia or any other facility. 
He says that if the Department of Defense (DOD) chose to 
conduct a test at a DOD facility, he believed that would be 
fully consistent.
    My question was going to be, what kind of sled tests can 
you inform the subcommittee are being conducted, and what 
guarantee is there that this will not be a nuclear subterfuge?
    Mr. Wynne. I guess, very quickly, we need the statistics 
and the physics just to make sure that we, in fact, have the 
right kind of arguments for the use of conventional warheads at 
that kind of speed. We really don't even know whether or not 
any projectile will penetrate at those kinds of velocities. It 
may actually always become a surface issue. So, this is really 
about determination of physics. But I think the agreement is 
actually that the concept of the robust nuclear Earth 
penetrator (RNEP) is not at issue any longer. We're talking 
about just penetrators and penetrator tests.
    Senator Feinstein. Thank you, Mr. Secretary.
    Senator Stevens. Thank you, Senator.
    Senator Feinstein. I appreciate it. Thank you.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary, General Moseley, I want to get into the area 
of fleet--a fleet of aging refueling tankers, that we're 
experiencing problems and have great challenges. I don't 
believe, Mr. Secretary, that we can wait 35 years to replace 
our tankers. The President's budget, as I understand it, calls 
for retiring 114 KC-135Es in fiscal year 2007 and 2008. 
Clearly, we will not have replacements available, even by the 
end of the fiscal year, 2008, General Moseley. What assurances 
can you give us, if any, that a replacement aircraft will be 
identified and in production before the risk of retiring the 
KC-135s becomes untenable?
    General Moseley. Senator, thanks for that question because 
this is an important issue. And let me echo my boss and say 
that the first tanker is more important to me right now than 
the 181st C-17. Even with the seven that we've included in the 
unfunded priority list, the tanker program is exceptionally 
important to us, because it provides those airlift legs.
    Senator Shelby. Without them, you have no legs, do you?
    General Moseley. Sir, not just us, this is for the joint 
team. The Navy has no legs, the marines operate at much shorter 
distances. But there is no range without the American tanker.
    The 114 KC-135Es that we're talking about, there is still 
congressional language that precludes us from retiring any of 
those airplanes. Our preference would be to retire the KC-
135Es----
    Senator Shelby. Yeah.
    General Moseley [continuing]. The 114 aircraft have crews 
across the total force--Guard, Active, and Reserve. We want to 
bring the KC-135R model crews up, so we can generate sorties 
with the more reliable R model.
    General Handy, before he left U.S. Transportation Command, 
and General Schwartz and General McNabb, out at Scott Air Force 
Base, now believe there's only going to be a 9 percent decrease 
in total offload by retiring the E models sooner and increasing 
the crew ratios on the R models so we can fly those aircraft.
    Senator, the other reality is, we don't deploy the E models 
into the U.S. Central Command Area of Operations. When I was 
the air component commander, I wouldn't take them. They're less 
reliable. You carry less of a load. The engines are such that 
you can't lift the weight. You have to download the fuel on 
them. You're much better off with the----
    Senator Shelby. We've got to retire them, haven't we?
    General Moseley. What's that, sir?
    Senator Shelby. We have to retire them.
    General Moseley. Sir, our proposal would be to retire 
those----
    Senator Shelby. Sure.
    General Moseley. We need to take them off the books, take 
the crews, put them in the R model, and let's get on with the 
new program. And we have all that in play now.
    Senator Shelby. I know you don't have an exact date--if you 
do, you keep it to yourself, which you should--do you have any 
ballpark idea when we would start?--first, you've got to 
identify, you know, the aircraft, and then start procuring the 
aircraft. I know this is down the road, but you've got--you 
think down the road.
    Mr. Secretary.
    Mr. Wynne. We do try to think down the road. Thank you, 
Senator, for that. We hope to get release from the Deputy 
Secretary to start this procurement in the very, very near 
future. I have tried to hold the team, if you will, to a 
September release of a request for proposal, a near-term 
release of a request for information, to turn that information 
into a request for proposal in September, which would lead to a 
mid-year next-year potential award. These are our targets right 
now. They are looking forward. If that happens, then you've 
probably got 24 to 36 months beyond that before you begin to 
receive the tanker fleet.
    Since the basic platform we have seen right now is becoming 
available across the world, we are hopeful that these companies 
can accelerate their deliveries to us.
    Senator Shelby. That would help.
    Mr. Secretary, we hear a lot of stuff, and sometimes you've 
got to throw it away, but we've been hearing that some senior 
leaders in the Air Force are on record stating that the next-
generation tanker we're talking about must do more than just 
air refueling. In other words, it could have multiple--
multipurposes, such as air transportation capability for 
passengers, cargo, aeromedical evacuation, and so forth. Could 
you elaborate on that?
    Mr. Wynne. Yes, sir, I can. Even our current fleet of KC-
135s, in fact, performs medical evacuations from the Pacific, 
because of the legs that we get out of those tanker aircraft. 
We can also carry a limited amount of cargo on KC-10s, because 
they have floors in them, and adequate doors to get things in 
and out of that airplane.
    General Moseley and I are very concerned about people 
piling on excess requirements, driving the cost of this tanker 
up. We are committed----
    Senator Shelby. We certainly don't need that, do we?
    Mr. Wynne. We are committed, throughout our acquisition 
program, to try to get baseline utility, instead of having 
people pile on excess requirements. Modern technology and 
modern manufacturing techniques can, if you will, square the 
circle by giving us something we might not have specifically 
specified. But our desire is to keep things to a minimum; 
hence, the F-22A; hence, in the transformational satellite 
(TSAT), we are trying to keep that to a technically mature 
product; the space-based radar, all of our programs, we are 
committed to taking a very hard line to essentially piling on 
requirements.
    Senator Shelby. Yeah, you don't need to buy something you 
don't need, or foresee that you need, do you?
    Mr. Wynne. Well, I would say that I hate to forego options, 
but, at the same time, I have a very severe cost constraint in 
the future. It is not going away. I think, as Senator Stevens 
has indicated, this is something we're going to have to be very 
careful with in the future.
    Senator Shelby. Thank you.
    General Moseley.
    General Moseley. Senator, let me add on to that, also. In 
the request for information (RFI), when we get that out--and 
hopefully that'll come out soon--it puts everything on the 
table, as far as options for the airplane.
    Senator Shelby. Okay.
    General Moseley. It's a good piece of work, and it opens 
the door for anybody with good ideas.
    At the end of the day, when we build this thing, it has to 
be an A model. We have to be able to get the lowest cost, most 
basic airplane, and get it to the field to address these 
deficiencies that we've got. And, sir, I think you would 
appreciate that we won't be able to buy these airplanes a 
hundred a year. I suspect we'll buy these airplanes at the same 
rate that we bought the other big airplanes, which will be $15 
to $20 billion, which--you take the 417 R models, divide that 
into $15 to $20 billion, and you've come close to a 30-year 
program to buy this airplane out, which means the R model will 
be around that long. So, this has to be an A model. We can 
reduce any turbulence in the system and build the most simple 
airplane and keep the cost down.
    Senator Shelby. But you've got to do it, haven't you?
    Mr. Wynne. Well, sir, we have to do it, absolutely. And 
what I want to do is make sure that we use a Microsoft-like 
model, where we can plug-and-play----
    Senator Shelby. Sure.
    Mr. Wynne [continuing]. Into the future. We hope that our 
contractors are very aware of the impact on modularity.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    General and Mr. Secretary, thank you very much. We--here in 
the Senate and over in the Pentagon, we've got some people 
that, at times, get pretty puffed up and wear starched shirts. 
We all understand that. But I've dealt a lot with both of you, 
and you, I think, do great credit to this country and are 
terrific in the jobs that you hold. I appreciate your work.
    I want to make a couple of comments about the B-52s, 
following on Senator Burns' comments, and then have you respond 
to it. And then I want to ask you about the Happy Hooligans, if 
you----
    First of all, the B-52s, my understanding is that the 
official estimates of the Air Force is, that 21-year-old airman 
behind you will be 55 years old by the time you estimate that 
the B-52s will have no life left. So, think about that, 35 
additional years of life, according to the official estimates 
of the Air Force. She'd be 55 years of age at the time we say 
the Air Force has now flown the B-52s beyond its time.
    Number two, you mentioned that there were precision-guided 
weapons dropped last evening by B-52s. I assume, in 
Afghanistan, there's no antiaircraft batteries, or very few, so 
it was probably not standoff, you could fly into the theater. 
But if it were standoff, a precision-guided weapon dropped on a 
standoff capability, then you would--you used a bomb truck. The 
B-52 is a bomb truck. You could have used a different truck. 
You could have used a B-1, B-2. The B-52, as a bomb truck, is 
one-third the cost of operation of a B-2, and one-half the cost 
of operation of a B-1. When you are desperately short of 
funding--and I don't see the Air Force budget growing the way 
some of the other areas grow--when you're desperately short of 
funding, I wonder about the advisability of going from 93 down 
to 56 of the least expensive bomber we have, especially when we 
are moving more and more towards precision-guided weapons. And 
so, I think we should talk a bit about that.
    My understanding is, General, that there were 42 B-52s 
deployed during the Afghanistan and Iraq War, but it took 80 
airplanes--82 to 84 B-52s, really, to move in and out, in a 
rotational capability, to satisfy that requirement. In the 
future, we couldn't do that. I believe we used 140 B-52s in the 
first gulf war. I think we've now used 80 to--82 to 84 B-52s to 
circle in and out of the second. And we're proposing that we go 
down to 56 B-52s, which is the least-cost operation of a bomber 
fleet, by one-third or one-half. And, once again--I didn't mean 
to single you out, young lady, but, by the time you reach 55, 
they say we can keep using that B-52 all of these years. I 
think it's a bargain for the taxpayers.
    So, let me ask you to respond to that. And then, if you 
can, let me also have just a moment to respond to the B-52s--or 
to the Happy Hooligans, rather.
    General Moseley. Sir, the range that we're operating these 
airplanes, from Diego Garcia to targets in Afghanistan, are the 
same distance--and this gets at Senator Burns' question--it's 
the same distance from Tampa, Florida, to Juneau, Alaska. So, 
our crews are flying the same distances on these missions from 
Florida to Alaska every day, and delivering ordnance. So, 
that's the benefit of the tanker, and that's the benefit of the 
bomber.
    Sir, in the future, in this unknown future, we have to be 
able to operate in opposed airspace, and we have to be able to 
deliver these effects. With the F-22, we can maintain the 
dominance to get the bomber to the target. Some of the worst 
lessons learned in Air Force history were the lessons of 1942 
and 1943, where we lost 30 to 40 to 50 percent of the bomber 
fleets on missions at Schweinfurt and Ploesti and Regensburg, 
et cetera. The bomber has to survive to be able to deliver that 
ordnance. When you have no air defenses, then the truck will 
do. When you have air defenses, you have to beat them down, 
suppress them, so you can get the heavy lifter to the targets. 
And so, that's the dilemma that we face against fifth 
generation surface-to-air missiles and fifth generation 
fighters, which is why the F-22 is important to us.
    But, sir, we used every bomber that we could get once we 
got them in theater. But, sir, remember, we also redeployed 
them back to home station to minimize the time away on the 
people. So, there were a lot of the bombers that we did not 
just park at Thumrait or at places--other expeditionary 
airfields. We rotated the aircraft and the crews out to try to 
maintain some rotation time-away-from-home normalcy for the 
crews.
    Sir, another way to do that would be to have all of the 50-
plus bombers combat-capable with the $1.3 billion spent on all 
of the upgrades, and you could deploy the airplanes, and then 
rotate the crews, instead of the other way around.
    So, sir, if you're asking me, do I love the B-52? I do. 
Have I used it a lot in combat? I have. Have I dropped a lot of 
bombs off of it? I have. Have I shot a lot of cruise missiles 
off of it? I have.
    Senator Dorgan. If you had your druthers, would you like 
more than 56--if you had your druthers and had the money to----
    General Moseley. Sir, I know your attachment to the B-52, 
but, let me say, if I had my druthers, I would build a new 
bomber. I would build new bombers so I could penetrate airspace 
and maintain persistence, and I can deliver this effect, 
whether it's opposed or unopposed airspace. And that's the 
cruncher, and with the money.
    Senator Dorgan. I understand, yeah.
    Let me just quickly--thank you for your answer, General.
    General Moseley. Yes, sir.
    Senator Dorgan. There's obviously room for a lot of 
discussion in that answer. But I appreciate your work on these 
issues.
    Let me ask you about the Happy Hooligans, in Fargo. We're 
now scheduled for unmanned aerial vehicles and some discussion 
about some interim C-130s and the light cargo plan. Can you 
tell me what the approach is for that unit?
    General Moseley. Sir, we're working hard to get the UAV 
presence right. We have North Dakota, New York, California, 
Nevada, Arizona, Texas, and we're working hard to get the 21 
orbits, which is a euphemism for 21 separate customers, to be 
able to deliver the effect, whether it's surveillance or 
whether it's strike. And so, to get the airplanes to North 
Dakota which is our desire, we have to get crews trained and 
operations up and going to conduct combat operations.
    The National Guard Bureau--having talked to Lieutenant 
General Steve Blum a bit, the National Guard Bureau has talked 
to the Adjutant General in North Dakota about four or more C-
130s as an interim bridge until we can get some fidelity on the 
joint cargo aircraft. We've had no opposition to that, for 
sure. I don't know many of the details, other than there's been 
some discussion. And, sir, we're not opposed to that. That's 
not a bad way to go.
    We're working the joint cargo aircraft issue with the Army, 
to determine the number of these aircraft, how best to employ 
them in theater, conduct homeland security and homeland defense 
with them, and upgrade some of these systems.
    An aircraft of that type would have been very useful in the 
early stages of Afghanistan and in the early stages of Iraq. 
And it would be very useful today, to be able to move things in 
and out of those smaller airfields.
    And so, we're focused on that, sir, and we're working that 
with the Army.
    Senator Dorgan. Going back, just briefly, to the bomber 
issue, I understand the 2017 timeframe and so on. I have also 
watched the tanker, the new tanker issue languish. And, you 
know, I don't know when we'll have a new bomber. I understand 
the need for it, but I still think we need to rethink the cost 
of deploying these bombers. And I might say that with--
particularly with standoff precision weapons, these bombers all 
become trucks when you're using standoff precision weapons, 
because they're not part of the battlefield, at that point. But 
I just--I hope we can continue the discussion about B-52s.
    General Moseley. Yes, sir.
    Senator Dorgan. I thank you very much for your stewardship 
of the Air Force, Mr. Secretary and General Moseley.
    General Moseley. Thank you, sir.
    Senator Stevens. Thank you very much, Senator. I think the 
two co-chairmen remember when President Truman tried to stop 
the B-52. It was built during President Truman's day. It's been 
around a long time. We'll have to discuss that.
    Senator Inouye, if you have--your opening statement, space 
in the record has been reserved for you, my friend. You're up.
    Senator Inouye. First, my apologies for being late. We had 
another function.
    Mr. Secretary, General, I'd like to take this opportunity 
to remind some of my colleagues of the great work you've done 
in Enduring Freedom, in Iraqi Freedom, and Noble Eagle. I find 
that the media and my colleagues at times focus too much on the 
land forces, the marines and the Army. There's much 
justification for that, but I'm certain those men and women on 
the ground would be the first to tell all of us that without 
the Air Force, they're really in a fix. And so, I wish to thank 
you and the members of your command, and men and women who have 
done so much for us with all their sacrifices.
    Mr. Chairman, I'd like to have my full statement made part 
of the record.
    Senator Stevens. Yes, sir.
    Senator Inouye. I just have one question, sir. This is on 
your transformation. And I would like to just touch on one 
aspect of transformation. You speak of efficiency and 
consolidating redundant activities. While I think all of us 
support efficiencies, I do not want to be part of a group that 
would send a signal to certain geographic regions suggesting 
that maybe they're not that important. I think it is critical 
that a major command retain the ability to manage its people 
and its resources.
    Now, for example, the Air Force is exploring the alteration 
of chain of command for operational units. And units that are 
currently reporting to Pacific Air Forces (PACAF) would 
communicate directly with the Air Combat Command. Now, that 
would seem to me--I'm not an Air Force general, but it would 
seem to me that you would make a four-star general a 
figurehead. He has the troops, but somebody else has command 
and control over them. So, I would hope that our forces in 
Europe and our forces in the Pacific are provided the 
importance that I think they deserve.
    What are your comments, sir?
    Mr. Wynne. Well, one of the things is that I'm very proud 
to have a partner like General Moseley to work with. And when 
we talked about trying to husband our resources and 
understanding the increasing costs of our personnel, and 
concluded that we would take a 40,000 full-time equivalent 
reduction in our service, he stepped right up and said that the 
active should lead from the front, and the active should lead 
from the top, and has looked into ways to economize on 30 
general officer slots, which really gets at your question, I 
think, in a very direct way.
    That having been said, I have left all of the command 
relationships, if you will, to my partner in his regard to the 
military operation, as I think I should, and I'd like for him 
to take on that question very well.
    General Moseley. Senator Inouye, thank you for the chance 
to answer that, because there are some misunderstandings out 
there.
    Our desire is not for PACAF, for the U.S. Air Forces in 
Europe (USAFE), to become subordinate to Air Combat Command or 
Air Mobility Command or Air Force Space Command or Air Force 
Materiel Command or Air Education and Training Command. They 
are major commands, with representational responsibilities and 
command responsibilities to U.S. Pacific Command and U.S. 
European Command. And we take that very seriously, as a part of 
the joint team.
    What we have looked at, though, is using the numbered air 
forces in the Pacific, 11th in Alaska, 5th in Japan, 7th on the 
Korean peninsula, in the new Kinney Warfighting Center, on 
Hickam Air Force Base, which may or may not become 13th Air 
Force, as the fighting forces for the Pacific, which they have 
historically been, and to look, if there are not management 
oversight things within all of the major commands, the 
functional areas of personnel, civil engineering, 
communications, that we can streamline to look at saving 
management oversight, not command oversight.
    General Paul Hester still has command of Pacific Air 
Forces, and he is responsible to Admiral Fox Fallon as his 
senior airman in theater--same with 11th, 5th, 7th, and what 
may become 13th on Hickam Air Force Base, which is now the 
Kinney Warfighting Headquarters.
    So, sir, we intend, in no way, to break the command 
structure down, and we are looking for efficiencies in those 
functional areas where it makes sense such as personnel 
activities or civil engineering or communications. And I think 
you would want us to look at that to see if there's not some 
inefficiencies there. But there is no intent to have the 
Continental United States major command headquarters having 
anything to do with the command prerogatives or 
responsibilities of Europe and the Pacific.
    Senator Inouye. Well, I thank you very much.
    In closing, I'd just like to reiterate what my chairman has 
said time and again. The two aircrafts that are most important 
at this moment in our history, F-22 and the C-17, take good 
care of them, please.
    The other matter that concerns me is the fact that our 
bomber fleet seems to get smaller and smaller. And I believe 
the time should come when serious consideration should be made 
in developing a new bomber, penetration bomber. I would assume 
that that is in your minds or your planning.
    I thank you, sir.
    General Moseley. Sir, it is in our minds, and out of the 
QDR, we have a date on the wall of 2018 for the initial 
operational capability of a long-range strike platform, which I 
believe is a bomber. And we're working hard to begin to set the 
stage for that acquisition program, and to go through all of 
the right processes to be able to get at something that we 
could field by 2018.
    The bomber is a critical tool. And, sir, I think you would 
agree, the soul of an air force is just that, range and 
payload. And in today's uncertain world, to be able to range 
those targets with that B-52 at those distances, which are from 
Tampa, Florida, to Juneau, Alaska, every day with those crews, 
that's a powerful tool for General John Abizaid and the air 
forces in the Central Command region.
    Senator Inouye. That's a good answer.
    General Moseley. Yes, sir.
    Senator Inouye. Thank you very much.
    Senator Stevens. Senator Domenici, do you have questions?
    Senator Domenici. Do you have somebody else, so that I 
could have a minute?
    Senator Stevens. I have some questions I'd like to ask.
    Senator Domenici. Please do.
    Senator Stevens. Senator Dorgan has talked about the aging 
fleet of bombers. Matter of fact, it's my understanding that 
our total aircraft inventory is the oldest in history now. We 
have--the average age of aircraft is--all aircraft--is 23 
years. Tanker fleet's over 41 years, in average. C-130's 
average is over 25 years. I don't know what the average age of 
the B-52 is. It's got to be 50.
    General Moseley. Forty-four.
    Senator Stevens. Forty-four? And you're now making 
reductions in your end strength. And we understand that. You 
have to capitalize your aircraft. But I think people are 
inclined to look at the number of Air Force personnel that are 
in the war zone. They're not as high as the others, the Army. 
But if you look at the overall activity of the air bridge, the 
maintaining of, you know, the constant air patrol over other 
areas of the world, it's still got enormous demands on your end 
strength. Now, last year, when the Air Force appeared, the Air 
Force was over its end strength. Now it looks like, in terms of 
applying your end-strength reductions, you're going to have an 
imbalance between officers and enlisted men. Is that right?
    General Moseley. Sir, if I could try the context of the 
question, which is, one of the things about our aging fleet 
that I think you and Senator Inouye have highlighted back to us 
on occasion is that if we get everything that we want in our 
future years defense program which is debatable--and, of 
course, we propose, and you dispose--the age of our fleet will 
go from 23 years to almost 25 years. We are right on the 
tipping point of being behind the investment bow wave, instead 
of in front of it. And the U.S. Air Force has never in its life 
stood down an airplane because of age. And we are now on the 
cusp of trying to set up an Air Fleet Viability Board, because 
we now are on the fourth step of our 12-step program, realizing 
we are going to be operating an aging fleet. So, we need to 
understand better how our airplanes age.
    We have to get ahead of this investment curve at some point 
into the future. We cannot keep pushing this bow wave out, and 
every 5 years we lose 5 years of our life, which is why we 
really want to start to invest in our long-range strike 
aircraft and begin to divest ourselves of some of our aging air 
fleet.
    That having been said, we are looking at better ways of 
employing our manpower, and we find ourselves with almost an 
iceberg, where we have a presence very similar to the Navy. We 
must maintain the presence in the Pacific, in the area of North 
Korea, the Korean Peninsula, in Japan, and yet, yes, some of 
the people at Kadena. For example, when I was there, just last 
week, I found that 500 of those folks are, in fact, cross-
deployed into supporting Iraq. So, we are managing our force 
deployment across the world, trying to maintain, if you will, 
both presence and activity within the context of the theater.
    We have a little bit of a problem, because our C-17 pilots 
are, in fact, not in the theater long enough to be recognized 
as combatants, although they get shot at quite a bit, and they 
would, of course, argue about that. Many times, our B-52 
pilots, who do not get based, if you will, into a theater, are, 
in fact, flying out of Diego Garcia or Guam, do not get credit 
for being participants in the war. Nonetheless, we know that 
they have dropped ordnance--in fact, just last night--and yet, 
they are not seen as performing combatant activities. Nor do 
our reachback activities--people flying the Predator out of 
Nellis Air Force Base, or if we do get UAV squadrons 
distributed through the National Guard, we haven't quite come 
culturally to what to call those folks. In a very similar way, 
we do have several people tied down in the missile fields, 
using and guiding our space assets.
    And so, you are right, sir, we have about 179,000 people 
that are right now reporting to combatant commanders.
    Senator Stevens. I have, several times, suggested to this 
administration and past administrations that we have some 
defense bonds. We have to bind some way to finance a follow-on 
bomber, and we have to have some way to get to the Joint Strike 
Fighter. And part of us--I think I speak for my co-chairman--as 
far as our watch is concerned, we don't want to leave without 
knowing that there will be a follow-on bomber, there will be a 
follow-on joint fighter like the Joint Strike Fighter. I don't 
see it right now. We're putting those off. Joint Strike Fighter 
seems to be slipping and any concept of a new bomber is 
slipping. And my friend from North Dakota and I had a little 
discussion about it. I think we've got to stop supporting some 
of these ancient planes and start putting that money into 
getting us into another generation, as far as Joint Strike 
Fighter and the bomber, or we have to go to some defense bonds 
and get the money now--I think the public would buy them--for 
the defense force of the third decade of this century. You 
can't get there without money now. And we can't keep up the old 
ones and ever hope to start getting the replacements that are 
necessary.
    So, I hope we can have a dialogue with the administration 
and with you about finding some way to finance it. It's not 
dissimilar from the other committee that Senator Inouye and I 
serve on, in terms of the airways. We have to have a new airway 
system. We've got an analog system out there, but we're flying 
digital airplanes, and we've got to have a new system. But the 
only way to do it is to find some way to fund it now and have 
that money paid back over a period of years. Same thing here. 
We have to fund these things now. Within this next decade, we 
have to start a follow-on bomber, and we have to be assured 
that the Joint Strike Fighter is coming. But I don't see it 
yet.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    And, General, a pleasure to be with you again. And----
    General Moseley. Yes, sir.
    Senator Domenici [continuing]. Secretary, it's good to see 
you.
    I only have three or four questions. We talk a lot about 
these, you and I and others. We have the two bases in New 
Mexico that have come into focus now, by coincidence--Cannon, 
one located at Clovis--is on your radar screen, because it fell 
upon that base to get a very special denomination in the BRAC 
inclusions when it was set up as a--what was the word used, the 
favored word to describe it, what would it be?
    Mr. Wynne. Well, they asked us to go for a follow-on 
mission, I believe, to try to ensure the continuity of the 
base.
    Senator Domenici. But it was called an ``enclave.''
    Mr. Wynne. An enclave, I think is the unique term of art. 
Yes, sir.
    Senator Domenici. And it remains an enclave for a 
substantial period of time, by definition of the BRAC 
Commission. It's now in--only had that status for months, but 
it can remain that way for years. It has been everybody's 
desire that that not remain an enclave for a long time--is that 
correct?--that it be done--the enclave be determined----
    Mr. Wynne. I think it's a little bit unfair to leave a 
community on edge.
    Senator Domenici. Correct.
    Mr. Wynne. I want to resolve this within the context of 
this year, if it's possible. I have kind of set targets out 
there for a June or July resolution.
    Senator Domenici. Now, much has been going on, by way of 
background determinations, following certain practices and 
procedures, to make sure everybody knows what's going on. And--
--
    Mr. Wynne. Yes, sir.
    Senator Domenici. And just recently----
    Mr. Wynne [continuing]. We have worked very hard with the 
local community.
    Senator Domenici. Correct.
    Mr. Wynne. We are working other agencies to try to identify 
the maximum number of opportunities for that base.
    Senator Domenici. And, in the meantime, things are in a 
status quo.
    Mr. Wynne. Yes, sir. In the meantime, things are in a 
status quo. We hope to bring this to a resolution by mid-year.
    Senator Domenici. For which we are very grateful to all 
concerned, including Congress for putting it in that status 
following the BRAC determination. Now, as you know, just 
recently there has been a workshop regarding Cannon to provide 
Federal agencies with opportunities to consider potential uses. 
Can either of you, or both of you, describe, in whatever way is 
appropriate, how the workshops went? And can you update us on 
the Department's long-term plan, if there is one, or if it is 
shaping up, however you might describe it?
    Mr. Wynne. I guess I would describe it in the latter 
condition. It is shaping up. We have had, I thought, a positive 
workshop, but we have had a relatively few respondents, some of 
whom have been very positive, however. And so, we are hoping to 
continue this, if you will, missionary work, together with the 
community, describing the positive attributes that are 
available at Cannon Air Force Base. As you know, we have a lot 
of our Air Force officers who, in fact, have been there. We 
were very sad to hear of the death of one of the leading town 
citizens and sponsors, and recognize that we, in his legacy, 
need to continue this work to resolve this issue.
    Senator Domenici. Well, this won't go on for long--you 
know, indefinitely, will it, Mr. Secretary or General?
    Mr. Wynne. No, sir. We are trying to draw this to a 
conclusion. I would, on the outside, because every process 
we've ever done seems to slow down, say it's this year, but I 
am trying to get it done this summer.
    Senator Domenici. Thank you very much.
    General Moseley, do you have anything to add on that? And 
I'll move over to Holloman for a moment.
    General Moseley. No, sir. I would just add that the 
community has been great to work with. It has been very open 
about the varieties of teams that have come out and looked, and 
the variety of opportunities. Doc is going to be missed by all 
of us. Randy is doing a great job, and the community has been 
very supportive of those folks that are out there to look at 
options. We, along with the Secretary, we get weekly progress 
reports. The staff understands that there is a motivation to do 
this sooner, versus later.
    Senator Domenici. What does the Air Force need from moving 
over there, now, to the other side of the State--White Sands 
Missile Range, Alamogordo, and New Mexico--to make sure that 
joint training becomes a reality? Fort Bliss is becoming a 
training area of major proportions. And so, the question is, 
clearly, how will White Sands Missile Range and--Holloman fit 
into that, if you know?
    General Moseley. Sir, let me address that one, because it 
gets into ranges and training space. It would be no surprise 
for you to hear an Air Force chief say, ``Big ranges, 
supersonic airspace, ranges that we can drop bombs on are 
premium commodities for us these days.'' The ranges that we 
have in New Mexico, the ranges that we have in Alaska, the 
ranges that we have in Utah, Arizona, and Nevada, cannot be 
replicated anywhere. We have to hang onto those ranges and 
avoid encroachment.
    The footprint of the weapons that we have now require 
larger airspace. The speed of the aircraft require bigger 
spaces. And the ability to instrument these ranges, and the 
ability to do this jointly, is critical to all of us.
    Senator Domenici. All right.
    General Moseley. You know very well what Red Flag is. Red 
Flag is now in two parts, one in Alaska and one in Nevada. But 
the size of the ranges and the airspace are critical for us. 
Having spent a tour or so in Alamogordo, the White Sands 
Missile Range, the McGregor airspace, and the ability to 
partner with operations out of Fort Bliss are very important 
for us in the future as we look at marrying systems, airborne 
UAVs and weapons with our Army brothers and sisters. So, sir, 
that range is important to us.
    Senator Domenici. Well, I want to thank both of you for 
your continued cooperation. And I think I speak for the entire 
community, I don't think there is a more cooperative community 
in all of the United States than that one. And it has been 
reciprocal on the part of the Defense Department. It's obvious 
that the mission at Cannon is changing. It is clearly not going 
to be the same kind of Air Force base it was before, a single 
purpose. Clearly, it's being looked at at a much--in a much 
broader way. And I think that's good for the country, in terms 
of what I see as this joint operation concept, which it may end 
up taking the lead in. And, for that, we're grateful.
    Mr. Chairman and co-chairman, you have helped us get to 
where we are, and we're very appreciative. We will always be 
appreciative for it. Thank you.
    Senator Stevens. Thank you.
    Senator Dorgan, you said you had another question?
    Senator Dorgan. Mr. Chairman, I didn't want the term 
``ancient'' to hang out there until the next hearing. ``Ancient 
aircraft.'' I wanted to make a point, if I can.
    I think your comments and the comments by Senator Inouye 
about modernization are really important. There's no question 
that we have to move to a new bomber at some point, support the 
C-17, support the F-22, and so on. But I do want to point out, 
with respect to the F-52 flight--or B-52 airplanes, these are 
not ancient planes. It is true the airframe has some time on 
them. But they are low-hour airplanes. When you get on an 
airplane at the airport out here, you're probably, in most 
cases, going to fly a commercial airliner that has three and 
four times the hours the average B-52 has on it.
    Number two, most of that B-52 is new, and we've spent a 
great deal of money to modernize it.
    And, number three, finally and importantly, it costs one-
third the cost to fly that, versus a B-2, and one-half the cost 
to fly it, versus a B-1.
    We will need a new penetrating bomber, but we're also going 
to need bomb trucks. The least expensive bomb truck, and one 
that is still modern inside, in my judgment, is the B-52. And 
we always ought to look for the least-cost opportunity. And, as 
I said, it'll last 35 years, until that young lady's 55 years 
old.
    Mr. Chairman, thank you.
    Senator Stevens. That's a discussion for another time.
    I'd like to ask one question about satellites. We have 
really emphasized, in this subcommittee, the development, 
deployment, and protection of the military satellites. They're 
very important, not only for the GPS system, but we have lots 
of other involvement--some, highly classified. But in the last 
few years, there's been significant cost overruns, in terms of 
the satellite programs. And that includes the space-based 
infrared system (SBIRS) high and the national polar orbiting 
operational environmental satellite system. We are really 
looking now at trying to find some way to improve the program 
management and to really ensure that these technologies are 
matured.
    Can you tell us, what are you doing to follow on that 
process?
    Mr. Wynne. Well, thank you very much, Senator, for that.
    We are really taking this to heart. We have, I think, 
reduced our acquisition force in the space area way too much. 
It is now showing and telling, as a result, in cost overruns, 
due to requirements growth and/or, frankly, just bad 
engineering quality has affected us on a couple of occasions.
    We think that the first opportunity we have is to increase 
our talent pool, and manage it better, so we get the best 
talent on all these hard problems. The second thing we are 
doing is to make sure that we go with a baseline technology-
mature craft. It is a part of our configuration freeze routine 
that we are trying to make sure that we have the right level of 
technology, not more, going up on our rockets. We have 
successfully gotten our rockets to the point where they are 
very efficient launch vehicles. However, we now have to work on 
our satellites so they, if you will, can fly on a schedule.
    We are committed to bringing to your attention the reduced 
technology risk for the transformational satellite, for space-
based radar, as well as what we have done to mitigate the 
space-based infrared and the national polar orbiting 
operational environmental satellite system (NPOES) satellites.
    This is a very difficult area. I think it's one that merits 
your attention. And we are giving it that.
    Senator Stevens. General Moseley, our conference report 
last year highlighted this and asked the Air Force to really 
monitor the space radar and transformational satellite 
communications program. Can you tell us what steps have been 
taken to follow up on that urgency?
    General Moseley. Sir, as we've talked about the F-22 and 
the tanker, to build an A model, or to build an initial block 
satellite is what Secretary Wynne and I have pressed on the 
staff. Instead of attempting to upgrade this thing as it is 
being built, our desire is to freeze the configuration, whether 
it is TSAT or whether it is space radar or whether it is any of 
our new satellites, so that we don't continue to add things to 
it and increase cost and risk to the program. Because by doing 
that, the contractor, the user, and the end result is, it takes 
longer, it costs more money, and there's more risk.
    We have also focused on the known technologies. Space radar 
is a good example of what's out there, as far as the modules 
and the sensors to build the plan or array that exists today, 
instead of trying to leap out 10 or 15 or 20 years into the new 
technology.
    So, sir, the two of us have been taking this very seriously 
since our assumption of these jobs to try to get the cost down 
on the satellites, the cost down on space operation, and a lot 
more visibility into the acquisition process and the 
contracting process, to be able to deliver these things on time 
and on schedule.
    Senator Stevens. Well, thank you very much.
    For the benefit of Senator Domenici and our co-chairman, I 
want to make sure they have met these young men and women 
you've brought to this--to the hearing today. Senators, let me 
introduce to you Polly-Jan Bobseine--is that right?
    Sergeant Bobseine. That's right, thank you.
    Senator Stevens And Tec Sergeant Brad Reilly----
    Sergeant Reilly. Yes, sir.
    Senator Stevens [continuing]. And Lieutenant Colonel Ann 
Konnath--is that right, Colonel?--and Lieutenant Colonel Trey 
Turner. We're delighted to have you with us today. They've all 
had repeated assignments to the war zone, and deployments, and 
I guess that Polly-Jan is going back again soon. She's just 
turned 21.
    General Moseley. Sir, Sergeant Reilly is going back in 
July. Senior Airman Bobseine is going back in June. So, this'll 
be five deployments for him, after July, and four for her, 
after June.
    Senator Stevens. We appreciate your commitment to our 
country. We're proud to have you here with us.

                     ADDITIONAL COMMITTEE QUESTIONS

    We thank the General and the Secretary for appearing here 
today. And we also, obviously, thank those who have accompanied 
you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted to Michael W. Wynne

               Questions Submitted by Senator Ted Stevens

                          JOINT STRIKE FIGHTER

    Question. The Joint Strike Fighter will incorporate advanced 
technologies in a number of areas. How can you be assured that JSF is 
ready for production when so little of the test program has been 
completed?
    Answer. The Joint Strike Fighter (JSF) acquisition strategy 
includes clear entry and exit criteria for critical milestones to 
ensure that technologies are mature, and required incremental test 
objectives are achieved before obligating funds for production. The 
Department conducts acquisition reviews via Integrating Integrated 
Product Teams and Overarching Integrated Product Teams, which support 
Defense Acquisition Board Reviews. Configuration Steering Boards and 
Service Acquisition Executive reviews are conducted quarterly to assess 
program performance, including test objectives, ensuring associated 
program risks are understood and appropriately mitigated. The JSF 
acquisition strategy provides the most effective balance of technical 
risk, financial resources, and the Services' operational needs.

                        ALTERNATE ENGINE PROGRAM

    Question. The Department had supported the cost-benefit advantages 
of the alternate engine program until this budget submission. What has 
changed leading the Air Force to drop this program? Are you concerned 
about the potential loss of competition in the engine program?
    Answer. During the fiscal year 2007 budget deliberations, the 
Department of Defense considered the investment cost of developing a 
second engine, the maturity of the F-135 primary engine, and the 
findings of past engine assessments. The Department of Defense 
concluded that while there are benefits to having a second engine 
source, a single engine source provides the best balance of risk and 
cost. The Air Force supports this difficult choice and remains 
committed to an F-35 that is lethal, supportable, survivable, and 
affordable.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                          SUPPLEMENTAL FUNDING

    Question. It would be helpful if you could explain how soon you 
need the Supplemental funds requested for the Global War on Terrorism, 
which were requested in mid-February. Also, could you share with the 
committee what impact there would be from any delay in receipt of the 
requested funds?
    Answer. To date, we have received $2.5 billion in Operations and 
Maintenance Bridge funding to support our day-to-day requirements in 
the Global War on Terrorism. This bridge funding lasted four months and 
we began to cash flow the war from our peacetime program in February 
2006. Any extended delay in receipt of fiscal year 2006 Supplemental 
funding jeopardizes Air Force readiness, taxes our peacetime programs 
to cash flow the war, and further exacerbates what already promises to 
be a challenging year. Without additional fiscal year 2006 Operations 
and Maintenance supplemental funding, we will exhaust currently 
available funding in August 2006.

                       KEESLER TRAINING PIPELINE

    Question. I would like to thank you for your support in helping 
with hurricane recovery efforts to include reestablishing Keesler's 
critical training mission. As I understand it, of the 56 enlisted 
initial skills training ``pipelines,'' 90 percent are now operational. 
Can you please give us an update on the status of Keesler Air Force 
Base?
    Answer. Senator Cochran, it gives us great pleasure to share with 
you the good news concerning the on-going reconstitution endeavors at 
Keesler Air Force Base. The diligent and dedicated efforts of the men 
and women of Air Education and Training Command, 2nd Air Force, and the 
81st Training Wing partnered together to ensure critical training would 
resume in an expedient timeframe at Keesler Air Force Base in the 
aftermath of Hurricane Katrina.
    All of the enlisted and officer initial skills taught at Keesler 
Air Force Base are 100 percent fully operational. In addition, 86 
percent (74 of 85) of the additional courses taught at Keesler are 
fully operational. These courses are currently conducted at alternate 
locations; however, they will be returned to Keesler Air Force Base by 
July 2006.
    We are proud of our Airmen who tirelessly reflect the strength, 
tenacity, and dedication necessary to recover our training due to one 
of the worst natural disasters in the history of the United States.
    Thank you and the great citizens of Mississippi for their continued 
support in rebuilding Keesler Air Force Base.

                      JSF COMPETITIVE PROCUREMENT

    Question. As I understand it, because of fiscal reasons, the 
Department intends to pursue a sole source contract for the Joint 
Strike Fighter aircraft. Secretary Wynne, it would appear there would 
be far greater benefits, such as improved performance, reduced risk, 
increased readiness, and lower costs, resulting from contract 
competition. As long as there is no delay in fielding the Joint Strike 
Fighter, are you supportive of using a competitive procurement process?
    Answer. There are currently three primary F-35 (JSF) program 
contracts. Lockheed Martin is the sole source provider for the Air 
Vehicle and Air Systems component piece of the aircraft. Pratt and 
Whitney (P&W) F135 and General Electric (GE)/Rolls Royce (RR) Fighter 
Engine Team (FET) F136 are the two contracted engine suppliers.
    During the fiscal year 2007 budget deliberations, the Department of 
Defense considered the investment cost of developing a second engine, 
the maturity of the P&W F135 primary engine, and the findings of past 
engine assessments. The Department of Defense concluded that while 
there are benefits to having a second engine source [F136 alternate 
engine], a single engine source [P&W F135] provides the best balance of 
risk and cost. The Air Force supports the difficult choice to cancel 
the F136 alternate engine and remains committed to an F-35 that is 
lethal, supportable, survivable, and affordable.

               SPACED-BASED INFRARED SYSTEMS HIGH PROGRAM

    Question. We have been monitoring the progress on the Space-based 
Infrared Systems High program to ensure the Nation maintains its early 
warning capability. I understand the Air Force had to seek 
recertification of the Space-based Infrared Systems program in December 
after the latest Nunn-McCurdy breach for the program. Mr. Secretary, 
what is the status of this program, and when will it be completed?
    Answer. The Defense Acquisition Executive (DAE) certified a 
restructured Space-based Infrared System (SBIRS) program to the 
Congress on December 12, 2005. The restructured program will include 
completion of the development program (two Geosynchronous Earth Orbit 
(GEO) satellites, two Highly Elliptical Orbit payloads, and associated 
ground system) and procurement of one geosynchronous satellite. The 
contract for the procurement satellite shall not be awarded until there 
is confidence in the first developmental GEO satellite. An Acquisition 
Decision Memorandum restructuring the SBIRS program and providing 
specific tasking was signed by the DAE on December 15, 2005.
    GEO payload/spacecraft bus mate is scheduled for July 2007, leading 
to a GEO 1 launch date of October 2008.
    GEO Early On-orbit Test (GEOT) software has made significant 
progress. Prior planning combined the first three software releases 
into a single block, GEOT-C. This software block is being used for the 
initial GEO Systems Integration Tests. When complete, the GEOT-D 
software block will serve as the initial launch baseline. The 
restructured SBIRS program should be completed by fiscal year 2013.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns

                              500 MISSILES

    Question. The QDR has changed the focus of our strategy toward 
these irregular threats. These are the same threats that caused us to 
re-think our Nuclear Posture in 2002. The Nuclear Posture Review was 
released in the wake of 9/11 when our forces were engaged on the ground 
in Afghanistan. The irregular threats that we face in the war on terror 
had become very real for the American people during the winter of 2001 
and 2002; perhaps many have already forgotten how real those threats 
are. In the face of that changing reality the Nuclear Posture Review 
was a complete change in strategic doctrine. If I might add, the NPR 
was a policy document that was mandated by Congress. That policy 
document did two major things:
  --It reduced the number of operationally deployed nuclear warheads 
        from over 6,000 to around 2,000.
  --It expanded the role of nuclear deterrent to consider it as an 
        effective countermeasure against the possible use of Weapons of 
        Mass Destruction by a rogue state.
  --The Nuclear Posture review both expanded the role of nuclear 
        deterrence, and decreased the number of warheads, setting the 
        number of ICBMs around 500.
    What has changed since January 2006, to necessitate a further 
reduction in our ICBM force? Am I correct in concluding that this is 
simply a budget decision that is driving strategy?
    Answer. The Quadrennial Defense Review (QDR) allowed us to test our 
assumptions about the continuously changing nature of the world. The 
QDR reevaluated our strategic nuclear force posture and determined that 
with minimal and acceptable risk we can make further modest reductions 
and retire 50 Minuteman IIIs. This represents a 10 percent reduction in 
the size of the Minuteman III force as envisioned by the NPR from 2001. 
The ICBM reduction maintains an effective, balanced nuclear force for 
worldwide deterrence.
    This reduction also provides us with additional test assets to 
ensure the viability of the system for years to come.

                          ICBM FORCE REDUCTION

    Question. Nuclear weapons technology continues to proliferate. 
Right now we are seeing great advances in missile technology in Iran 
and North Korea, and we are seeing a concerted effort to acquire 
nuclear weapons from both of these states which are openly hostile to 
the civilized world.
    Considering this proliferation, why would we consider reducing our 
ICBM fleet further when the NPR numbers were based on ``having the 
smallest nuclear fleet possible?'' In other words, the target set of 
nuclear capable, WMD capable, and rogue states seems to have remained 
constant, so why the change?
    Answer. The Quadrennial Defense Review (QDR) allowed us to test our 
assumptions about the continuously changing nature of the world. The 
QDR reevaluated our strategic nuclear force posture and determined that 
with minimal and acceptable risk we can make further modest reductions 
and retire 50 Minuteman IIIs. This represents a 10 percent reduction in 
the size of the Minuteman III force as envisioned by the NPR from 2001. 
The ICBM reduction maintains an effective, balanced nuclear force for 
worldwide deterrence.

                               B-52 CUTS

    Question. Another example of questionable budget driven decisions 
is your decision to cut the B-52 fleet in half (from 94 to 56). The B-
52 has proven itself time and time again as a work horse and a force 
multiplier over the battlefield. With the addition of GPS guided bombs, 
the B-52s over Iraq have become the modern day ``Iowa class 
battleship''. They were able to stay on station for five hours or 
longer, while tactical attack aircraft had less than an hour. They 
carried more than ten times the bomb load of fighters, and provided 
precision strike every bit as good.
    If there is no new long-range strike capability on the drawing 
board until at least 2016, why would you cut the most versatile long-
range bomber in the fleet without anything on the drawing board any 
time in the near future?
    Answer. The proposed reduction in B-52 aircraft is from the Air 
Force program of record, 76 total aircraft, down to 56 total aircraft 
resulting in a 27 percent reduction. The 94 total aircraft in testimony 
includes the Congressionally-restricted 18 excess attrition reserve 
jets kept in the inventory since 1995.
    The imperatives for transformation, recapitalization and 
modernization levy requirements on the Air Force in excess of available 
resources. The fiscal year 2007 President's budget request successfully 
balances the imperatives of transformation and recapitalization against 
the sustainment and modernization of the legacy Air Force fleet. A 
reduction in the number of B-52H aircraft is possible given the 
enhanced conventional capabilities across the Air Force since 2003. The 
B-1, B-2 and B-52 bombers all carry similar satellite-guided 
conventional weapons though each offers unique capabilities. The Air 
Force assessed the operational risk associated with the drawdown and 
concluded the proposed bomber force meets any Combatant Commander 
operational war plan or major contingency operation plan. The 
modernized bomber fleet will be more lethal, responsive and survivable 
as a result of planned investments in advanced weapons, increased 
accuracy, integrated data links, improved connectivity, improved threat 
awareness systems, low observability upgrades and improved electronic 
protection.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                    ROBUST NUCLEAR EARTH PENETRATOR

    Question. What assurances can you give us that RNEP is dead? Are 
you aware of plans to re-start the RNEP program at a future date?
    Many, including myself, who fought to eliminate funding for RNEP, 
urged the Administration to consider conventional bunker buster 
alternatives. The fiscal year 2006 Defense Appropriations Conference 
report provided $4 million for such a purpose.
    Answer. The Nuclear Weapons Council officially terminated the joint 
Air Force-National Nuclear Security Administration (AF-NNSA) Robust 
Nuclear Earth Penetrator (RNEP) Concept Feasibility Study on 25 January 
2006. The Air Force terminated all RNEP-related activities at the start 
of fiscal year 2006. The Air Force has not requested any funding for 
RNEP in the fiscal year 2007 President's budget request and does not 
plan to ask for funding in the future.

                            SLED TEST STATUS

    Question. What is the status of the sled test? I understand the 
sled test will take place at Holloman Air Force Base in New Mexico. 
True? What assurances can you give us that the test is not a back door 
to resume the Robust Nuclear Earth Penetrator study?
    Answer. The Secretary of Defense has elected to have the Defense 
Threat Reduction Agency (DTRA) plan and conduct the penetrator sled 
test. Further, the $4 million appropriated in fiscal year 2006 to the 
Air Force for the sled test has been transferred to DTRA for execution. 
The Air Force has not committed any additional funds other than those 
appropriated to the sled test. The Air Force is participating in the 
test planning process at DTRA's request, but has only a limited role. 
Questions concerning penetrator sled test specifics should respectfully 
be addressed to DTRA.

                    SLED TEST ASSISTANCE FROM SANDIA

    Question. In response to December 21, 2005 letter to the Secretary 
of Energy Samuel Bodman expressing concern that the sled test would 
imply continued research on RNEP, Ambassador Linton Brooks of the 
National Nuclear Security Administration responded that no sled test 
would be conducted at Sandia or any other facility. However, he did say 
that ``[i]f DOD chooses to conduct the test at a DOD facility, we 
believe it is fully consistent with the intent of Congress for Sandia 
to provide equipment and technical expertise in support of a DOD study 
of conventional earth penetrators.''
    Has the Air Force requested assistance and technical expertise from 
Sandia? What specifically has been requested? Could any of the 
assistance provided be useful for a nuclear bunker buster study?
    Answer. The Air Force has not requested any assistance or technical 
expertise from the Department of Energy national laboratories. The 
Secretary of Defense has elected to have the Defense Threat Reduction 
Agency (DTRA) plan and conduct the penetrator sled test. The Air Force 
is participating in the test planning process at DTRA's request, but 
has only a limited role. Questions concerning penetrator sled test 
specifics should respectfully be addressed to DTRA.
                                 ______
                                 
           Questions Submitted to General T. Michael Moseley

              Questions Submitted by Senator Thad Cochran

                   PERSONNEL END STRENGTH REDUCTIONS

    Question. General Moseley, in reviewing the Air Force 
transformation efforts, I noticed your proposal to reduce personnel end 
strength by approximately 40,000 over the next five years. General, 
what functions are we giving up with these reductions and are we 
balancing needed capabilities with this transformation?
    Answer. The Air Force is committed to developing and caring for our 
Airmen in order to maintain their competitive advantage in both war and 
peace. We must balance the needs of our current force to fight today's 
wars with the need to prepare our future force to meet the challenges 
of the future. We must transform our Airmen as we transform our force 
structure, organizations, and processes. Through the savings generated 
by transformation, we will recapitalize our force to prepare for the 
future.
    Although we are reducing in number our most valuable resource, we 
are carefully shaping the future force by identifying capabilities our 
force will need in addition to the training and professional 
development our Airmen will need to prevail in any environment. We have 
established Air Force Smart Operations 21, an organization dedicated to 
inculcating, organizing and training our Airmen to identify process 
efficiency improvements in accomplishing their mission. By achieving an 
operating style of continuous improvement in the Air Force--focused on 
our core mission--the Air Force will better prepare for and participate 
in the joint fight, develop, maintain and sustain the warfighter edge, 
prepare motivated and accountable warriors and improve our ability to 
meet the ever-changing demands of the world, our enemies and fiscal 
constraints. This approach has already yielded results across the Air 
Force and will continue well beyond the timeframe of the manpower 
reductions. Although we recognize that much efficiencies may not be 
realized for a few years, the value of installing this approach now 
will yield some early benefits and savings.

           JOINT CARGO AIRCRAFT AND MULTINATIONAL OPERATIONS

    Question. General Moseley, I understand the Air Force and the Army 
recently completed the acquisition strategy for the new Joint Cargo 
Aircraft and a joint program office charter, with the Army as the lead 
agency. I commend the Air Force and Army for the cooperative spirit 
exemplified in the Joint Cargo Aircraft program. General, you have 
stated publicly that the Joint Cargo Aircraft would make it easier to 
operate with coalition partners during multinational operations. 
General, can you expound on the reasoning behind this statement and 
also provide this subcommittee with an update on the status of the 
program?
    Answer. The Joint Cargo Aircraft (JCA) provides valuable niche 
capabilities to nations with advanced Air Forces, and lower cost 
airlift options for nations that cannot afford larger airlift 
platforms. In addition, future JCA security cooperation efforts would 
support the Quadrennial Defense Review objectives of building 
partnership capacity and enabling partners to do more for themselves. 
These airlift capabilities are essential across the range of combat, 
stability, and humanitarian operations.
    The Acquisition Strategy Report has been signed by Under Secretary 
of Defense for Acquisition, Technology and Logistics and the Request 
for Proposal was released on March 17, 2006. We expect the source 
selection process to be completed and a contract to be awarded in 
January 2007. Additionally, we are drafting a Memorandum of Agreement 
between the Army and Air Force to clarify the roles and 
responsibilities on this joint program. We are also pressing forward on 
establishing a Joint Program Office (JPO). The JPO Charter providing 
guidance for the operation of the JPO should be completed in May and 
the JPO is still scheduled to standup on October 1, 2006.

           JOINT CARGO AIRCRAFT PROGRAM ALLIED PARTICIPATION

    Question. General Moseley, will the Joint Cargo Aircraft program 
office explore having U.S. allies join the program in the developmental 
phase--as a number of allies have done with the Joint Strike Fighter 
program?
    Answer. There are no plans to have our allies join the program at 
this time. The Joint Cargo Aircraft is being procured as a non-
developmental item; therefore, the Army does not envision a 
developmental phase. The Air Force, however, may pursue a small 
developmental period to address any potential mission unique 
requirements after source selection.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns

                        AIR FORCE PERSONNEL CUTS

    Question. Another budget decision that doesn't make sense is your 
decision to cut as many as 57,000 Active, Guard and Reserve Airmen from 
the force. The Air Force posture statement is right on target when it 
states our Airmen are the Air Force's most valuable resource. These 
young men and women are all heroes. They are heroes because they have 
volunteered to serve in a time of war. They have come forward because 
they believe in what this country stands for, and we in the Senate will 
stop at nothing to ensure that their needs are taken care of.
    Pushing these Airmen out of the Service on their return from combat 
deployments just isn't right. Sacrificing you people on the altar of 
future weapons systems is not the way we want our Nation's Armed Forces 
to be managed. This seems to be a budget driven decision that makes 
cuts based on ``efficiencies'' which have yet to be realized.
    How has the Air Force already achieved the efficiency gains 
necessary to allow these cuts?
    Answer. The Air Force is committed to developing and caring for our 
Airmen in order to maintain their competitive advantage in both war and 
peace. We must balance the needs of our current force to fight today's 
war with the need to prepare our future force to meet the challenges of 
the future. We must transform our Airmen as we transform our force 
structure, organizations, and processes. Through the savings generated 
by transformation, we will recapitalize our force to prepare for the 
future.
    Although we are reducing in number our most valuable resource, we 
are carefully shaping the future force by identifying capabilities our 
force will need in addition to the training and professional 
development our Airmen will need to prevail in any environment. We have 
established Air Force Smart Operations 21, an organization dedicated to 
inculcating, organizing and training our Airmen to identify process 
efficiency improvements in accomplishing their mission. By achieving an 
operating style of continuous improvement in the Air Force--focused on 
our core mission--the Air Force will better prepare for and participate 
in the joint fight, develop, maintain and sustain the warfighter edge, 
prepare motivated and accountable warriors and improve our ability to 
meet the ever-changing demands of the world, our enemies and fiscal 
constraints. This approach has already yielded results across the Air 
Force and will continue well beyond the timeframe of the manpower 
reductions. Although we recognize that many efficiencies may not be 
realized for a few years, the value of installing this approach now 
will yield some early benefits and savings.

                           COMPETITOR STATES

    Question. In your posture statement you refer to ``competitor 
states, that are developing air and air defense systems that could 
threaten our ability to maintain Air and Space Dominance.''
    What ``competitor states'' are you talking about that are hostile 
to the foreign policy objectives of the United States?
    As a follow-up: Are you telling us that the United States Air Force 
cannot hold its own with China? Or are you saying that we should be 
prepared to face a military threat from India? If so, why are we 
considering selling top of the line military hardware to India, and why 
are joining then in a landmark nuclear agreement?
    Answer. Specifically, we were referring to China and Russia which 
are developing air and air defense systems that could threaten our 
ability to maintain Air and Space dominance, especially when exported 
to nations of concern. In addition, several nations build advanced 
subcomponents or upgrade older systems to modern standards, increasing 
the capability of so-called legacy weapon systems. Although several of 
these technological competitor states are not hostile to the foreign 
policy objectives of the United States, they often export to nations 
that can threaten American interests or are politically unstable.
    We are not trying to imply that we are unable to hold our own 
against China or any other nation nor are we saying India represents a 
military threat. We used India as an example of a nation that is 
producing advanced fighters, adding to the already sizable fleet across 
the globe.

                             AGING AIRCRAFT

    Question. You've talked quite a lot about the age of your aircraft, 
and that the average age of your fleet is 23 years. I am concerned that 
in the drive to retire old aircraft we risk short changing our efforts 
to maintain those aircraft for the long term. Last June I sent a letter 
to your office in regard to this effort. I was given a response last 
week. I have three questions that where not answered in a long delayed 
response letter.
    Is the Air Force canceling and delaying Aging Aircraft Structures 
technology programs and if so, why, when the USAF is currently 
grounding aircraft due to excessive cracking and corrosion?
    Answer. The Air Force is not canceling its aging aircraft 
structures technology efforts and is committed to ensuring the 
viability of aircraft weapon systems throughout their life cycles to 
encompass the full spectrum of aging aircraft issues including, but not 
limited to, aircraft structures, wiring, aerospace electronics, 
airborne subsystems, aircraft coatings, depot technologies, etc. The 
Air Force aircraft structural integrity program works to reduce the 
risk of structural failures, while individual inventory assessments by 
the Air Force Fleet Viability Board focus on identifying technical 
issues and the cost of continued ownership.
    Question. Are other weapons systems and avionics upgrade programs 
continuing for aircraft which have had their aging aircraft structures 
programs cut? Why are we modernizing aircraft that are not being 
maintained?
    Answer. While it was necessary for the Air Force to reduce core 
aging aircraft funding to support higher Air Force priorities, the 
shift in focus resulting from this action does put increased emphasis 
on avionics upgrades in an effort to best position our aging aircraft 
fleet to support current Air Force mission objectives. The Air Force 
strives to maximize military utility from our legacy systems, while 
working to better and more efficiently meet warfighter requirements 
through recapitalization and modernization. The Air Force remains 
committed to ensuring the viability of aircraft weapon systems 
throughout their life cycles and continues to invest the resources 
necessary to maintain these aircraft.
    Question. With the clear recognition that corrosion related costs 
are continuing to escalate, why would the Air Force's aging aircraft 
office drop virtually all work in this area?
    Answer. Aging aircraft funding augments ongoing corrosion efforts, 
but is not the primary source of funding for these efforts. While it 
was necessary to reduce core aging aircraft funding to support higher 
Air Force priorities, the Warner Robins Air Logistics Center continues 
to lead the way in corrosion-related efforts for the Air Force. 
Further, as the Air Force has shifted the focus of its aging aircraft 
program to those efforts that will best position its aging aircraft 
fleet to support current Air Force mission objectives, this is not at 
the expense of aircraft structures. The Air Force will continue to 
manage the structural viability of our fleet today and in the future to 
include corrosion-related efforts.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                     C-17 TRANSPORT--GENERAL ISSUES

    Question. I understand that the C-17 is performing remarkable well 
in Iraq and Afghanistan as a medevac, personnel, and cargo transport.
    Could you describe the current intra-theater utilization rate of 
the C-17 in support of contingency operations?
    Answer. We currently have approximately 20 C-17s supporting U.S. 
Central Command's intra-theater airlift requirement. The intra-theater 
lift supports cargo and passenger movements within the U.S. Central 
Command's area of responsibility (AOR). Over the past three months, 
Mobility Air Forces (MAF) C-17s have flown an average of 2,385 hours 
per month in this role. The C-17 also continues to support U.S. Central 
Command's inter-theater airlift requirements as well, moving passengers 
and cargo between combatant commander AORs. An example of this mission 
is the deployment of an Army unit from Fort Bragg, NC, to an operating 
location in Iraq or Afghanistan. Additionally, MAF C-17s play a 
critical role in the airlift, both intra- and inter-theater, of our 
wounded service men and women from Central Command's AOR to the United 
States. The most recent 3-month average for C-17 flying hours in this 
role is 1,712 hours. All in all, the C-17s have proven to be an 
absolutely critical warfighting resource servicing both inter- and 
intra-theater airlift requirements. As the land forces Concept of 
Operations continue to evolve, we believe the intra-theater airlift 
role of the C-17 will only continue to grow.
    Question. Assuming these rates remain generally consistent over the 
next several years, what affect do you believe attrition could have on 
the Air Force's projected strategic airlift requirements?
    Answer. The C-17 has been accumulating flying hours beyond service 
life projections during the Global War on Terrorism; in other words, we 
have been ``over-consuming'' our C-17 fleet. If these rates continue, 
C-17s will reach the end of their service life more quickly, 
necessitating the need to recapitalize sooner. Any reduction, either by 
use in secondary role or non-availability due to over-consumption, 
results in increased risk as outlined in the Mobility Capabilities 
Study.

           C-17 TRANSPORT AND STRATEGIC AIRLIFT REQUIREMENTS

    Question. Up until November 2005, the Air Force had consistently 
stated its requirement for a total of 222 C-17s, but following a budget 
rescission directive from the Secretary, announced that it would end 
its procurement of C-17s after purchasing just 180, and terminate the 
line after 2008.
    To support the change in its position from a requirement of 222 C-
17s to 180 C-17s, the Air Force cited an internal Mobility Capabilities 
Study (MCS) that concurred with the view that 180 C-17s could meet the 
Air Force's airlift requirements.
    However, this pre-9/11 commissioned MSC analysis failed to consider 
the increased use of the C-17, particularly intra-theater needs in Iraq 
and Afghanistan. The study also did not take into account the shifting 
of a number of heavy brigade combat teams back to the United States 
from overseas stations, along with the Army's requirements for 
additional aircraft as it transitions to a modular, rapid deploying 
force.
    Could you explain to the Committee why, over a matter of just a few 
months, your airlift requirement changed so dramatically?
    Answer. The MCS study began in the Spring of 2004 and completed its 
analysis in the Summer of 2005 with formal release of the study results 
by the Deputy Defense Secretary in December 2005. The MCS found that 
the current inter-theater airlift program--180 C-17s and 112 modernized 
C-5s--would support DOD war-fighting demands with acceptable risk. The 
Quadrennial Defense Review echoed and supported those findings. ``The 
analysis conducted within the MCS analysis was based on current, 
approved Defense Planning Scenarios and recent (post 9/11) operational 
experience.'' (MCS Executive Summary)
    The MCS study solicited inputs from the Services describing their 
projected force structure and Concepts of Operation for the 2012 
timeframe modeled in the study. The MCS assumptions included the most 
current version (July 2004) of the Integrated Global Presence and 
Basing Strategy position.
    The Air Force program of record reflected in the fiscal year 2007 
President's budget request is 180 C-17s. Although advocates have 
pressed for 222 C-17s, the Air Force has never requested greater than 
180 C-17s in budget submissions. We are, however, reviewing the impact 
of increased C-17 utilization to support the Global War on Terrorism. 
The C-17 has been increasingly used in the intra-theater role in 
Southwest Asia to backfill demobilizing ARC (Air Reserve Component) C-
130s. This has increased the wear and tear on the C-17 fleet due to 
increased operations in an austere tactical environment and a higher 
than planned use rate. Because of this, the Air Force's number one 
unfunded priority list item is National Defense Airlift Fund Capability 
Upgrades to reset forces due to combat losses and increased 
utilization. This item includes a request for 7 additional C-17s to 
maintain capacity as C-17s are used up in the Global War on Terrorism. 
Additionally, the impact of the recent C-5 mishap is being reviewed, 
although no determination has been made yet on how to replace the lost 
capacity.
    Question. As you know, General Handy--the U.S. TRANSCOM Combatant 
Commander until mid-2005--repeatedly and publicly stated that a minimum 
of 42 additional C-17s were necessary to meet the Air Force's mobility 
needs.
    Outside of the findings of the Mobility Capabilities Study (MCS)--a 
study that many believe fails to consider a number of critical factors 
related to airlift requirements post-9/11--what evidence do you have 
that 180 C-17s will be sufficient to meet our military's future airlift 
requirements?
    Answer. The MCS study released in December 2005 by the Deputy 
Secretary of Defense is the most authoritative and current document 
describing our mobility capabilities. The MCS looked at the full range 
of the Defense Strategy to determine the demands placed on the defense 
mobility system to include the strategic airlift fleet. The study 
analyzed the 2012 force structures and Concepts of Operation provided 
by each of the Services and completed a detailed look at future 
mobility requirements.
    The MCS concluded that the programmed fleet of 292 strategic 
airlift aircraft (180 C-17s and 112 modernized C-5s) provided a 
capability sufficient to meet the warfighting demands of the defense 
strategy with acceptable risk. While recognizing the programmed fleet 
as sufficient, it caveated this finding by identifying the need for 
continued investment in the mobility system, in line with current 
priorities, in order to maintain that sufficiency.
    The C-17 has been increasingly used in the intra-theater role in 
Southwest Asia to backfill demobilizing Air Reserve Component C-130s. 
This has increased the wear and tear on the C-17 fleet due to increased 
operations in an austere tactical environment and a higher than planned 
use rate. Because of this, the Air Force's number one Unfunded Priority 
List item is National Defense Airlift Fund Capability Upgrades to reset 
forces due to combat losses and increased utilization. This item 
includes a request for 7 additional C-17s to maintain capacity. 
Additionally, the impact of the recent C-5 mishap is being reviewed, 
although no determination has been made yet on how to replace the lost 
capacity.
    Question. Based on what you know today--considering the changes 
over the past few years in operational requirements and airlift 
missions--are you able to confidently tell the Committee that the 
Mobility Capabilities Study (MCS) projections will adequately meet our 
military's airlift requirements for the so-called ``long war.''
    Answer. The MCS looked at the full range of the Defense Strategy to 
determine the demands placed on the entire defense mobility system to 
include our airlift fleet. The study analyzed the 2012 force structures 
and Concepts of Operation provided by each of the Services. This 
methodology provided an analysis of capabilities required out to 2012 
using the approved Defense Planning Scenarios for that timeframe.
    The study was completed with the participation of all of the 
Services, the Joint Chiefs of Staff, and the Office of the Secretary of 
Defense and provides the most complete assessment of future mobility 
requirements currently available to Department of Defense decision 
makers.
    The MCS concluded that the programmed fleet of 292 strategic 
airlift aircraft (180 C-17s and 112 modernized C-5s) provided a 
capability sufficient to meet the warfighting demands of the defense 
strategy with acceptable risk. The study considered the impact of 
current operations and a protracted Global War on Terrorism campaign 
along with other issues affecting demands on the mobility system in 
determining its findings. While recognizing the programmed fleet as 
sufficient, it caveated this finding by identifying the need for 
continued investment in the mobility system, in line with current 
priorities, in order to maintain that sufficiency.
    The C-17 has been increasingly used in the intra-theater role in 
Southwest Asia to backfill demobilizing Air Reserve Component C-130s. 
This has increased the wear and tear on the C-17 fleet due to increased 
operations in an austere tactical environment and a higher than planned 
use rate. Because of this, the Air Force's number one Unfunded Priority 
List item is National Defense Airlift Fund Capability Upgrades to reset 
forces due to combat losses and increased utilization. This item 
includes a request for seven additional C-17s to maintain capability. 
Additionally, the impact of the recent C-5 mishap is being reviewed 
although no determination has been made yet on how to replace the lost 
capacity.
    Question. The Mobility Capabilities Study (MCS) validated a program 
of record to procure 180 C-17s. However, the MCS assumed that 112 of 
the older C-5 transports would remain in the fleet, due to 
Congressional restrictions barring the retirement of those aircraft.
    If Congress eased the retirement restrictions placed on the 112 C-
5s, how might you manage the strategic airlift fleet differently?
    Answer. The Department of Defense (DOD) is committed through the 
Quadrennial Defense Review (QDR) to modernize the C-5 fleet and 
complete the C-17 multiyear contract. The QDR, informed by the MCS, 
confirmed the current inter-theater airlift program--180 C-17s and 112 
modernized C-5s--will support DOD warfighting demands with acceptable 
risk. A fleet of 180 C-17s and 112 modernized C-5s provides lowest life 
cycle cost (LCC) through 2025 to maintain same total airlift capacity. 
For example, there is a $28 billion LCC increase if the C-5As are 
retired and the capacity replaced with C-17s. C-5 modernization is also 
more cost effective than purchasing additional C-17s to achieve same 
capability--and it pays for itself by 2029. Even with the recent C-5 
flight mishap, a modernized C-5 fleet of 111 aircraft enables the Air 
Force to leverage the full range of both inter-theater airlifters to 
support the Combatant Commanders.
    Question. Additionally, to what extent are you concerned about the 
estimated two-year gap between the proposed termination of the C-17 
line, and the completion of the C-5 modernization program?
    Answer. The C-5 Reliability Enhancement and Re-Engining Program, 
whose reliability improvements are predominately based on a commercial 
engine (CF6) with a well-established track record, is considered to be 
a low technical risk program. We have relatively high confidence that 
it will meet our expectations for overall reliability improvements.
    Question. What if the C-5 modernization program is unsuccessful and 
you've already proceeded with closing the C-17 line? What would the Air 
Force do at that point?
    Answer. Based on low technical risk associated with the C-5 
Reliability Enhancement and Re-Engining Program, we expect the 
modernization program to succeed.
    Question. Doesn't it make the most sense to preserve the C-17 line 
until you can unequivocally confirm that upgrading the C-5 is a viable 
option?
    Answer. Keeping the C-17 line open until C-5 modernization 
improvements are unequivocally confirmed would be an expensive option. 
Given the low technical risk associated with C-5 Reliability 
Enhancement and Re-Engining Program, the Air Force is applying our 
limited resources to higher priority recapitalization efforts, 
including replacing an aging tanker fleet.

                    C-17 TRANSPORT AND ARMY MOBILITY

    Question. Reports suggest that the Mobility Capabilities Study 
(MCS)--which was supposed to provide the Pentagon an accurate 
projection of future strategic airlift requirements--neither takes into 
account (1) the Army's transition to a modular brigade force structure 
nor (2) the Future Combat Systems (FCS) program.
    Consequently it is my understanding that the Pentagon has 
commissioned a new study (MCS-06) to address these and other areas that 
the previous MCS study failed to consider in regard to the military's 
future air mobility needs.
    With this being the case, has the Army ever articulated to you or 
provided some estimate of the airlift requirements that will be 
connected to the mobilization of the 15 FCS brigade combat teams?
    Answer. The U.S. Army will be able to provide the Air Force a 
realistic projection of its future airlift requirements when the Future 
Combat System program is more mature. Both the Air Force and the Army 
are engaged in a series of functional analysis studies that may help 
provide additional insight into the airlift requirements of the Army's 
brigade-centric force.
    Question. If not, when do you anticipate that the Army will be able 
to provide the Air Force a Realistic projection of its airlift 
requirements based on its transition from a division-centric to 
brigade-centric force?
    Answer. The U.S. Army will be able to provide the Air Force a 
realistic projection of its future airlift requirements when the Future 
Combat System program is more mature. Both the Air Force and the Army 
are engaged in a series of functional analysis studies that may help 
provide additional insight into the airlift requirements of the Army's 
brigade-centric force.
    Question. To the best of your knowledge, do you believe that the 
Army's transformation efforts centered around the Future Combat System 
brigade combat teams will increase the need for flexible and versatile 
cargo aircraft like the C-17, which according to the Army's own 
projections, has the capacity to transport 3 of its next-generation 
tactical ground vehicles?
    Answer. There will be an increased requirement for more flexible 
and versatile cargo aircraft if the U.S. Army transformation employs 
the Future Combat Systems (FCS) Brigade Combat Teams using their 
``vertical maneuver'' concept. The Army concept of ``vertical 
maneuver'' is essentially the operational and tactical movement of 
multiple FCS manned ground vehicle units by air to unimproved locations 
where they can immediately fight. A possible solution would be use of 
C-17s or the Advanced Mobility Capability Concept.

                          SUBCOMMITTEE RECESS

    Senator Stevens. And then, our next hearing will be a 
closed session, in our closed session room, S-407, to discuss 
the budget request for intelligence, on April 5.
    And the subcommittee will stand recessed until that time. 
Thank you very much.
    [Whereupon, at 11:32 a.m., Wednesday, April 29, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
